<html>
<title> - H.R. 798, METHAMPHETAMINE REMEDIATION RESEARCH ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                 H.R. 798, METHAMPHETAMINE REMEDIATION
                          RESEARCH ACT OF 2005

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2005

                               __________

                            Serial No. 109-6

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
99-573                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                             March 3, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    12

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    15

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    16

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    16

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    17

                               Witnesses:

Mr. Scott M. Burns, Deputy Director for State and Local Affairs, 
  Office of National Drug Control Policy
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    24

Ms. Sherry L. Green, Executive Director, National Alliance for 
  Model State Drug Laws
    Oral Statement...............................................    25
    Written Statement............................................    26
    Biography....................................................    31

Dr. John W. Martyny, Senior Industrial Hygienist, Division of 
  Environmental and Occupational Health Sciences, National Jewish 
  Medical and Research Center
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    40

Mr. Henry L. Hamilton, Assistant Commissioner, Public Protection, 
  NYS Department of Environmental Conservation
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    46

Mr. Gary W. Howard, Sheriff of Tioga County, New York
    Oral Statement...............................................    46
    Written Statement............................................    48
    Biography....................................................    50

Dr. Robert R. Bell, President, Tennessee Technological University
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    67

Discussion.......................................................    67

              Appendix: Additional Material for the Record

H.R. 798, Methamphetamine Remediation Research Act of 2005.......    90

Section-by-Section Analysis of H.R. 798..........................    98

Statement of the National Multi Housing Council/National 
  Apartment Association Joint Legislative Program................   100

Letter to Chairman Boehlert from John David Whetstone, District 
  Attorney, Twenty-eighth Judicial Circuit, State of Alabama, 
  dated March 2, 2005............................................   102

 
       H.R. 798, METHAMPHETAMINE REMEDIATION RESEARCH ACT OF 2005

                              ----------                              


                        THURSDAY, MARCH 3, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                 H.R. 798, Methamphetamine Remediation

                          Research Act of 2005

                        thursday, march 3, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 3, 2005, the House Science Committee will hold a 
hearing on H.R. 798, the Methamphetamine Remediation Research Act of 
2005, which would establish a federal research program and a program to 
develop voluntary guidelines to help states clean up and deal with the 
environmental consequences of methamphetamine laboratories.
    Methamphetamine, also known as ``meth,'' is a highly additive, 
powerful nervous system stimulant. Meth abuse is a growing problem 
throughout the United States, and the availability of meth is 
particularly hard to control because the drug can be cheaply and easily 
manufactured in small clandestine laboratories, which are located 
primarily in motels, rental apartments and other residential settings. 
While the greatest and most obvious impacts of meth are on those who 
use the drug, meth labs may also harm those who come in contact with 
them, even after a lab is abandoned. The toxic brew involved in 
manufacturing meth can harm innocent parties, including first 
responders (such as firefighters who may become involved if a lab 
catches on fire--a not unusual occurrence because the chemicals used to 
make meth are volatile), future inhabitants of a former lab site 
(because chemicals may contaminate a site), and others through the 
environment (because chemicals may be poured down drains or otherwise 
enter the environment). According to the National Alliance for Model 
State Drug Laws, a federally-funded, nonprofit organization, 
environmental cleanup and remediation of residential meth labs is a top 
issue for many State and local governments. (Cleanup refers to the 
initial removal of visible chemicals and equipment from a meth lab; 
remediation refers to dealing with residual contamination.)
    On February 15, 2005, Ranking Member Bart Gordon, Congressman Ken 
Calvert and Chairman Sherwood Boehlert introduced H.R. 798, the 
Methamphetamine Remediation Research Act of 2005. A summary of the bill 
is included in this charter.

2. Witnesses

Mr. Scott Burns is the Deputy Director for State and Local Affairs at 
the White House Office of National Drug Control Policy (ONDCP). Prior 
to his appointment, Mr. Burns served as County Attorney in Iron City, 
Utah for 16 years.

Ms. Sherry Green is the Executive Director for the National Alliance 
for Model State Drug Laws (the Alliance) in Alexandria, VA.

Dr. John Martyny is a Certified Industrial Hygienist and an Associate 
Professor at the National Jewish Medical and Research Center (NJMRC) in 
Denver, CO. Dr. Martyny is the Principal Investigator on a project to 
determine the exposures to law enforcement, fire and hazardous 
materials officers investigating methamphetamine laboratories.

Mr. Henry Hamilton is the Assistant Commissioner for Public Protection 
at the New York State Department of Environmental Conservation.

Mr. Gary Howard is the Sheriff of Tioga County in upstate New York.

    Dr. Robert Bell is the President of Tennessee Technological 
University in Cookeville, TN.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  What are the environmental and the human health risks 
        associated with former methamphetamine laboratories? When is 
        the site of a former methamphetamine laboratory, be it a 
        private home, an apartment or a hotel, considered ``clean''?

        <bullet>  What are the obstacles to the effective cleanup and 
        remediation of former methamphetamine laboratories? What 
        policies or regulations currently guide the cleanup and 
        remediation of these sites?

        <bullet>  Is there a role for the Federal Government in 
        facilitating the cleanup and remediation of former meth labs? 
        Is that role adequately addressed in H.R. 798?

4. Background

    Methamphetamine, also known as ``meth,'' ``speed,'' or ``crank,'' 
is a powerful stimulant that initially increases wakefulness and 
physical activity but can also induce symptoms ranging from extreme 
nervousness and hyperactivity to convulsions and irreversible brain 
damage. Chronic use increases drug tolerance and deepens dependence, 
requiring users to take higher doses more frequently. This frequently 
results in amphetamine psychosis, a condition characterized by extreme 
paranoia and bizarre, violent behavior--a key factor in the death of 
most meth addicts. Since the 1970s, federal regulations have limited 
the legal uses of meth to the treatment of a handful of conditions. Use 
of meth without a prescription and the manufacture of meth without 
appropriate permission is illegal under federal law.
    The current meth abuse problem originated in California and the 
Southwest, where organized drug trafficking groups sold the drug. But 
the problem has spread considerably, with that spread facilitated by 
the proliferation of small labs that produce the drug for personal use 
and local distribution. In 1993, the Drug Enforcement Administration 
(DEA) estimated a total seizure of 218 meth labs. In 2003, federal, 
State and local law enforcement officers netted over 10,000 labs and, 
in 2004, almost 15,000 labs were seized. These small labs account for 
the majority of seizures, and they are present in every state in the 
U.S., taxing the resources of local law enforcement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of the 32 chemicals that can be used in varying combinations to 
make or ``cook'' meth, one-third are extremely toxic and many are also 
reactive, explosive, flammable, and corrosive. Nearly one in five labs 
is found because of fire or explosion, injuring or killing the 
individuals involved as well as the law enforcement or firefighters who 
respond. During use and production, meth itself and other harmful 
chemicals are released into the air and deposited throughout the 
surrounding area. Inside, these chemicals collect on countertops and 
floors, and they are absorbed into furnishings, carpets and walls. In 
addition, for every pound of meth produced, approximately five to six 
pounds of toxic byproducts remain. This waste is frequently poured down 
drains or spilled onto the ground, potentially contaminating soil, 
surface water, groundwater, and septic systems.
    Small meth labs can be set up nearly anywhere--fields, woods, 
cars--but roughly two-thirds of the labs are found in inhabited houses. 
A typical lab requires little in the way of materials, only glassware, 
hoses, a heat source and some old coffee filters. In addition, the 
ingredients used to manufacture meth are commercially available 
anywhere in the U.S. The main ingredient, ephedrine or pseudoepherine, 
is a chemical that is present in many over-the-counter cold and asthma 
medications, and the other chemicals are available in gasoline, rubbing 
alcohol, pool-cleaning supplies, drain cleaners, fertilizer and 
matchbooks. Moreover, the process itself requires almost no technical 
knowledge, involving nothing more complicated that mixing and 
siphoning, and the recipe--as well as step-by-step instructions--is 
freely and easily available on the Internet.
    The cleanup following the discovery of a meth lab can be an 
expensive and involved process. Cleanup is generally responsibility of 
State and local governments.
    States and localities have different statutes and regulations 
relating to the cleanup and remediation of meth labs, but generally 
cleanup and remediation occur in distinct phases. The first phase is 
the initial cleanup of gross contamination, which includes the removal 
of illicit laboratory equipment, chemicals and obviously contaminated 
furnishings. Since meth labs are crime scenes, law enforcement is 
typically first to respond, securing evidence and overseeing phase one 
cleanup activities.
    After a site has been secured and is no longer part of a criminal 
investigation, the second phase of the cleanup begins--the remediation 
of harder to identify residual contamination. At this phase, property 
owners are notified and responsibility passes to them, often with a 
recommendation to contact a contractor. There are no national 
guidelines or regulations on how to clean up a residential meth lab for 
reoccupation. States struggle to protect the public and to find an 
answer that is practical for property owners; their responses range 
from doing almost nothing to complete demolition. However, most 
remediation efforts involve one or more of the following measures: 
ventilation, encapsulation or sealing of interior surfaces, removal of 
drywall, decontamination of ventilation or wastewater systems, and 
removal of soil or treatment of contaminated groundwater.
    Even where State and local regulations or ordinances exist, states 
and localities usually do little to enforce cleanup rules. Some public 
health officials try to force reluctant owners by threatening 
condemnation of the property. Cleanup is expensive; the cost to 
remediate a 1,500 square foot rambler can range from $5,000-$15,000, 
and most insurance companies exclude ``contamination'' and ``felony 
activities'' from coverage for private homes and some commercial 
properties. Individuals buying or moving into a property that was 
previously a meth lab may have no way of knowing that their new 
residence was once a meth lab and the attendant risks.
    Seven states have established by statute, regulation or guideline a 
risk-based decontamination standard specific to meth.\1\ But there is a 
great deal of debate over what standard is appropriate. Should the 
standard be based on risk to human health (and, if so, what level of 
risk is appropriate) or be based on the feasibility of cleaning up a 
site, or some mix of the two? How should one determine the risk 
associated with a meth ingredient that might be around a typical 
household for legitimate purposes? The questions are further 
complicated by the lack of research on the long-term health effects of 
former meth labs. Much of the research that does exist on meth 
ingredients is based on occupational exposures that occur when meth's 
precursor chemicals are used for legitimate industrial purposes. Those 
uses are unlikely to produce the short-term exposures to high 
concentrations of these chemicals that can occur in meth production. 
Little is also known about the consequences of long-term exposure to 
the traces of chemicals that individuals, including children, may 
receive from living in a former meth lab, although cases of lingering 
health effects from such exposures have been reported.
---------------------------------------------------------------------------
    \1\ The seven states with the risk-based decontamination standard 
for meth are Alaska, Arizona, Arkansas, Colorado, Minnesota, Tennessee 
and Washington.
---------------------------------------------------------------------------
    Most states have little to no funding to conduct research on meth 
cleanup. The National Alliance for Model State Drug Laws has pushed for 
a federal program of research to validate sample collection methods, 
identify primary and persistent chemicals of concern, determine the 
most effective remediation techniques for particular surfaces (e.g., 
porous and nonporous), and help develop assessment and remediation 
guidance for states and localities based on short- and long-term health 
effects. A federal program could also aid in the development of field 
tests kits for meth and other hazardous chemicals--another pressing 
need.

5. Section-by-Section Description of H.R. 798

Section 1. Short title.

    The Methamphetamine Remediation Research Act of 2005

Section 2. Findings.

Section 3. Voluntary Guidelines.

    Requires the Assistant Administrator for Research and Development 
at the Environmental Protection Agency (EPA), in consultation with the 
National Institute of Standards and Technology (NIST), to establish, 
within one year, voluntary guidelines for the remediation of former 
methamphetamine labs, including guidelines for preliminary site 
assessments and the remediation of residual contaminants.
    Requires that, in developing the guidelines, the Assistant 
Administrator consider relevant standards, guidelines and requirements 
in federal, State and local laws and regulations; the varying types and 
locations of former methamphetamine labs; and expected costs.
    The voluntary guidelines are to be used to assist State and local 
governments. Requires the Assistant Administrator to work with State 
and local governments and other relevant non-federal agencies and 
organizations, including through the conference required by section 5, 
to promote and encourage the appropriate adoption of the voluntary 
guidelines.
    Requires the Assistant Administrator to periodically update the 
voluntary guidelines, in consultation with states and other interested 
parties, to incorporate research findings and other new knowledge.

Section 4. Research Program.

    Requires the Assistant Administrator to establish a research 
program of research to support the development and revision of the 
voluntary guidelines in section 3. Requires research to:

        <bullet>  identify methamphetamine laboratory-related chemicals 
        of concern,

        <bullet>  assess the types and levels of exposure to chemicals 
        of concern that may present a significant risk of adverse 
        biological effects,

        <bullet>  better address biological effects and minimize 
        adverse human exposures,

        <bullet>  evaluate the performance of various methamphetamine 
        laboratory cleanup and remediation techniques, and

        <bullet>  support other priorities identified by the Assistant 
        Administrator in consultation with states and others.

Section 5. Technology Transfer Conference.

    Requires the Assistant Administrator to convene within 90 days of 
the date of enactment, and every third year thereafter, a conference of 
State agencies and other individuals and organizations involved with 
the impacts of former methamphetamine laboratories. The conference 
should be a forum for the Assistant Administrator to provide 
information on the voluntary guidelines and the latest findings of the 
research program, as well as an opportunity for the non-federal 
participants to provide information on their problems, needs and 
experiences with the voluntary guidelines.
    Requires the Assistant Administrator within three months of each 
conference to submit a report to Congress that summarizes the 
proceedings of the conference, including any recommendations or concern 
raised and a description of how the Assistant Administrator intends to 
respond to them. Requires the report to be made widely available to the 
general public.

Section 6. Residual Effects Study.

    Requires the Assistant Administrator to enter into an arrangement 
with the National Academy of Sciences within six months of the date of 
enactment to study the status and quality of research on the residual 
effects of methamphetamine laboratories. Requires the study to identify 
research gaps and recommend an agenda for the research program in 
section 4. Requires the study to focus on the need for research on the 
impact of methamphetamine laboratories on residents of buildings where 
labs are or were located, with particular emphasis on the biological 
effects on children and on first responders.

Section 7. Methamphetamine Detection Research and Development Program.

    Requires the Director of NIST, in consultation with the Assistant 
Administrator, to support a research program to develop new 
methamphetamine detection technologies, with emphasis on field test 
kits and site detection and appropriate standard reference materials 
and validation procedures for methamphetamine detection testing.

Section 8. Savings Clause.

    Provides that nothing in the Act shall be construed to change the 
regulatory authority of EPA.

Section 9. Authorization of Appropriations.

    Authorizes $3 million for each of fiscal years 2006 through 2009 
for EPA. Authorizes $1.5 million for each of fiscal years 2006 through 
2009 for NIST.

6. Current Federal Response on Cleanup and Remediation

    In October 2004, the White House Office of National Drug Control 
Policy (ONDCP), in cooperation with the Drug Enforcement 
Administration, the Department of Justice Criminal Division's Narcotic 
and Dangerous Drug Section, and various components of the Department of 
Health and Human Services, released The National Synthetic Drugs Action 
Plan. With respect to the cleanup and remediation of former meth labs, 
the plan calls on federal agencies to:

        <bullet>  Ensure adequate funding for clandestine laboratory 
        and dumpsite cleanups, including funding for sufficient 
        personnel to support laboratory cleanups and hazardous waste 
        disposal, so that cleanup costs are not a disincentive to lab 
        investigations or takedowns. Federal officials, in 
        collaboration with State agencies, should conduct a needs 
        assessment to identify potential program improvements and make 
        recommendations on specific support needed and funds required; 
        and

        <bullet>  Disseminate and apply the latest guidelines for the 
        cleanup of meth labs and, where necessary, coordinate 
        environmental remediation by appropriate entities. These 
        protocols for the adulteration and destruction of precursor and 
        essential chemicals, glassware, and meth waste should be part 
        of certification training.

EPA
    EPA can use the Comprehensive Environmental Response, Compensation 
and Liability Act (CERCLA), better known as the Superfund, to respond 
to environmental and health threats, including those posed by meth 
labs. However, the human health and environmental threat posed by small 
labs seldom rises to the necessary level to trigger a Superfund 
cleanup. On the other hand, if a ``superlab'' produced a large amount 
of chemicals that were dumped into a river or onto public grounds, a 
Superfund response might be triggered. A few former meth labs have 
become Superfund sites.
    In addition to EPA cleanup under Superfund, the Agency provides 
training for State and local responders, and it offers a wide range of 
technical and management courses designed to help responders identify 
and deal appropriately with hazardous substances.
Department of Justice: DEA and COPS
    DEA is more frequently involved in the phase one cleanup of meth 
labs than is EPA, but the extent of involvement can vary by state. 
Typically, DEA is involved in the initial cleanup of large 
``superlabs'' because they are often associated with large-scale drug 
trafficking operations. To aid in this effort, the DEA administers the 
Hazardous Waste Cleanup Program, to fund and contract for the cleanup 
of seized drug labs.
    The DEA Cleanup program is funded through the Community Oriented 
Policing Services (COPS) program. The Hazardous Waste Cleanup Program 
received about $20 million in FY04, the last year for which figures 
were available. In addition, in FY04 DEA spent about $4 million on 
additional lab cleanups and almost $2 million on grants to states to 
purchase lab cleanup equipment. Finally, DEA's Office of Training 
conducts numerous training sessions to ensure the safe and efficient 
cleanup of meth lab hazardous waste.

7. Witness Questions

    The invitation letters asked the witnesses to address the following 
questions in their testimony:
Questions for Mr. Burns:

        <bullet>  What is the extent of the methamphetamine problem, 
        including what we know about who is using it, where it comes 
        from and the impact on local communities, including the lasting 
        health and environmental effects of former laboratories?

        <bullet>  How does the Federal Government support State and 
        local agencies in the removal of hazardous waste and the 
        remediation of former laboratories?

        <bullet>  What are the principle findings and recommendations 
        in the National Synthetic Drug Action Plan with respect to the 
        cleanup and remediation of former methamphetamine laboratories? 
        Are the findings and recommendations adequately addressed in 
        H.R. 798?

Questions for Ms. Green:

        <bullet>  What is the National Alliance for Model State Drug 
        Laws? How does your organization work with states to develop 
        model drug laws? And how did your organization get involved in 
        issues related to the cleanup and remediation of former 
        methamphetamine laboratories?

        <bullet>  What is the status of State law with respect to 
        methamphetamine cleanup and remediation? How are 
        methamphetamine laboratories currently cleaned and remediated? 
        Who is performing these activities and what challenges do they 
        face?

        <bullet>  Is there a need for federal guidance and research on 
        the assessment, cleanup and remediation of residential 
        methamphetamine labs? If so, are these needs adequately 
        addressed in H.R. 798?

Questions for Dr. Martyny:

        <bullet>  How are harmful chemicals and residuals distributed 
        during the manufacture of methamphetamine? What happens to 
        these chemicals after production has ceased? And what do we 
        know about the effectiveness of cleaning techniques?

        <bullet>  What are the principal findings of your research on 
        the effects of harmful chemicals and residuals to first 
        responders investigating residential methamphetamine 
        laboratories? What are the health effects for children present 
        within homes that are used to produce methamphetamine? And what 
        are the health hazards associated with active and former 
        methamphetamine laboratories, particularly over the long-term?

        <bullet>  Where are the limitations of the current research on 
        the health exposures to these residential laboratories? Are 
        unmet research needs currently and adequately being addressed 
        by non-federal organizations and agencies? If not, what is the 
        federal role in meeting these needs?

Questions for Mr. Hamilton:

        <bullet>  What agencies, federal, State or local, currently 
        respond to a residential methamphetamine laboratory? How are 
        these laboratories assessed and cleaned? What, if any, State 
        laws or regulations guide this process? And what are the 
        limitations of these State laws and regulations?

        <bullet>  How are the residual contaminants of these 
        residential labs remediated? What happens if property owners 
        are unable or unwilling to remediate these properties?

        <bullet>  What guidance or other assistance do you need in 
        terms of chemicals involved, health hazards, and effective 
        remediation strategies? Does the Federal Government have a role 
        to play in these areas? If so, is it adequately addressed in 
        H.R. 798?

Questions for Mr. Howard:

        <bullet>  When did New York first notice an emerging 
        methamphetamine problem, both in terms of the number of users 
        and the number of laboratories? What is the estimated scope of 
        the problem today? And how has that affected your state, 
        particularly in terms of law enforcement?

        <bullet>  What agencies, federal, State or local, currently 
        respond to a residential methamphetamine laboratory? How are 
        these laboratories assessed, cleaned and remediated? And what, 
        if any, State laws or regulations guide this process?

        <bullet>  What precautions do you take when during the raid of 
        a known meth lab? What guidance do you need in terms of 
        chemicals involved, health hazards (both in terms of first 
        responders and current and future residents), and effective 
        remediation strategies? Does the Federal Government have a role 
        to play in these areas? If so, is it adequately addressed in 
        H.R. 798?

Questions for Dr. Bell:

        <bullet>  When did Tennessee first notice an emerging 
        methamphetamine problem, both in terms of the number of users 
        and the number of laboratories? What is the estimated scope of 
        the problem today? And how has that affected your state?

        <bullet>  What agencies, federal, State or local, currently 
        respond to a residential methamphetamine laboratory? How are 
        these laboratories currently assessed, cleaned and remediated? 
        What, if any, state laws or regulations guide this process? And 
        what are the limitations of these assessment and remediation 
        strategies?

        <bullet>  How has Tennessee Technological University 
        collaborated with law enforcement and local hospitals on the 
        detection and remediation of former methamphetamine labs? What 
        research, guidance or tools is needed to address the 
        environmental and health hazards of residential methamphetamine 
        laboratories? Are these needs adequately addressed in H.R. 798?
    Chairman Boehlert. The Committee will come to order.
    I want to welcome everyone here this morning for a hearing 
on one of the most disturbing trends in contemporary culture: 
the growing abuse of methamphetamines, or meth, or crank, or 
whatever you want to call it. By any other name, it is just as 
foul.
    Meth is a particular menace because it combines 
characteristics that are not usually exhibited by a single 
drug. Abused drugs tend either to be cheap, but not so potent; 
or highly potent, but relatively expensive. But meth is a 
powerful, addictive, and deadly drug that is also inexpensive 
to buy or to make and is readily accessible. Worse still, it 
destroys families and communities in areas that have been 
somewhat immune to the worst of the Nation's previous drug 
epidemics. What the crack epidemic was to the Nation's cities, 
the meth epidemic is to our rural areas.
    Unfortunately, I have been able to witness to this in my 
own Congressional District. While New York has not been a 
center of meth abuse, it started in the West Coast and has 
moved gradually but now rapidly eastward, the problem is 
growing exponentially. And Tioga County in my Congressional 
District has seen more meth lab busts than any other county in 
the Empire State. We are privileged to have with us today Tioga 
County's Sheriff, Gary Howard, and I know that he will describe 
the devastation and challenges this is causing and presenting.
    There are many aspects of the meth problem, and many things 
that must be done to combat it: strengthening law enforcement, 
improving treatment, and broadening education programs, to name 
just a few. But there is another insidious aspect of meth, and 
that is its environmental effects, which can harm individuals 
who have no connection whatsoever with making or using the 
drug: the innocents.
    It is that aspect of the meth problem that falls in our 
jurisdiction and that we will focus on today.
    The manufacture, or ``cooking'' of meth uses readily 
available, but highly dangerous chemicals. That toxic brew can 
spread its own devastation as firefighters are exposed to it, 
as chemicals are dumped into the environment and as new people 
move into the site of former meth labs. And the labs are not 
those white coat, Bunsen burner, test tube types of things that 
we are usually familiar with here in the Science Committee. 
Maybe a motel room or a third floor apartment or a trailer. 
Labs are easy to create.
    But we know very little about how much damage results from 
this aspect of the meth problem or about how to clean up and 
remediate former meth labs. States are struggling with this 
problem with little information.
    That is why I was pleased to be an original cosponsor on 
the bill Mr. Gordon and Mr. Calvert have introduced, H.R. 798, 
which takes aim at this problem. And let me point out that I 
congratulate Mr. Gordon and Mr. Calvert for the bipartisan 
leadership they are providing. It is a sensible, targeted bill 
that we have all worked on together, and I hope we can report 
it out of Committee later this month. We want to put this on a 
fast track.
    The bill would bring the resources and expertise of the 
Environmental Protection Agency and the National Institute of 
Standards and Technology to bear on the environmental aspects 
of the meth problem. States would then have some guidance as 
they decide how to protect first responders and how to clean up 
and remediate meth labs to protect so many more in the innocent 
public at large.
    I look forward to hearing our witnesses today, including my 
fellow New Yorkers, and I look forward to seeing this bill move 
forward rapidly.
    I want to yield the remainder of my time to Mr. Calvert, 
the co-sponsor of H.R. 798. I congratulate him on his 
leadership on this issue. And then we will go to the prime 
motivater of this whole endeavor, Mr. Gordon, the Ranking 
Member from Tennessee.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here this morning for a hearing on one 
of the most disturbing trends in contemporary culture--the growing 
abuse of methamphetamines, or meth.
    Meth is a particular menace because it combines characteristics 
that are not usually exhibited by a single drug. Abused drugs tend 
either to be cheap, but not so potent; or highly potent, but relatively 
expensive. But meth is a powerful, addictive and deadly drug that is 
also inexpensive to buy or to make and is readily accessible. Worse 
still, it is destroying families and communities in areas that have 
been somewhat immune to the worst of the Nation's previous drug 
epidemics. What the crack epidemic was to the Nation's cities, the meth 
epidemic is to our rural areas.
    Unfortunately, I have been able to witness this in my own District. 
While New York has not been a center of meth abuse, the problem is 
growing exponentially. And Tioga County in my District has seen more 
meth lab busts than any other county in the State. We have Tioga 
County's Sheriff, Gary Howard, with us today, and I know he will 
describe the devastation this is causing.
    There are many aspects of the meth problem, and many things that 
must be done to combat it--strengthening law enforcement, improving 
treatment, and broadening education programs, to name a few. But there 
is another insidious aspect of meth, and that's its environmental 
effects, which can harm individuals who have no connection whatsoever 
with making or using the drug.
    It's that aspect of the meth problem that falls in our jurisdiction 
and that we will focus on today.
    The manufacture, or ``cooking'' of meth uses readily available, but 
highly dangerous chemicals. That toxic brew can spread its own 
devastation as firefighters are exposed to it, as chemicals are dumped 
into the environment, as new people move into the site of former meth 
labs.
    But we know very little about how much damage results from this 
aspect of the meth problem, or about how to clean up and remediate 
former meth labs. States are struggling with this problem with little 
information.
    That's why I was pleased to be an original co-sponsor on the bill 
Mr. Gordon and Mr. Calvert introduced, H.R. 798, which takes aim at 
this problem. It is a sensible, targeted bill that we have all worked 
together on, and I hope we can report it out of Committee later this 
month.
    The bill would bring the resources and expertise of the 
Environmental Protection Agency and the National Institute of Standards 
and Technology to bear on the environmental aspects of the meth 
problem. States would then have some guidance as they decide how to 
protect first responders, and how to clean up and remediate meth labs.
    I look forward to hearing our witnesses today, including my two 
fellow New Yorkers. And I look forward to seeing this bill move forward 
rapidly.
    I want to yield the remainder of my time to Mr. Calvert, the co-
sponsor of H.R. 798. I congratulate him on his leadership on this 
issue.

    Mr. Calvert. Thank you, Mr. Chairman.
    And I am certainly proud to join you as an original co-
sponsor to Mr. Gordon's bill, H.R. 798, the Methamphetamine 
Remediation Research Act of 2005.
    Mr. Gordon, I certainly thank you for bringing this very 
important issue to the Committee's attention. I know the 
Committee's Majority and Minority staffs have worked together 
since last year to develop and revise this legislation.
    As Co-Chairman of a 100-plus member Congressional Caucus to 
Fight and Control Methamphetamine, I know of the growing meth 
problem in this nation and show no deference--I know it shows 
no deference to District or party lines. This is an issue 
everyone can agree is wreaking havoc on our communities across 
the Nation.
    As mentioned by the Chairman and Ranking Member, H.R. 798 
focuses its efforts on procedures and standards needed to 
decontaminate a site where methamphetamine is found so our 
communities can more thoroughly remediate these sites, which 
will protect our citizens and ensure the health of the 
environment. In my area in Riverside, California, 
methamphetamine production has reached epidemic proportions, 
with many of these labs having the distinction of being labeled 
``super labs.'' These labs are capable of producing over 10 
pounds of finished meth per batch. One such lab was seized in 
2003 operating out of a barn in a rural area in Riverside 
County, producing over 6,000 pounds of finished product with a 
street value of over $33 million. Over four million pounds of 
contaminated toxic soil had to be removed with heavy equipment, 
costing in excess of $226,000. Officials from the California 
Department of Toxic Substance Control has called this the most 
difficult and costly methamphetamine lab cleanup in 
California's history.
    So as you can see, this is a distressing issue which our 
region, and quite frankly most of America, is becoming all too 
familiar with. Our State and local agencies need all of the 
resources and tools we can provide them in their efforts to 
address this problem.
    I am well aware that much more needs to be done to win this 
fight against this devastating drug, I am optimistic that this 
legislation will be a good start in that fight and will be 
welcomed by our communities.
    I certainly want to thank the witnesses for being here 
today. I look forward to hearing your testimony. I am sure you 
will enlighten us on the severity of this current 
methamphetamine remediation problem and hope you will provide 
us with some constructive advice and feedback for our 
legislation.
    I am surely proud of this Science Committee for doing its 
part to fight drug addiction and specifically methamphetamine 
and those aspects that fall within our committee's 
jurisdiction. And I certainly want to thank Bart Gordon for his 
good work in this legislation, and I want to again thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Calvert follows:]

            Prepared Statement of Representative Ken Calvert

    Thank you, sir.
    Mr. Chairman, I am proud to have joined you as an original sponsor 
to Mr. Gordon's bill--H.R. 798, the Methamphetamine Remediation 
Research Act of 2005. Mr. Gordon, I thank you for bringing this very 
important issue to the Committee's attention. I know the Committee's 
Majority and Minority staffs have diligently worked together since last 
year to develop and revise this legislation.
    As a Co-Chairman of 100+ member Congressional Caucus to Fight and 
Control Methamphetamine, I know the growing meth problem in this nation 
shows no deference to district or party-line. This is an issue everyone 
can agree is wreaking havoc on our communities across the Nation. As 
mentioned by the Chairman and Ranking Member, H.R. 798 focuses its 
efforts on the procedures and standards needed to decontaminate a site 
where a methamphetamine lab is found so our communities can more 
thoroughly remediate these sites which will protect our citizens and 
ensure the health of the environment.
    In my area of Riverside, California, methamphetamine production has 
reached epidemic proportions with many of these labs having the 
distinction of being labeled superlabs--these are labs that are capable 
of producing over ten pounds of finished methamphetamine per batch. One 
such lab which was seized in 2003 operated out of a barn in a rural 
area of Riverside County and produced over 6,000 pounds of finished 
product with a street resale value of over $33 million dollars. Over 
four million pounds of contaminated toxic soil had to be removed with 
heavy equipment, costing in excess of $226,000. Officials from the 
California Department of Toxic Substance Control has called this the 
most difficult and costly methamphetamine lab clean up in California's 
history.
    So as you can see this is a distressing issue which my region, and 
quite frankly, most of America is becoming all too familiar with. Our 
State and local agencies need all the resources and tools that we can 
provide them with in their efforts to address this problem. Although we 
are all aware that much more needs to be done to win the fight against 
this devastating drug, I am optimistic H.R. 789 will be a good start in 
that fight and will be welcomed by our communities.
    I thank the expert witnesses for being here today and I look 
forward to hearing your testimony. I trust you will further enlighten 
us all on the severity of the current methamphetamine remediation 
problem and hope you will provide us with some constructive feedback on 
our legislation.
    I am truly proud that the Science Committee is doing its part in 
the fight against methamphetamine by tackling those aspects that fall 
within our committee's jurisdiction. And with that I want to thank Mr. 
Gordon again and thank you Mr. Chairman.

    Chairman Boehlert. Thank you very much, Mr. Calvert. And 
that is a nice segue into recognizing the Ranking Minority 
Member of the Committee, Mr. Gordon from Tennessee, who has 
provided leadership for the entire Committee and, indeed, the 
Congress on this very important issue that is below the radar 
screen for an awful lot of people. And we are going to do our 
level best, as a team up here, Republicans and Democrats alike, 
to educate our colleagues in the Congress and to get moving 
with the appropriate federal response to the issue.
    The Chair recognizes Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    As usual, I concur with your opening statement, not only 
your nice statements about me, but the substance of this issue. 
And I want to join you in welcoming our witnesses today and 
Representative Ken Calvert, thank you again for your work and 
your staff's work in helping us bring this H.R. 798, the 
Methamphetamine Remediation Research Act of 2005, before us.
    And I am pleased that we are getting started on this early. 
I think we will see this, as was mentioned, early on in this 
session.
    Meth abuse is an insidious problem that is spreading 
rapidly across our country. The meth epidemic destroys families 
and communities, leaving in its wake overtaxed law enforcement 
authorities, overburdened child service agencies, and toxic 
dumps wherever meth is produced.
    Last year, more than 17,000 meth labs were seized 
nationwide. In my home State of Tennessee, law enforcement 
authorities seized nearly 1,200 labs and more than 700 children 
were placed in state custody as a result of meth lab seizures.
    Now let me tell you about the children.
    The addiction to methamphetamine is so great that it 
overshadows the parental instincts. And so when a meth lab is 
created in a home, children aren't shielded at all from this. 
And so when the law enforcement agencies go in and take the 
parents away, they wind up also having to take the children to 
a foster home. Now that is a $25,000 or so bill sent to the 
taxpayer, but more than that, what happens is that those 
children have to leave their toys and their clothes behind, 
because they are so toxic. They are put in something called a 
bunny suit, taken to a hospital with an attempt to try to 
decontaminate them, but we really don't know what the long-term 
effects are. Health-wise we don't know the effects, but we 
certainly know having to grow up in a foster home is not the 
best situation with these children. So this is something that 
is very important.
    And now I have mentioned some statistics in Tennessee, but 
many other states also face problems of similar size.
    In addition, meth continues to spread into states where it 
was once thought not to be a problem.
    H.R. 798 is the result of a roundtable held in my District 
almost a year ago. Working with local officials and 
representatives of Tennessee Technological University, we 
identified a set of problems that needed to be addressed aside 
from more funding for law enforcement and education 
initiatives. These problems included the need for health-based 
guidelines for clean up of meth labs, improved field equipment 
to detect meth labs, studies on the long-term health impacts on 
children found in meth labs, and first responders who may be 
exposed in the line of duty.
    These issues all have a strong research component and could 
be addressed by the agencies within the Science Committee's 
jurisdiction.
    And once again, to put a quick face on this, suppose your 
parents bought a duplex, with the income being a part of their 
retirement. Well, somebody moves into one side of this duplex, 
sets up a meth lab. It winds up being busted, and for all 
practical purposes, they have got a contaminated duplex they 
can't rent, sell, or do anything else with because there are 
really no standards right now as to what is clean up. And part 
of what we are going to try to do is set those standards so 
that we will know what is going to be cleaned up, not only for 
public safety, but also that property then can be put back to 
good use.
    And for law enforcement agents, right now, if they have to 
swipe a doorknob or a car or something for evidence, they have 
to then send that in and some days later they get it back. We 
hope we are going to be able to establish some equipment that 
is going to allow them to do that right there on the spot, 
which will then give them the due process to go in and make a 
bust right on the spot there.
    So really this bill is aimed at protecting innocent people 
whose lives are endangered by these illegal activities, and I 
think this will help us move that process forward.
    And again, I thank the Chairman for his help in putting the 
bill together and for having this hearing today and moving this 
forward.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    I want to join Chairman Boehlert in welcoming everyone to this 
morning's hearing.
    First, I would like to thank Rep. Calvert and Chairman Boehlert for 
working with me on H.R. 798, the Methamphetamine Remediation Research 
Act of 2005. Rep. Calvert and Chairman Boehlert both recognize the 
challenges facing our local communities caused by meth abuse and 
production. I am pleased that we are moving this bill so early in the 
109th Congress.
    Meth abuse and production is an insidious problem that is spreading 
rapidly across our country. The meth epidemic destroys families and 
communities, leaving in its wake overtaxed law enforcement authorities, 
overburdened child service agencies and toxic dumps wherever meth is 
produced.
    Last year more than 17,000 meth labs were seized nationwide. In my 
State of Tennessee, law enforcement authorities seized nearly 1,200 
labs and more than 700 children were placed in State custody as a 
result of meth lab seizures and incidents. While these numbers are 
staggering, they represent only instances where labs were discovered. 
Some law enforcement officials estimate that only 30 percent of meth 
labs are ever found.
    While I've mentioned some statistics from Tennessee, other states 
face problems of similar size. In addition, meth continues to spread 
into states where it was once thought not to be a problem. With 
distributed small-scale production and because meth abuse primarily 
occurs in rural areas, citizens often don't realize there is a problem 
until it has already sunk its roots deep into their community.
    H.R. 798 is the result of a roundtable I held in my district almost 
a year ago. Working with local officials and representatives of the 
Tennessee Technological University, we identified a set of problems 
that needed to be addressed aside from more funding for law enforcement 
and education initiatives.
    These problems included the need for health-based guidelines for 
the cleanup of meth labs, improved field equipment to detect meth labs, 
and studies on the long-term health impacts on children found in meth 
labs and first responders who may be exposed in the line of duty.
    These issues all have a strong research component and could be 
addressed by agencies within the Science Committee's jurisdiction. H.R. 
798 is the product from working with outside groups and Rep. Calvert 
and Chairman Boehlert. In addition, the National Alliance for Model 
State Drug Laws has been a valuable resource as we were developing this 
bill.
    H.R. 798 is not a total solution to the methamphetamine epidemic. 
Unfortunately, there will always be people who decide to harm 
themselves by using and manufacturing dangerous drugs such as 
methamphetamine. H.R. 798 is aimed at protecting innocent people whose 
lives are endangered by these illegal activities.
    I want to thank our witnesses for taking time from their busy 
schedules to appear before the Committee today.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    [The prepared statement by Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good afternoon. I want to thank Chairman Boehlert, Ranking Member 
Gordon and Representative Calvert for introducing the Methamphetamine 
Remediation Research Act of 2005 and for holding a hearing on this 
legislation. As a cosponsor of H.R. 798, I strongly support the 
establishment of a federal research program that would develop 
voluntary standards to help states deal with the harmful consequences 
of methamphetamine laboratories. I appreciate the witnesses who came to 
testify before our committee today so Members can gain a better 
understanding of the methamphetamine problem in the United States and 
learn how agencies, federal, State or local, currently respond to 
residential laboratories, in order to address unmet research needs.
    As the use of methamphetamines has spread so has awareness of the 
challenges associated with this addictive drug. No other narcotic has 
the wide-array of dangers--crime, social consequences, environmental 
degradation, property damage--that comes with methamphetamine use. I 
realize that I am not alone when I say that my congressional district 
and surrounding communities have seen a growing methamphetamine 
problem. It appears as though daily articles are published in 
newspapers across the country explaining how methamphetamine use is 
increasing, and revealing the damaging affects it has on communities.
    After speaking with the law enforcement officials in the 12th 
district of Illinois, I secured funding in 2003 and 2004 for a grant 
programs in Southern Illinois to train approximately 100 law 
enforcement officers across the region in dismantling and cleaning up 
meth labs. Also, the grant supplies the hazardous material suits and 
equipment that officers need to safely conduct their investigation. As 
the panel knows, cleanup is expensive, and the cost to remediate a 
1,500 square foot lab can range from $5,000-$15,000. Unfortunately, 
most states have little or no funding to conduct research on meth 
cleanup, and as a result, not much is known about the consequences of 
long-term exposure to the traces of chemicals that individuals, 
including children, may be exposed to living in a former meth lab.
    Undeniably, methamphetamine production and abuse is becoming an 
emerging problem across the country. The Federal Government has yet to 
develop a strategy for how to respond to methamphetamine use. 
Furthermore, states are struggling to protect the public because there 
are no national guidelines or regulations on how to clean up a 
residential meth lab or reoccupation. Consequently, I am very pleased 
this committee is taking the first step in holding a hearing on H.R. 
798, and look forward to hearing the testimony of today's witness 
panel.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. I would like to commend you, Chairman 
Boehlert, for calling this very important hearing on this very 
important issue. I also wish to thank Ranking Member Gordon for 
authoring this needed legislation.
    Instances of methamphetamine trafficking and abuse in the United 
States are on the increase. As a result, this drug is having a 
devastating impact on communities across the Nation.
    Unfortunately, many common household products contain most of the 
necessary chemicals to complete the manufacturing process.
    Another disastrous side effect of the methamphetamine epidemic is 
the bad affect it is having on the environment. Toxic waste from 
clandestine drug labs in rural America is being dumped on the land, 
into streams, sewage systems and landfills. For every pound of meth 
produced, between one and six pounds of highly toxic waste is 
generated. These chemicals and fumes can permeate the walls, carpets, 
plaster and wood of meth labs, as well as the surrounding soil, are 
known to cause cancer, short-term and permanent brain damage and immune 
and respiratory system problems. Of the 1654 labs seized nationwide in 
1998, nearly one in five were found because of fire or explosion.
    That is why it is so urgent that Congress takes immediate steps to 
combat meth production and its dangerous consequences.
    I thank the witnesses who have agreed to appear here today to 
answer questions. We appreciate your insight on this issue.

    [The prepared statement by Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member.
    Just this week, CBS 60 Minutes ran a story about a health crisis 
that has become a major problem in many rural areas of our country. I 
would like to thank the Chairman, Ranking Member, Members of this 
committee, and other colleagues for bringing this crisis to the 
forefront of the national health care debate.
    The crisis is methamphetamine. My State of Tennessee ranks third in 
the Nation in the total number of meth clandestine incidents reported 
in 2004, according to the National Clandestine Laboratory Database. In 
fact, 75 percent of all the meth lab seizures in the Southeast are in 
Tennessee.
    More than 1200 meth labs were seized in Tennessee in 2004. In my 
District alone, there are eight counties in which 20 or more meth labs 
each were found. One could argue that my District is the epicenter of 
Tennessee's meth crisis.
    Methamphetamine destroys families and communities. It's cheap, easy 
to make, and highly addictive. It is deadly--and has been known to kill 
people who don't even use it.
    So when we talk about meth, we are not just talking about one drug 
and how it affects the user, we are also talking about the health and 
well being of those living in the same environment on a daily basis. 
And more often then not they are children.
    Meth is often produced in apartment buildings or other shared 
housing units. The chemicals used to make it are extremely toxic and 
flammable.
    Nearly one in five labs is found because of fire or explosion. 
Then, when first responders arrive at the scene or workers come to 
reclaim the property, they are poisoned by the toxic chemicals in the 
air, on countertops, in the furniture, and everywhere else in the 
house.
    No one has studied the health effects of meth cleanup, and there 
are no guidelines on how to even begin cleaning up a meth lab.
    I believe that Mr. Gordon's bill, H.R. 798, provides a solid 
foundation to help address this issue.
    Mr. Chairman and Ranking Member, Members of the Committee, I urge 
you to support this legislation.
    Because somewhere, as we speak, methamphetamine is cooking. A match 
will be lit. An explosion will occur. A life will be lost.
    Time is of the utmost importance, and we need to act now.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    [The prepared statement by Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, I want to thank you for 
introducing this legislation and hosting this all-important hearing.
    I am tremendously sensitive to the problem of methamphetamine or 
``meth'' abuse due to it's widespread emergence in my district. Last 
year my home State of Missouri had the unfortunate distinction of being 
the number one state in the country, by more than double, for 
methamphetamine laboratory seizures. Furthermore, Jefferson County, 
which resides in my congressional district, has the most seizures and 
arrests related to ``meth'' in the State of Missouri. While I am proud 
of the job that our local law enforcement officials are doing, I am 
troubled by the growing prevalence of ``meth'' abuse in rural areas of 
our country and believe that the U.S. Congress has a responsibility to 
address the problem.
    I am an original co-sponsor of H.R. 798, the bill under 
consideration, as it will aid our local law enforcement, environmental 
regulatory, and health care officials in coping with ``meth'' abuse by 
providing voluntary guidelines to clean up and remediate the highly 
toxic chemicals that are used to make the drug. As it stands now, the 
harmful effects of contamination are not fully recognized and first 
responders, future inhabitants, and sadly, children are at risk of 
developing health problems. I truly hope that we can provide local 
officials in Jefferson County, Missouri and others across the country 
the tools to help them navigate the remediation of former 
methamphetamine laboratories.
    I applaud our bipartisan leadership for addressing this growing 
problem and look forward to hearing the testimony of the panelists.

    [The prepared statement by Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    I would like to thank the Science Committee for organizing this 
hearing regarding the Methamphetamine Remediation Research Act of 2005, 
H.R. 798. I am a proud co-sponsor of this legislation and believe H.R. 
798 will help correct many of the problems related to methamphetamines. 
The Methamphetamine Remediation Research Act will implement a research 
program at the Environmental Protection Agency (EPA) to develop health-
related guidelines for the cleanup of methamphetamines. This bill will 
also call for the National Academy of Science to perform a study on the 
long-term health effects on children rescued from living in 
methamphetamine lab homes. In addition, the National Institute of 
Standards and Technology will create a research program to develop 
methamphetamine detection equipment emphasizing field testing kits.
    The problems produced by methamphetamines and incidents related to 
methamphetamines are growing daily. As of February 24, 2005, the State 
of Texas recorded 422 incidences related to methamphetamine labs and as 
a nation we had a total of 16,326 incidences. The amount of 
methamphetamines being used by our young adults is alarming. In 1999, 
5.2 percent of 18-25 year olds reported a lifetime use of 
methamphetamines. As more of our population uses methamphetamines, the 
demand for the drug rises. Nowhere is it a bigger problem that in the 
Midwest, where methamphetamines account for nearly 90 percent of all 
drug cases. In states such as Oklahoma, methamphetamines are surpassing 
cocaine as the drug of choice. The State Medical Examiner's office 
reports the number of death cases testing positive for methamphetamines 
have been higher than cocaine for the past three years. The office also 
reports methamphetamine is found in more cases of homicides, and motor 
vehicle accidents.
    Methamphetamine labs not only damage individuals, they affect our 
children and our environment. As the founder and co-chair of the 
Congressional Children's Caucus, I am saddened by the effects 
methamphetamine labs have on children. Children living at 
methamphetamine labs are at increased risk for severe neglect and 
physical and sexual abuse. Children raised in the methamphetamine lab 
environment experience stress and trauma that significantly affect 
their overall safety and health, including their behavior, emotional, 
and cognitive functioning. Hazardous living conditions and filth are 
common in methamphetamine lab homes where explosives and loaded guns 
are often present and in many incidences, in easy-to-reach locations. 
The safety and development of our children are negatively influenced by 
living in methamphetamine lab homes.
    Our environment suffers from methamphetamine labs as well. In 
general, there are 5-7 pounds of toxic waste produced for every pound 
of methamphetamine manufactured. There are more than 30 chemicals used 
to produce methamphetamines, and most are explosive, caustic and 
carcinogenic. The chemicals are often poured into streams, down drains 
or disposed of in fields, yards or gutters. Many highway clean up crews 
have reported finding toxic garbage from methamphetamines in ditches. 
All of this illicit toxic waste eventually winds up in waterways via 
rainwater runoff.

    Chairman Boehlert. Our distinguished panel of witnesses 
today consist of: Mr. Scott Burns, who is Deputy Director for 
State and Local Affairs, Office of National Drug Control 
Policy. He is from the White House; Ms. Sherry L. Green, 
Executive Director, National Alliance for Model State Drug 
Laws; Dr. John Martyny, Senior Industrial Hygienist, Division 
of Environmental and Occupational Health Sciences, National 
Jewish Medical and Research Center; Mr. Henry Hamilton, 
Assistant Commissioner, Public Protection, New York State 
Department of Environmental Conservation; Sheriff Gary Howard 
of Tioga County, New York. And let me tell you, I take personal 
pride in Sheriff Howard, because I am privileged to share a 
Congressional District that he is a leader in. And he has been 
a leader in educating this Member of Congress about this very 
serious problem. And people so often are a little bit cynical 
about Congress. They think we come down here, live in 
isolation, and don't pay any attention to anybody else and talk 
to each other and decide everything amongst ourselves. Not so. 
You just heard Mr. Gordon explain how he got his education back 
home in Tennessee from the people at Tennessee Technological 
University. I got my education back in Tioga County, New York, 
and Sheriff, I am so very pleased to have you. For those of you 
in this room who don't know it, he has had the most busts in 
New York, a small, rural county in upstate New York, of any 
Sheriff in any jurisdiction within that state. And he is a very 
able professional, and he exemplifies the best in law 
enforcement. Sheriff, I thank you for what you have done for me 
personally in my education process and also for what you do 
every single day for the people of your jurisdiction. They are 
fortunate to have you.
    And for the purpose of introduction, the Chair recognizes 
Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    I am pleased to introduce Dr. Robert Bell, President of 
Tennessee Technological University. Dr. Bell joined the 
Tennessee Tech faculty in 1976 as Chairman of Management and 
Marketing. After serving various positions at Tennessee Tech, 
he was named President in 2001. The Science Committee Members 
will be interested to know that Dr. Bell served four years on 
the Board of Examiners for the Malcolm Baldridge National 
Quality Award, and in 1998, was recognized by the Secretary of 
Commerce for outstanding service to the Nation as a quality 
examiner.
    Dr. Bell is here today because of Tennessee Tech's work in 
fighting the methamphetamine problem in the Tennessee upper 
Cumberland region, an area that Lincoln Davis knows very well 
and represents a portion of that, and Lincoln is a graduate 
of--a prior graduate of Tennessee Tech.
    So, Dr. Bell, thank you for your work with Governor 
Bredesen on the task force in Tennessee, and thank you for 
helping us on a national level.
    Chairman Boehlert. Thank you so much, Mr. Gordon.
    Now here is the drill. We have got the little clock in the 
middle and we have got red light, green light, and caution. And 
Sheriff, you will know, we haven't changed the rules down here. 
Red light means stop, green light means go, and caution means 
slow up. But you will see the red light come on after five 
minutes. We are not going to be arbitrary, because you are 
expert witnesses. We are here to learn from you, so don't get 
nervous, but when you see the red light go on, begin to 
summarize, if you haven't already done so, and that will allow 
a lot more opportunity for the panel up here, our colleagues, 
to have questions, and questions lead to answers, and answers 
lead to education.
    So with that, Mr. Burns, you are first up.

STATEMENT OF MR. SCOTT M. BURNS, DEPUTY DIRECTOR FOR STATE AND 
     LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Burns. Thank you, Chairman Boehlert, Ranking Member 
Gordon, Congressman Calvert, and distinguished Members of the 
Committee. I want to thank you for the opportunity to appear 
before you today to discuss efforts to reduce the problem of 
methamphetamine in America.
    And if I may, I would also like to acknowledge my 
Congressman from Utah, Jim Matheson, it is good to see you.
    The Office of National Drug Control Policy just released, 
this past month, the President's National Drug Control 
Strategy, which builds upon the dramatic successes of the past 
three years in partnership with you in Congress, a 17 percent 
reduction of drug use among 8th, 10th, and 12th graders over 
the past three years. That equates to about 600,000 fewer young 
people using drugs in America. We have also seen a 25 percent 
decrease in teenage methamphetamine use.
    Focusing on prevention and treatment as well as law 
enforcement and international programs, the 2005 strategy 
focuses on three core priorities: stopping drug use before it 
starts, healing America's drug users, and disrupting the 
market. My written testimony discusses a number of programs, 
regulations, legislation, and efforts on the national level to 
discourage methamphetamine from our communities, and I request 
that it be made part of the record.
    I first want to briefly discuss the problem and expand upon 
what you have said.
    The brunt of the fight against methamphetamine is felt by 
the courageous members of law enforcement, the men and women 
across this country, some 700,000 law enforcement officers, 
courageous people like Sheriff Howard. The issue is one with 
which I am well acquainted, and prior to being nominated and 
confirmed in my present position at the White House, I was a 
prosecutor in a small town, a rural county, for 16 years, and 
the major problem that I dealt with was methamphetamine. I have 
worked closely with law enforcement, and I know too well the 
toll that methamphetamine production and use take on 
individuals and communities.
    Fortunately, there is good news. We have recently seen 
encouraging results from new methods of attacking the 
methamphetamine trade. And the Administration's National 
Synthetic Drugs Action Plan is a comprehensive approach.
    Let me take a moment and describe the market.
    As many of you know, there are two main sources for 
methamphetamine consumed in the United States. Our information 
suggests that most of the methamphetamine consumed in the 
United States is likely to come from super labs, labs that can 
produce an excess of 10 pounds in a 24-hour period. They are 
located primarily outside of our borders, although there are 
some operating within. We believe that a smaller amount is 
produced in small, toxic laboratories, or STLs, which can be 
found in residences, vehicles, and makeshift structures, as you 
know. Attacking the supply from both sources is important, but 
each requires a somewhat different approach.

International efforts.

    Law enforcement efforts have aimed to cut the supply of 
pseudoephedrine from Canadian producers to domestic super labs. 
The Administration's law enforcement efforts in this area have 
been coordinated in Operation Northern Star, a law enforcement 
initiative led by DEA with participation by the Bureau of 
Immigration and Customs Enforcement, or ICE, and also the Royal 
Canadian Mounted Police, RCMP. Since the initiative's inception 
in 2001, the number of pseudoephedrine seizures along the 
Canadian border has reduced by 92 percent. That is significant. 
On the southwest border, the Administration will continue to 
work with our international partners to stop the flow of both 
pseudoephedrine and ephedrine into Mexico through multi-lateral 
cooperation in the international chemical industry as well as 
continue to work with our partners in Mexico to identify and 
dismantle super labs on that side of the border.

Domestic efforts.

    On our side of the border, the Organized Crime Drug 
Enforcement Task Force, or OCDETF, as well as the High-
Intensity Drug Trafficking Area, HIDTA, provide a valuable 
means for federal, State, and local law enforcement to 
collaborate against mid-level and high-level methamphetamine 
traffickers in regions where methamphetamine is a significant 
threat. OCDETF investigations that involve methamphetamine are 
particularly prevalent in three regions: the west central, the 
southwest, and the pacific.

State regulation.

    The states have responded to the STLs, or the small, toxic 
laboratories, not only through law enforcement, but also by 
legislative or regulatory means that respond to the 
methamphetamine threat that is unique to their individual 
states. It is different in New York than in Tennessee. It is 
different in Utah than it is in Central Valley, California. The 
measures are varied in nature and incorporate a host of 
responses: improved treatment, prevention, and education 
measures, local precursor controls, and aggressive law 
enforcement efforts. Over the next several months, the 
Administration will closely analyze the data and results in 
states where the innovative measures have been implemented.
    And let me close by speaking briefly about the National 
Synthetic Drugs Action Plan.
    The Administration supports lowering the federal limit on 
single sales of pseudoephedrine products and eliminating the 
blister pack loophole. That is important. The action plan 
contains other detailed recommendations, including several 
pertaining to tighter regulatory controls of ephedrine and 
pseudoephedrine, treatment protocols and practice, education 
and training, and investigatory and prosecutorial approaches to 
methamphetamine cases. Critical to the successful 
implementation of the action plan's recommendation will be a 
continuing commitment to cooperate not only between federal 
agencies, but also between the Executive and Legislative 
Branches of the Federal Government and a continuing partnership 
with state and local entities committed to making the 
methamphetamine problem smaller. I co-chair the National 
Synthetic Action Plan Committee. We will deliver a report to 
the Attorney General in April, and I look forward to working 
with each of you when that is completed.
    Thank you again.
    [The prepared statement of Mr. Burns follows:]

                  Prepared Statement of Scott M. Burns

    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee: thank you for the opportunity to appear before you today to 
discuss efforts to reduce the problem of methamphetamine in America.
    The Office of National Drug Control Policy (ONDCP), a component of 
the Executive Office of the President, was established by the Anti-Drug 
Abuse Act of 1988.
    ONDCP is the President's primary source of support for counter-drug 
policy development and program oversight. The Office advises the 
President on national and international drug control policies and 
strategies, and works to ensure the effective coordination of drug 
programs within the National Drug Control Program agencies. The 
principal purpose of ONDCP is to establish policies, priorities, and 
objectives for the Nation's drug control program. The goals of the 
program are to reduce illicit drug use, manufacturing, and trafficking, 
drug-related crime and violence, and drug-related health consequences. 
To achieve these goals, the Director of ONDCP is charged with producing 
the National Drug Control Strategy. The Strategy directs the Nation's 
anti-drug efforts and establishes a program, a budget, and guidelines 
for cooperation among federal, State, and local entities.
    In my testimony I will discuss the extent of the methamphetamine 
problem in America, the Federal Government's progress in reducing the 
number of methamphetamine labs and ameliorating their impact, and the 
principal findings and recommendations of the Administration's 
``National Synthetic Drugs Action Plan'' regarding methamphetamine 
laboratories.
    The issue of methamphetamine is one with which I am well 
acquainted. Prior to being nominated and confirmed in my present 
position, I worked as an elected prosecutor in a rural county, where 
methamphetamine use, sales, and production were a problem. Prosecutors 
and police in areas where methamphetamine is a problem know too well 
the toll that methamphetamine production and use take on both 
individuals and their community. In short, the consequences to 
individual health and the associated criminal activity as well as the 
environmental and economic harm, can be devastating.
    Fortunately, there is good news. We have recently seen some 
encouraging results from new methods of attacking the methamphetamine 
trade. And the Administration's above-referenced ``National Synthetic 
Drugs Action Plan,'' which I will discuss here in more detail, is a 
comprehensive approach designed to weaken the supply of, and the demand 
for, methamphetamine in the United States. I will highlight relevant 
parts of the Action Plan and outline the tasks that we intend to 
accomplish over the next four years to continue to reduce the 
methamphetamine problem in America, focusing on methamphetamine labs 
for this hearing.

Describing the Market

    Any supply reduction strategy for methamphetamine must first 
inquire as to the source of the drug. Available information regarding 
the amount of methamphetamine seized from methamphetamine laboratories 
of varying sizes suggests that most of the methamphetamine consumed in 
the United States is likely to originate from ``superlabs'' 
(laboratories with a daily production capacity exceeding 10 pounds), 
and either smuggled into the United States from outside of our borders, 
or produced within our borders, often by Mexican criminal 
organizations.
    Similarly, we believe that a smaller amount is produced in smaller 
quantities at ``small toxic laboratories'' (STLs), which can be found 
in residences, vehicles, and makeshift structures. The impact of STLs 
has been of particular note on a number of levels. First, children in 
and around STLs are harmed by the toxic chemicals used in the 
methamphetamine manufacturing process. Small toxic labs contaminate the 
environment when methamphetamine cooks dump their toxic chemicals into 
the water table and onto farmland. Also, these labs create life-
threatening hazards, such as explosion or chemical toxicity, which 
harms not only the people cooking methamphetamine, but first 
responders, who try to save lives by entering burning and contaminated 
sites. As noted above, the amount of methamphetamine consumed in the 
United States originating from these smaller clandestine laboratories 
is believed to be smaller than that originating from superlabs. 
However, due to the effects described above, they are a particularly 
pernicious problem.
    Attacking the supply from both sources--superlabs and STLs--is 
important, but each requires a somewhat different approach.

Administration Efforts

    With respect to the superlabs described above, law enforcement 
efforts have aimed to cut off the supply of pseudoephedrine, the 
principal ingredient (or precursor), used to produce methamphetamine. 
In recent years, the supply came primarily via Canadian suppliers to 
domestic superlab operators. Law enforcement efforts to disrupt the 
diversion of these chemicals from Canada have been coordinated in 
Operation Northern Star, led on the American side by DEA, with 
participation by U.S. Immigration and Customs Enforcement, and closely 
coordinated with the Royal Canadian Mounted Police (RCMP). Canada's 
implementation of controls on the importation of precursor chemicals 
was also a critical element in stopping the flow of chemicals into 
Canada. In a sign that these efforts are having a real impact, the 
number of superlab seizures within the United States has substantially 
declined since the initiative's inception in 2001. Other indicators 
suggesting that Operation Northern Star has contributed to shrinking 
the illicit pseudoephedrine market include a decline in pseudoephedrine 
and ephedrine incidents at the Canadian border by 92 percent and a 
doubling in the price of bulk pseudoephedrine in the illicit market in 
California, the state with the most superlabs. Arrests and prosecutions 
are among the principal drivers of these market changes: in April 2003, 
the DEA and RCMP announced the arrest of 78 individuals in 10 cities 
throughout the U.S. and Canada, and just last month, the DEA arrested 
an additional 90 methamphetamine and ephedrine traffickers in a single 
operation.
    Along with the reduction in domestic superlabs, it appears that the 
decline in chemical trafficking to Canada has caused some chemical 
suppliers to seek to ship the chemicals to Mexico instead, where law 
enforcement believes the number of labs is increasing. Consistent with 
these changes to the illicit pseudoephedrine market, methamphetamine 
seizures at the shared border with Mexico rose from 1,130 kilograms in 
2002 and 1,790 kilograms in 2003 to 2,145 kilograms in 2004.
    For this reason, the Administration will continue to work with our 
international partners to stop the flow of bulk pseudoephedrine and 
ephedrine into Mexico, through bilateral chemical control cooperation 
and multilateral cooperation with the international chemical industry. 
We particularly acknowledge the leadership of the Fox administration in 
seeking mechanisms to control the methamphetamine threat in Mexico. We 
fully support their efforts to become more effective at identifying and 
dismantling labs on their side of the border. During the week of 
November 8, 2004, U.S. Immigration and Customs Enforcement agents, in 
coordination with DEA, dismantled a major Mexican smuggling 
organization that was smuggling precursor chemicals and finished 
methamphetamine into the United States from Mexico. During the course 
of this Organized Crime Drug Enforcement Task Force (OCDETF) 
investigation, agents seized 1,100 pounds of iodine, 37 gallons of 
hypophosphorous acid and 25 gallons of hydriodic acid--all of which are 
precursors used in the methamphetamine production process--at or 
shortly after crossing the border. The DEA Southwest Laboratory has 
calculated that this quantity of chemicals could have been used toward 
the production of approximately 550 pounds of methamphetamine.
    Currently, the United States is involved in several multilateral 
initiatives to track chemicals used in the manufacture of amphetamines, 
methamphetamine, and other amphetamine-type stimulants such as 3,4 
methlyenedioxymethamphetamine (MDMA) and other synthetics, with the 
goal of enhancing the involvement of China, India, the Netherlands, 
Canada, Mexico, Poland, the Czech Republic, and other countries in 
cooperative chemical control efforts.
    In addition, the efforts of federal law enforcement agencies and 
programs continue to be focused on disrupting the domestic market for 
methamphetamine. The percentage of Organized Crime Drug Enforcement 
Task Force (OCDETF) investigations in which at least one of the drugs 
involved included methamphetamine increased from 19.2 percent in FY 
2001 to 25.1 percent in FY 2002. The program's methamphetamine focus 
has continued to increase since then, to 25.9 percent in FY 2003 and 
26.7 percent in FY 2004. OCDETF investigations which involve 
methamphetamine are particularly prevalent in three of the nine OCDETF 
regions--West-Central, where 53.1 percent of the investigations involve 
methamphetamine; Southwest, with 58.8 percent; and Pacific, with 45.8 
percent.

National Synthetic Drugs Action Plan

    In October 2004, the Administration released the first-ever 
``National Synthetic Drugs Action Plan,'' which describes the Federal 
Government's response to the production, trafficking and abuse of 
synthetic drugs like methamphetamine and MDMA, as well as the diversion 
of pharmaceutical products. Among the many recommendations of the 
Action Plan are those designed to cut off access to methamphetamine 
producers to precursors such as pseudoephedrine.
    Federal legislation will be necessary to implement many of the 
recommendations set forth in the Action Plan. The new Synthetic Drugs 
Interagency Working Group, established by the Action Plan, will be 
developing recommendations to implement key provisions of the plan.
    Several provisions of the Action Plan aim to disrupt the ability of 
methamphetamine cooks to gather the chemicals they need to produce the 
drug. Toward this end, the Administration supports lowering the federal 
limit on single-sales of pseudoephedrine products. The Action Plan's 
recommendations also include the deletion of the so-called ``blister-
pack exemption'' that currently exists in federal law. Though the 
exemption was initially implemented based on the expectation that 
methamphetamine manufacturers would not be likely to undergo the 
relatively difficult process of removing small amounts of 
pseudoephedrine from a large number of blister packs, law enforcement 
reports that even blister packs are being procured in large quantities 
and the emptied packs found at methamphetamine labs. For this reason, 
expecting blister-pack sales to abide by the same rules as other pill 
containers will help in the fight against methamphetamine production. 
Similarly, ensuring that these standards apply to the various forms of 
the product will prevent methamphetamine cooks from switching to 
alternate pseudoephedrine products, as the pills or tablets become more 
difficult to procure in significant quantities.
    As with any regulatory scheme, it is critical that appropriate 
penalties be imposed for violation. Tough sanctions should be imposed 
upon not only methamphetamine producers and traffickers--both at the 
State and federal level--but also upon those who illicitly traffic or 
distribute methamphetamine precursors such as pseudoephedrine. 
Especially because domestic superlabs have declined, and some of these 
superlabs appear to have been pushed to areas outside of our borders, a 
continuing focus by law enforcement on illicit shipments of bulk 
pseudoephedrine inside and outside our borders is critically important.
    In response to the presence of these widespread smaller 
laboratories, the Action Plan highlights the importance of improved 
treatment, prevention, and education measures and makes several 
recommendations for federal action in these areas.
    Additional measures taken by some states have focused on limiting 
not only the amount of pseudoephedrine products that may be purchased, 
but also the location and manner in which the product may be purchased, 
and have imposed additional requirements for the process of the 
purchase itself. Over the next several months, the Administration will 
be closely analyzing the data and results in states where these 
innovative measures have been implemented. As many of these State 
actions were taken in the recent past, the Administration will wait for 
better data and information to emerge before commenting on the 
effectiveness or impact of the various proposals to reduce 
methamphetamine availability or methamphetamine laboratory numbers and 
how they relate to federal policy.
    Critical to the successful implementation of the Action Plan's 
recommendations will be a continuing commitment to cooperation not only 
between federal agencies, but also between the Executive and 
Legislative branches of the Federal Government, and a continuing 
partnership with State and local entities committed to making the 
methamphetamine problem smaller. We expect that the work of the Action 
Plan's Interagency Working Group will culminate this year in a final 
report to cabinet-level officials including the ONDCP Director and 
Attorney General, and possibly additional legislative recommendations 
to Congress.

Conclusion

    It is important to remember that this drug threat, like others we 
have faced in the past, is not impervious to effective supply--and 
demand-control, as seen in Operation Northern Star. We know from years 
of experience that when we control the precursor chemicals and reduce 
the availability of methamphetamine, the price of the drug will rise. 
By prosecuting those who steal large quantities of pseudoephedrine from 
small mom-and-pop stores and those who would expose children to the 
toxic chemicals used to make this drug, we disrupt production. As we 
make treatment available, and support more people making it into 
recovery, demand will diminish. This requires all levels of government, 
as well as the private sector and our international allies, to commit 
to diminishing this threat to Americans' health and well-being.
    The Administration looks forward to working with this committee and 
the entire Congress on the important issue of methamphetamine. Together 
with Congress, we can achieve the kind of progress that will improve 
the lives of our children and make us all proud.

                      Biography for Scott M. Burns

    Pursuant to his nomination by President George W. Bush, Scott Burns 
was unanimously confirmed by the United States Senate as Deputy 
Director for State and Local Affairs in the White House Drug Policy 
Office in April, 2002.
    In addition to his role as principal advisor to ONDCP Director John 
P. Walters regarding federal, State and local law enforcement, Mr. 
Burns is also responsible for oversight of the $226 million High 
Intensity Drug Trafficking Area (HIDTA) program. Soon after his 
appointment, Mr. Burns reorganized the Office of State and Local 
Affairs, and assumed new leadership responsibilities for administration 
initiatives such as reducing prescription drug abuse, enhancing drug 
courts, tackling marijuana and methamphetamine production on public 
lands, and crafting other national strategies to disrupt the market for 
drugs such as methamphetamine, marijuana, cocaine and heroin. Most 
recently, Mr. Burns was appointed by the White House to serve as the 
United States' representative to the World Anti-Doping Agency (WADA), 
an international organization charged with eliminating doping and drug 
use in sport. Mr. Burns represents the 40-nation Americas region on 
WADA's governing Foundation Board, and also chairs WADA's Ethics and 
Education Committee, which aims to educate young athletes worldwide on 
the health and ethical dangers of drug use.
    Prior to his confirmation, Mr. Burns served as the County Attorney 
in Iron County, Utah, where he successfully prosecuted over 100 felony 
jury trials, including rape, child abuse, narcotics, and capital 
murder. He also routinely provided pro bono legal service to the 
indigent. During his sixteen years as County Attorney, Mr. Burns served 
on several state and national boards, including the White House 
Committee on Illegal Narcotics and Addiction. In Utah, he instructed 
peace officers and others on constitutional law, search and seizure, 
race relations, and the civil liability of peace officers. As an 
adjunct professor at Southern Utah University, Mr. Burns taught 
numerous criminal justice courses.
    Mr. Burns is a graduate of Southern Utah University and was 
inducted into that university's Sports Hall of Fame in 1996. He 
received his J.D. from California Western School of Law.

    Chairman Boehlert. Thank you very much, Mr. Burns, and we 
look forward to continuing our working relationship with you.
    Ms. Green.

STATEMENT OF MS. SHERRY L. GREEN, EXECUTIVE DIRECTOR, NATIONAL 
               ALLIANCE FOR MODEL STATE DRUG LAWS

    Ms. Green. Thank you, Chairman Boehlert, Congressman 
Gordon, Members of the Committee, and staff. I want to thank 
you for this opportunity for my organization to actually 
testify today on this very important issue.
    I would like to just briefly highlight a couple of points 
that are in my written testimony.
    The National Alliance for Model State Drug Laws is a 
bipartisan non-profit organization, which Congress has actually 
funded since 1995, specifically to help states create a more 
comprehensive effective system of drug and alcohol laws. We 
actually grew out of the 1993 President's Commission of Model 
State Drug Laws that Congress created specifically to draft a 
model code of drug and alcohol laws. And over the last 10 
years, we have used our model code of border-free drug laws and 
policies to actually help states on a number of particular drug 
problems, including methamphetamine laboratories. Now when I 
started working with states on this issue a decade ago, I was 
working with solely western states and primarily at that time 
on the issue of controlling access to the chemicals that are 
used to manufacture methamphetamine.
    But over the last decade, as the problem of methamphetamine 
laboratories has actually raced across the country toward the 
east, many State and local officials have actually asked us if 
we would draft a model act or model guidelines specifically on 
clean up and remediation procedures. Now in preparation for 
that drafting process, we have actually pulled together a 
working group of approximately 20 State and local officials 
from around the country, and they are all in different stages 
of developing and/or implementing clean up and remediation 
procedures.
    We also did quite a thorough search of existing state laws, 
regulations, and guidelines on this particular issue. And there 
is no question, when you look at the laws, the guidelines and 
even the policies, that there is a wide spectrum of clean up 
and remediation procedures the states have adopted.
    Now on one end of the spectrum, you have states that have 
taken a more minimal approach. They will recommend that the 
property be aired out for several days and that the owner use 
the proper and appropriate household cleaning products to clean 
the contaminants.
    On the other end of the spectrum, you have states that have 
extraordinarily detailed procedures on preliminary site 
assessment to detect particular levels of contamination, on the 
decontamination procedures themselves, and also on any follow-
up testing that is needed to determine whether or not the 
appropriate levels of clean up have, in fact, occurred.
    Regardless of where on that spectrum of clean up and 
remediation procedures that a particular state might fall, the 
core issue we have discovered really remains the same: how 
clean is clean for reoccupation purposes?
    Now there are seven states at this particular point in time 
that have attempted to address that issue through their 
statutes, their regulations, and their guidelines. And those 
particular states are Alaska, Arizona, Arkansas, Colorado, 
Minnesota, Tennessee, and Washington. And Utah also has a 
proposed rule out at this point in time that would also address 
the issue. Now these particular states have actually specified 
a decontamination standard. Now the decontamination standard 
that is commonly used, there are really two types of 
measurements. It is either 0.1 or 0.5 micrograms per hundred 
centimeters squared. Now this particular type of standard is 
actually a feasibility-based decontamination standard that is 
based on a cost comparison. Basically, what it does is it tends 
to look at how much a state would want to spend to achieve a 
certain decontamination level with officials having a perceived 
idea of the kind of protection that level might afford for 
adverse health consequences.
    Most state officials, however, regardless of what state we 
are talking about, whether they have worked on the issue for 
years or are just beginning to work on the issues, would 
optimally prefer to use a risk-based or a health-based 
standard, a standard which would help them determine the level 
to which they need to clean to prevent the average person from 
suffering adverse health consequences. The problem is we really 
don't know for sure what that level is. There is just too 
little research on the short-term and long-term consequences to 
adults and to children who are also exposed to methamphetamine 
as well as other chemicals of concern that are found in 
methamphetamine laboratories.
    So in this vacuum of incomplete research, states are 
turning to Dr. Martyny's research, which, as we have discovered 
in our own review of laws, policies, and programs, is the 
leading research at this time on this issue. They also do turn 
to some of the other studies, few that they are, that are out 
there, and they look to the practices and the lessons that have 
been learned from states like Washington and Oregon, which have 
dealt with clean up and remediation issues for many, many 
years.
    Now in order to help provide additional guidance to states, 
we are actually pulling our working group of State and local 
officials together on April 27 in Salt Lake City. What we are 
going to do is ask them to help us identify the particular 
procedures or elements that should be part of a model act or a 
model guideline at this point in time, given the little 
research information that we do have. And what we are going to 
do is take that input, and we are going to translate it into 
legislative or regulatory language, which will be flexible 
enough so that we can disseminate it to decision-makers around 
the country and that, as the need arises, we can easily have it 
be amended to incorporate advances in research and technology 
so that we can always have state-of-the-art information.
    I want to thank you again for allowing us the opportunity 
to share information with you and, of course, at the 
appropriate time, I will be more than happy to answer any 
questions you might have. Thank you.
    [The prepared statement of Ms. Green follows:]

                 Prepared Statement of Sherry L. Green

    Chairman Boehlert, Ranking Member Gordon, Members of the Committee, 
and staff, thank you for this opportunity to appear before you today to 
offer an overview of the work of the National Alliance for Model State 
Drug Laws as it relates to states efforts to address the cleanup and 
remediation of former methamphetamine laboratories. I am honored to be 
here to discuss these issues that are among the most pressing for 
states as they address the many problems related to methamphetamine.

About the National Alliance for Model State Drug Laws

    As you may know, the National Alliance for Model State Drug Laws 
(NAMSDL) is the successor of the President's Commission on Model State 
Drug Laws, appointed by President George H.W. Bush. At the conclusion 
of the Commission's work of crafting the 44 model state drug laws 
addressing over 70 alcohol and other drug issues, the Commissioners 
created a 501(c)(3) nonprofit organization to serve as an ongoing, 
bipartisan, independently operated resource to assist states in 
assessing needs, strategizing, and implementing laws and policies to 
address alcohol and other drug problems using the model laws as a menu 
of options. Congress began funding the National Alliance for Model 
State Drug Laws in fiscal year 1995 to hold state model drug laws 
summits to serve as needs assessment and action planning mechanisms and 
to provide technical assistance to states as they implement summit 
recommendations including elements of the models and address emerging 
issues related to alcohol and other drugs.

Working with States to Address Cleanup and Remediation of Former 
                    Methamphetamine Laboratory Sites

    Over a decade ago, the aforementioned President's Commission worked 
with states to address problems related to methamphetamine 
laboratories. Since its inception, NAMSDL has built upon the work of 
the Commission through its Summit process, follow-up work, and 
technical assistance in their efforts to deal with methamphetamine. 
However over the past two years as the use and production of this drug 
has increased and spread to states throughout the country, calls for 
NAMSDL's assistance on legislative and policy efforts to address meth 
and its related problems increased precipitously.
    In response to this high volume of technical assistance requests, 
NAMSDL held the National Methamphetamine Legislative and Policy 
Conference in St. Paul, Minnesota in October 2004. This event focused 
on legislative and policy options toward creating effective, 
comprehensive, and coordinated responses to precursor chemical control, 
drug endangered children (DEC), cleanup and remediation of meth lab 
sites, addiction treatment, and related issues. Three hundred sixty-
five people from 34 states, the District of Columbia, and two tribal 
nations participated in this event; these individuals included law 
enforcement officials, addiction treatment professionals, child welfare 
and child protective services workers, elected officials, environmental 
scientists, industrial hygienists, federal agencies' staff, and 
community coalition members.

NAMSDL's National Working Group on Cleanup and Remediation of 
                    Methamphetamine Laboratory Sites

    As an additional response to states' growing concerns and requests 
for assistance, NAMSDL agreed to draft a model act or model guidelines 
for the cleanup and remediation of methamphetamine laboratory sites. 
Given the growing concern re: cleanup and remediation issues, variety 
of approaches among the states, the increasing number of states dealing 
with former meth lab sites, and the changing nature of the labs (e.g., 
increasing number of apartments, houses, trailers, hotels), NAMSDL 
identified experts working on these issues in a variety of states and 
convened a national working group on cleanup and remediation of meth 
lab sites. This working group includes chemists, industrial hygienists, 
researchers, environmental toxicologists, public health experts, and 
other state agency officials at various levels of addressing these 
issues in the states. Working group members also represent a group of 
states that are both geographically diverse and at differing stages of 
addressing issues related to meth; for example, states that have been 
working on cleanup and remediation issues for many years such as 
Washington and Oregon as well as states newer to these issues such as 
North Carolina are included among the working group's membership. 
Members have met to consider the common issues, recurring questions, 
and research needed to best set standards for decontamination of meth 
lab sites and the resulting legal and policy implications.

Overview of Current States' Efforts--Legislation, Policy, and 
                    Guidelines

    Concerns related to the cleanup and remediation of former 
methamphetamine laboratory sites (also referred to as clandestine 
laboratories) are frequently expressed to NAMSDL staff by our contacts 
in the states working to address these issues. In preparation for the 
National Methamphetamine Legislative and Policy Conference and the 
convening of our National Working Group on Cleanup and Remediation of 
Methamphetamine Laboratory Sites, NAMDSL conducted legislative research 
of existing statutes, regulations, operating policies, and guidelines 
related to the decontamination of these sites.
    New statutes, regulations, local ordinances, and guidelines 
relating to the cleanup and remediation of methamphetamine laboratories 
continue to emerge. State and local governments are working to address 
different aspects of the indoor and outdoor environmental issues 
associated with clandestine laboratories. A few states have been 
dealing with the environmental contamination of these drug laboratory 
sites head-on for many years and have significant statutory and 
regulatory provisions in place. Others on the federal, State, and local 
level have more recently begun to address these concerns.

Note Regarding NAMSDL's Research

    Please note that our research is ongoing in this arena. 
Additionally, we understand that we may not be currently familiar with 
all of the different categories of laws that states may be using for 
cleanup and remediation because of the wide breadth of this issue. 
NAMSDL continues to collect numerous cleanup ordinances from local 
governments that cannot currently be obtained through our legal 
research database.
    Additionally, please note that a number of states have put together 
guidelines or guidance documents for the cleanup and remediation of 
methamphetamine laboratories. We have defined certain documents as 
guidelines based on the content provided (see attachments of states' 
specific examples). Documents we are considering guidelines are those 
that contain detailed scientific sampling information and remediation 
standards for methamphetamine. Guidelines do not have the force of law 
by themselves but in some instances, for example, local governments 
have passed ordinances requiring cleanup contractors to abide by the 
procedures and cleanup standards that the guidelines establish. Some of 
the more comprehensive guidelines include information on chemical 
toxicity, laboratory analytical methods, asbestos guidelines, and field 
and sampling guidelines. Those documents that may have the term 
``guideline'' in the title but we have considered them as ``guidance 
documents'' are those that tend to be less detailed in nature and do 
not address a remediation standard for methamphetamine.

Scope of Statutes

    Based on a review of existing state statutes specifically relating 
to the cleanup and remediation of clandestine laboratories, the 
application of the cleanup and remediation provisions varies from state 
to state and is determined by the type of substance being illegally 
manufactured. Some states only address the manufacture of 
methamphetamine. Other state statutes apply to the manufacture of 
controlled substances generally, as they are defined in the state code, 
or more specifically to ``schedule I or II controlled substances.'' In 
addition to the above listed, some states also include the 
manufacturing of ecstasy and LSD. Thus, it appears that some states are 
focused specifically on the illegal manufacture of methamphetamine 
whereas other states have taken a broader approach in their statutory 
language.

Use of Contractors for Cleanup and Remediation

    Several state cleanup laws and regulations address the use of a 
state-approved environmental cleanup contractor and/or a certified 
industrial or environmental hygienist. Only three states, however, have 
tackled by statute or regulation the contractor and employee training 
and certification in detail. In Washington, Oregon, and Arizona, not 
only does the contractor need to be certified, but the employees and 
supervisors must all go through a specific training and certification 
process. According to NAMSDL's contacts within these states, stricter 
enforcement is needed with respect to the monitoring of contractors and 
ensuring that they are using certified employees and proper remediation 
and sampling procedures. Part of the process for monitoring the 
contractors is the requirement of some type of work plan to be 
submitted to the overseeing agency. A few states currently require by 
statute or regulation a work plan to be prepared by the contractor. A 
work plan may include photographs and/or drawings and a written 
description of the contaminated property, procedures for the 
decontamination process, a description of the personal protective 
equipment that will be used, health and safety procedures, and a list 
of post-decontamination testing that will be completed. In addition to 
above discussed training and certification requirements, Washington has 
also established a training provider certification process.

Standards for Decontamination

    Currently, approximately seven states have established--by statute, 
regulation or guideline--a feasibility-based decontamination standard 
specific to methamphetamine. Feasibility-based is a cost-comparative 
term used to determine what the economics are of cleaning a meth lab; 
simply put, ``how much do we want to spend to clean it up?'' Those 
states include Alaska, Arizona, Arkansas, Colorado, Minnesota, 
Tennessee, and Washington. The two most commonly provided measurements 
are 0.1mg/100cm<SUP>2</SUP> and 0.5mg/ft<SUP>2</SUP>. There is an 
ongoing debate about the effectiveness of using a feasibility-based 
standard. Because research into the long-term health effects associated 
with clandestine laboratories has just recently begun, health or risk 
based standards have not been determined yet. These standards are 
usually determined by asking, ``to what level do we need to minimize 
(clean) a contaminant in order to prevent the average person from 
having adverse health effects (e.g., become sick)?'' This is based upon 
the toxicology of a compound, the concentration of the contaminant, and 
the amount of time a person will be exposed to that concentration. 
Minus the research needed to set these standards, states are relying on 
the limited research available to determine the appropriate 
feasibility-based standard that must be met by a cleanup contractor 
and/or industrial hygienist in order to certify that a property has 
been decontaminated.

Property Notices re: Former Meth Lab Sites

    There are also several notice issues involved in the cleanup and 
remediation of properties contaminated by clandestine laboratories. A 
few states have statutory and/or regulatory provisions that require a 
particular agency to maintain a list of contaminated properties and/or 
a list of certified contractors that must be available to the public. A 
property is generally removed from the contamination list once it is 
certified by the appropriate entity as decontaminated. Another issue 
relates to the notifying of the county recorder's office that a 
property has been deemed contaminated. In Washington, the local health 
officer is required to file a copy of an order prohibiting the use of a 
property with the county auditor. If, after the remediation process is 
complete, the local health officer determines that the property has 
been decontaminated, s/he is required to record a release for reuse 
document in the real property records of the county auditor where the 
property is located. The county auditor provisions are located within 
the purview of the chapter on the decontamination of illegal drug 
manufacturing or storage sites. Additional states may have similar 
statutory and regulatory provisions relating to the recording of 
property contamination in other parts of the state code.
    Numerous states have become concerned with presently or formerly 
contaminated properties being sold, transferred, or rented without the 
buyer or occupant being made aware of the status of the property. Such 
disclosure issues and restriction on the transfer of the property have 
been addressed in many different areas of the state code. Arizona, 
Alaska, and Oregon, in particular, address this issue within the 
purview of their cleanup laws and regulations. The statutes and/or 
regulations generally require the seller to notify the buyer in writing 
that illegal drug manufacturing occurred on the premises. A buyer then 
may cancel the purchase contract within a certain number of days after 
receiving notice of the property's status. In Oregon, if the seller 
fails to properly notify the buyer, the buyer may bring suit to recover 
damages for any losses. In Arizona, the seller is subject to civil 
penalties for any harm that was caused for his/her failure to comply 
with its notice requirements.

Local Ordinances

    As mentioned earlier, numerous local governments (e.g., cities, 
municipalities) have passed ordinances that relate to the cleanup of 
methamphetamine laboratories. Some of the ordinances address nuisance 
and local building code issues. Other ordinances address cleanup and 
remediation directly. Ordinances can be found both in states that 
already have related statutes and regulations as well as in states that 
have not yet addressed the issue at the State level.

Current Considerations for NAMSDL's Drafting of a Model Act/Guidelines

    From the discussions of this working group, existing research that 
the members have identified, and review of existing laws, policies, 
guidelines, and ordinances, NAMSDL has drafted the following outline 
for members' consideration at their final meeting at the end of April 
2005. This preliminary outline suggests key components to be addressed 
in a model act or model guidelines that NAMSDL might draft:
State Agency Authority:

        <bullet>  oversight of cleanup program (with designated 
        responsibilities to local health departments in regulation 
        probably)

        <bullet>  set requirement for owner to clean property

        <bullet>  to promulgate related regulation

        <bullet>  keep database of properties deemed to be contaminated

        <bullet>  keep list of certified contractors and approved 
        laboratories

Notification responsibilities:

        <bullet>  first responder/law enforcement/local health officer/
        building code officer/local county property records office

        <bullet>  owner

        <bullet>  posting on property

Contractors/Industrial Hygienists:

        <bullet>  certification

        <bullet>  training

        <bullet>  site safety responsibilities

        <bullet>  monitoring of contractors work

Preliminary Assessment and Work Plan

Decontamination Procedures

        <bullet>  for walls, furniture, ventilation system, variety of 
        surfaces

        <bullet>  waste characterization and disposal

Confirmation of Decontamination:

        <bullet>  decontamination standards

        <bullet>  sampling methods

        <bullet>  laboratory analytical testing

    After receiving feedback from the National Working Group on Cleanup 
and Remediation of Meth Lab Sites, the drafting committee of NAMSDL's 
Board of Directors will complete the draft model act/guidelines. Once 
the draft is approved by the Board, NAMSDL will distribute the 
resulting model to our contacts in the states, including Governors and 
Attorneys General. The model will also be posted on NAMSDL's website 
(www.natlalliance.org).

Additional Research Is Needed

    Working group members agree that informed, effective, health-based 
standards for cleanup and remediation cannot be established until more 
is known about the short- and long-term health and environmental 
consequences of meth production. A consistent theme from the working 
group's discussions is the need for further research. At their most 
recent meeting, these members concluded that research needs to occur on 
the following multiple tracks:

        <bullet>  Health-based studies (short- and long-term)

        <bullet>  Health-based cleanup standards

        <bullet>  Scientifically validated sample collection methods

        <bullet>  Scientifically validated remediation

    Examples of specific research needs within these tracks suggested 
by the working group members include: identifying the primary chemicals 
of concern (COCs), determining persistent COCs, determining if meth 
should be the only indicator chemical, establishing the most effective 
remediation technique for a variety of surfaces (e.g., porous, semi-
porous, nonporous), and indoor air assessments over time. Any research 
that addresses these concerns and questions would greatly benefits 
states' efforts related to decontamination of former meth lab sites.

Concluding Remarks

    NAMSDL considers all of the Commission's model laws to be ``living 
and breathing'' documents that can offer guidance to states over time 
by incorporating new findings as necessary. The model act or guidelines 
that will emerge from the working group process and the Board's 
drafting will also be viewed as such. NAMSDL will incorporate the 
findings of new research and new developments in the science related to 
decontamination of meth lab sites into any model act/guidelines that is 
drafted for states' reference.
    Thank you once again for the opportunity to share this information 
with you. I would be happy to answer any questions that you have as the 
hearing proceeds.

                     Biography for Sherry L. Green

    Sherry L. Green helped co-found the National Alliance for Model 
State Drug Laws (Alliance) in 1993 to promote the model state laws 
promulgated by the President's Commission on Model State Drug Laws 
(Commission). Ms. Green currently serves as Executive Director of the 
Alliance and was formerly the Associate Director of the Commission. As 
Associate Director, she was a primary co-author and editor of the 
Commission's five volume Final Report containing 44 model laws and 
policies on enforcement, education, prevention, treatment and community 
issues.
    As Director of the Alliance, Ms. Green has established a 
legislative clearinghouse used by governors, state legislators, 
attorneys general and substance abuse specialists to track adoption of 
model law-related bills, monitor trends in drug and alcohol abuse 
policies, and identify pertinent studies, reports and programs. 
Additionally, she has created a national network of experts who provide 
technical assistance to state leaders on the model laws and drug and 
alcohol abuse policies. As a member of the network, Ms. Green drafts 
and analyzes legislation, assists with policy development, offers 
guidance on legal, technical and programmatic issues, facilitates 
formation of multi-disciplinary coalitions, and conducts or 
participates in legislative briefings, summits, and workshops. Ms. 
Green also makes numerous presentations on the model laws to national 
and state organizations and agencies.
    Previously, Ms. Green spent eight years specializing in state 
legislative research and policy, analysis, drafting and education. She 
served as an Attorney with the American Prosecutors Research Institute 
(APRI), where she managed the model drug legislation project. During 
her tenure with APRI, she co-authored the State Drug Laws for the 90s 
resource book. Ms. Green established and served on the Uniform 
Controlled Substance Act (UCSA) Task Force which produced model 
legislation adopted by the National Conference of Commissioners on 
Uniform State Laws. Additionally, the Forfeiture Task Force wrote a 
model act passed in whole or in part by several states, including 
Louisiana, Georgia, Hawaii, and Arkansas. Prior to her work with the 
Institute, Ms. Green clerked for a D.C. Superior Court Judge and 
analyzed child support laws for the American Bar Association.
    Ms. Green brings to her legislative work a background in law. She 
received her Juris Doctor from the George Washington University's 
National Law Center and is a member of the D.C. Bar. Ms. Green also 
received a Bachelor's degree in Political Science-Economics from the 
University of Montana.

    Chairman Boehlert. Thank you very much.
    Dr. Martyny.

    STATEMENT OF DR. JOHN W. MARTYNY, PH.D., C.I.H., SENIOR 
      INDUSTRIAL HYGIENIST, DIVISION OF ENVIRONMENTAL AND 
   OCCUPATIONAL HEALTH SCIENCES, NATIONAL JEWISH MEDICAL AND 
                        RESEARCH CENTER

    Dr. Martyny. Mr. Chairman, Members of the Committee, first 
I would like to thank you very much for affording me this 
opportunity to come here and give you an idea of what we are 
finding in the research that we are conducting looking at 
chemical exposures in these illegal methamphetamine 
laboratories.
    I have submitted written testimony, which gives you a lot 
more detail than I could go into in the next five minutes, and 
I hope that will become part of the record. But I will try to 
summarize some of the things that we found, and really give you 
an idea of how important these exposures could actually be.
    We were initially contacted by local law enforcement in 
Colorado, and they were concerned because a number of their law 
enforcement individuals were going into these labs and 
reporting symptoms. About 50 percent of law enforcement 
officers going into these labs will have some problem when they 
come out of the lab. Typically, it might be as easy as burning 
eyes, burning nose and throat, but can be much worse. In some 
cases, officers actually have to go to the hospital. We have 
several officers that have been taken to the hospital after 
responding to these methamphetamine labs.
    We were very, very lucky in that law enforcement allowed us 
to go with them, actually out to the labs. We went in right 
behind them, actually a little ways behind them, just to make 
sure. And we quickly got to look at the contamination that is 
in these labs and the chemicals that the police are exposed to. 
We were also extremely lucky and fortunate in that the Drug 
Enforcement Administration was able to work with us and allow 
us to do our own cook. So to date, we have done quite a few 
meth cooks using the different methodologies of cooking meth 
and trying to decide what kind of exposures we really have. And 
I have to tell you, we have been very surprised. Generally 
speaking, the chemicals that are used result in extremely high 
concentrations of exposure to iodine, hydrogen chloride, 
phosphine gas, and anhydrous ammonia, actually levels that 
exceed what NIOSH, the National Institute of Occupational 
Safety and Health, considers to be immediately dangerous to 
life and health during the actual cook. So these are not 
trivial exposures.
    The bad thing is that these exposures move not from just 
the area that the cook is but throughout the house or 
throughout the building where the cook has occurred, and in 
fact, we were able to do one cook in a hotel room and found out 
that we actually had the exposures move to each room bordering 
that particular room, which is a real concern for us, because 
now we are talking about not only the people doing the cook, 
but also third parties.
    When we were going into the actual labs themselves, the one 
thing that we found is virtually every lab that is contaminated 
with methamphetamine itself, the methamphetamine is essentially 
all throughout the lab, on the walls, floors, ceiling, in the 
carpeting. It moves well outside the cook area, and really 
offers contamination--or offers people to get exposed that were 
not even remotely concerned with the methamphetamine cook. So 
we get very, very concerned about third parties. We get very, 
very concerned about children that may not be present during 
the cook but, in fact, come into the house after the cook into 
an extremely contaminated house. Recently, the Colorado 
Department of Public Health and Environment has looked at a lot 
of the data that we have accumulated with types of 
contamination we see well after the cook and has found that the 
toxicologists would expect kids exposed to those levels to 
actually show permanent damage, especially to the respiratory 
tract, possibly to the nervous system, and so we are very, very 
concerned about this.
    As much as we do know, there is a lot that we don't know. 
We don't know how long it lasts in the house. Unfortunately, 
all of the houses that we have cooked in, we have had to 
actually destroy the house right after our cook for liability 
purposes. And so we have no idea. Does this last six months, a 
year, two years? We don't know.
    How do activities reduce exposures in the house? What 
happens when you vacuum? If you have got a carpet that is 
soaked with methamphetamine, what happens when you vacuum the 
house? What are the exposures to the kids and the other people 
around? We have done very little on methamphetamine clean up. 
What are the best ways to clean it up? As was mentioned, as 
Sherry mentioned, some people feel the house needs to be 
destroyed. Some people feel that all that needs to be done is 
for it to be aired out. We think that there is a lot to be 
learned there.
    We would really hope that we can count on your support for 
this bill. We are really interested in bringing EPA into the 
arena. We would also like to see the Centers for Disease 
Control (CDC) be brought in. CDC is doing some studies now. We 
would like to see them do more, looking at why we are seeing 
some of these health effects for people that--even occupying 
just houses that had been used for cooks in the past.
    We certainly appreciate the support of NIST being able to 
look at new methodologies and also the National Academy of 
Sciences.
    I do have a short film clip that I would like to show you 
of a cook that we actually did.
    [Film.]
    This is a cook using the anhydrous ammonia method of 
cooking. And you will see actually a tube here where we 
actually are sampling the air to see what levels we have and to 
see how--there are tremendous amounts of anhydrous ammonia, 
probably around 2,000 parts per million. This is actually 
stirring. You can see the anhydrous ammonia is actually coming 
off. That was the detector tube. We had about 2,000 when we 
pulled that and it was instantly saturated. This is pH tape, 
and it is actually changing color just due to the atmosphere in 
the house. The pH is so high, it just changes the pH tape 
immediately. And this is actually a mixture of hydrogen 
chloride and methamphetamine. It is going into the air where 
the cook is being conducted.
    Thank you very much.
    [The prepared statement of Dr. Martyny follows:]

                 Prepared Statement of John W. Martyny

    My name is John W. Martyny. I am an Associate Professor and an 
industrial hygienist at the National Jewish Medical and Research 
Center. I also hold the rank of Associate Professor in the Department 
of Preventive Medicine at the University of Colorado Denver/Health 
Sciences Center. I wish to inform you of recent research that we have 
conducted regarding the chemical exposures associated with the 
clandestine manufacture of methamphetamine. Our research has indicated 
that very high levels of toxic chemicals are produced during 
methamphetamine ``cooks;'' and that hazardous chemical exposures can be 
expected to persist in rooms and buildings for an extended period of 
time.
    Prior to discussing our research findings, I wish to acknowledge 
the contributions made by many groups in conducting this research. The 
study was initiated due to exposure concerns expressed by local law 
enforcement officials in Colorado, including the North Metro Task Force 
in Denver, Colorado. We also obtained enthusiastic help and assistance 
from local and State law enforcement, fire, and emergency services 
personnel from Colorado, New Mexico, and Texas. I have attached to this 
testimony a complete list of participating organizations.
    In order to obtain exposure data, we collaborated with agents and 
chemists working for the U.S. Drug Enforcement Administration who 
conducted controlled methamphetamine ``cooks'' while we measured the 
chemicals being released. Without their help, this information would 
not have been obtainable. DEA Administrator Karen P. Tandy has been 
very supportive in this effort. Senator Ben Nighthorse Campbell was 
also helpful in providing some initial funding for our effort.
    We have received financial support from the U.S. Justice Department 
through Community Action Policing Services, the Centers for Disease 
Control/National Institute of Occupational Safety and Health (NIOSH), 
and HealthOne Foundation of Colorado. We gratefully acknowledge the 
help we have received from the National and the Colorado Drug 
Endangered Children Coalitions. Full reports of our studies can be 
obtained from either of their websites (http://www.colodec.org/ and 
http://www.nationaldec.org/).

Introduction

    Our nation faces an unprecedented epidemic of clandestine 
methamphetamine drug manufacturing. Seizures of methamphetamine drug 
laboratories continue to rise, putting police and fire first responders 
at risk for a variety of hazards. For example, the number of seizures 
in my home State of Colorado has risen dramatically from 31 
laboratories in 1998 to 687 laboratories in 2002. First responders and 
susceptible third parties, especially children, are at risk for 
exposures to the chemical hazards as well as the fire, explosion, and 
safety hazards inherent with the clandestine manufacture of 
methamphetamine.
    Unfortunately, very little research has been conducted regarding 
the specific exposure hazards associated with illegal methamphetamine 
manufacture. The lack of knowledge has produced four serious problems:

1.  Inconsistent medical treatment of chemically exposed individuals:

    Because of the lack of information on exposure levels, there has 
been very poor information on which to establish appropriate medical 
treatment plans. Health care providers providing treatment to 
individuals exposed at methamphetamine laboratories were forced to 
provide generic, often expensive, and probably to some extent 
unnecessary, medical testing.

2.  Inconsistent recommendations for protection of emergency service 
and law enforcement workers:

    The use of personal protective equipment (PPE) by emergency 
services and law enforcement personnel has varied widely by 
jurisdiction due to the lack of information regarding chemical 
exposures at the sites. Some jurisdictions utilize self-contained 
breathing apparatus (masks with air tanks worn on the back) and 
chemical-protective suits while neighboring jurisdictions use no 
respiratory protection or chemical-protective suits at all. Other 
agencies switch from self-contained breathing apparatus to air-
purifying respirators (face masks with filters) after the initial 
assessment, while some agencies remain in the highest levels of 
protection. These inconsistencies are due to a lack of information from 
scientifically-based studies of the exposure risks while conducting 
these operations.

3.  Preventable injuries and illness occurring among emergency service 
and law enforcement workers:

    Even though many agencies use some form of PPE, there are 
increasing reports of emergency service and law enforcement personnel 
being injured while conducting investigations at clandestine 
methamphetamine laboratories. The Centers for Disease Control reported 
59 events between 1996 and 1999, associated with methamphetamine labs 
where emergency services personnel were injured during the 
investigation. The number of injured responders was 155, with the most 
predominant symptom reported being respiratory irritation.
    Studies conducted by Dr. Jeffrey Burgess, while at the University 
of Washington, investigated the symptoms reported by emergency 
responders during illegal methamphetamine laboratory seizures. 
Responders predominately reported general irritant symptoms, but least 
one case of phosphine gas exposure (a gas that may be lethal at low 
concentrations) was reported. In a questionnaire study of emergency 
responders, 53.8 percent reported at least one illness while conducting 
laboratory seizures with most symptoms appearing to be related to 
chemical exposure at the laboratory site. The primary symptoms reported 
were headache and mucous membrane irritation.
    Although the predominant symptoms were irritant symptoms, a number 
of responders were found to have an accelerated decline in their 
ability to breathe (determined by a breathing test which measures how 
fast they can blow air out of their lungs) that may have been related 
to work in drug laboratories. The majority of symptoms reported by 
officers occurred during the processing phase of the laboratory 
seizures but this phase was also the phase in which the most time was 
spent in the laboratory area. The use of respiratory protection did 
seem to reduce the incidence of symptoms while investigating these 
laboratories. There has also been anecdotal evidence of these chemical 
exposures causing permanent lung damage, but the actual cases have not 
been reported in the literature.

4.  Inadequate hazards training and education of emergency services and 
law enforcement personnel:

    If the exposures encountered in methamphetamine laboratories are 
not known, then it is difficult to properly educate personnel about the 
risks they may encounter when entering an illegal laboratory. Although 
the chemicals used in the production of methamphetamine are well known, 
first responders do not know which of these chemicals by themselves or 
in combination may be harmful and what routes of exposure present the 
most severe risks. Industrial hygienists commonly approach such 
problems by quantifying the actual exposures using air sampling, 
modeling, and in some cases teamed with occupational environmental 
medical specialists using biological markers (chemical traces in urine 
or blood, for example) to determine what the exposure has been. Major 
exposure assessment issues include individual chemical characteristics 
as well as potentially complex interactions of chemicals that might 
result in unusual and potentially very toxic mixtures.

Summary of our research findings

    Our research was designed to determine the potential chemical 
exposures to law enforcement and emergency services personnel 
responding to clandestine methamphetamine laboratory seizures. As our 
research continued, however, we became increasingly concerned, as well, 
about the potential exposures to third party individuals that were 
incidentally exposed to these laboratories. Chief among these are 
concerns was the health and well being of the children associated with 
these laboratories. Approximately one third of the methamphetamine 
laboratories investigated by law enforcement involve children. In 
addition, there have been instances of families unknowingly moving into 
a building that had previously been a methamphetamine laboratory. The 
occurrence of a clandestine ``cook'' was only evident after significant 
lung problems were diagnosed in the children.

Methodologies

    Our research has consisted of two phases; a series of controlled 
``cooks'' documenting exposures during differing manufacturing methods 
and the sampling of conditions present at a number of laboratories 
being investigated by law enforcement officers. The controlled 
``cooks'' were designed to determine the levels of contamination 
associated with the ``cooks'' and the area over which these exposures 
are spread. The sampling of laboratory investigations was conducted in 
order to determine residual exposures present after the ``cooks'' have 
been conducted.
    The controlled methamphetamine ``cooks'' were conducted in three 
residences and a hotel that were slated for demolition. These ``cooks'' 
were conducted by law enforcement chemists using similar chemicals and 
equipment, and under similar conditions typically observed in 
clandestine laboratories. Two of the ``cooks'' were conducted using the 
red phosphorous reduction method and two used the Birch method, which 
uses anhydrous ammonia and lithium metal to produce methamphetamine. 
Airborne sampling for hydrochloric acid, iodine, phosphine, and 
anhydrous ammonia was conducted using methods specified in the National 
Institute of Occupational Safety and Health (NIOSH) Manual of 
Analytical Methods. Real-time analysis for hydrochloric acid and 
phosphine were also obtained using an ITX Multi-Gas Monitor. Real-time 
analysis for anhydrous ammonia was obtained using colorimetric detector 
tubes. Airborne and surface levels of methamphetamine were determined 
using a method being developed for NIOSH by Data Chem Laboratories in 
Salt Lake City, UT. The levels of chemicals observed were compared to 
the American Conference of Governmental Industrial Hygiene (ACGIH) 
Threshold Limit Values (TLV) and the NIOSH Immediately Dangerous to 
Life and Health Levels (IDLH).

Controlled Cook Results

Red Phosphorous ``Cooks''
    The red phosphorous method of producing methamphetamine involves 
the use of a number of solvents, iodine, hydrogen chloride gas 
(frequently manufactured using sulfuric acid and rock salt (NaCl) ), 
red phosphorous, sodium hydroxide, and ephedrine or pseudoephedrine. 
This method requires heating of the materials as well as a reasonable 
amount of manipulation (filtering and bubbling hydrogen chloride into 
the solution) that generally results in significant contamination by 
the primary chemicals as well as other chemicals produced by the 
combination and heating of the primary chemicals.
    Our analysis of the exposures present during red phosphorous 
``cooks'' has revealed significant exposures to solvents, phosphine, 
iodine, hydrogen chloride, and methamphetamine aerosol. Phosphine is a 
gas produced when the solution of iodine, water, ephedrine, and red 
phosphorous is heated. It is a gas that may cause severe pulmonary 
irritation resulting in pulmonary edema and death. At lower levels 
phosphine may cause nausea, vomiting, headache, and chest tightness, 
symptoms frequently reported by law enforcement personnel exposed to 
these laboratories. Unfortunately, there have also been several deaths 
reported in ``cooks'' that have possibly been associated with phosphine 
exposures. Our controlled ``cooks'' have resulted in measured phosphine 
levels ranging from not detectable to as high as 2.9 ppm, approximately 
three times the short-term occupational exposure standard of 1.0 ppm.
    Although a seemingly harmless chemical when applied to the skin, 
iodine can be very toxic when inhaled. The level of iodine considered 
by NIOSH to be Immediately Dangerous to Life and Health (IDLH) is only 
two ppm and levels lower than 0.1 ppm are required in the workplace. 
After a red phosphorous cook, iodine contamination can generally be 
found on many surfaces in the ``cook'' area and we have measured levels 
as high as 0.16 ppm in the air during the ``cook.'' The amount present 
in the air seems to depend upon the amount of water used during the 
``cook'' and the temperature of the ``cook'' with hotter ``cooks'' 
resulting in higher levels of airborne iodine.
    Many different types of solvents are utilized during the production 
of methamphetamine. Methanol and ether are commonly used to extract the 
pseudoephedrine or ephedrine and Coleman Fuel is commonly used to 
separate the methamphetamine base prior to acidification. All of these 
chemicals are extremely flammable; and many clandestine methamphetamine 
laboratories are found after the explosion and fire. These chemicals 
may also cause exposures resulting in nervous system damage as well as 
internal organ damage (liver, kidney, etc.). This is especially true 
for children with developing nervous systems.
    Hydrogen chloride is produced during the acidification phase in all 
methamphetamine ``cooks.'' It is typically used to precipitate the 
methamphetamine out of the organic solution. It can be produced by 
adding aluminum foil to muriatic acid (hydrochloric acid) or by mixing 
sulfuric acid with rock salt. In either case, large amounts of hydrogen 
chloride are produced and become airborne in any red phosphorous 
``cook.'' We have found levels as high as 155 ppm during the ``cook'' 
and average levels of hydrogen chloride are almost always over the 
occupational level of 2.0 ppm. This chemical can cause severe upper 
respiratory tract damage and may result in permanent lung damage to 
adults and especially to children and infants with a growing 
respiratory system. The current NIOSH IDLH is 50 ppm, which is the 
level that we frequently encounter during these cooks. The potential 
for injury due to hydrogen chloride is very high.
    While the hydrogen chloride is being used to precipitate the 
methamphetamine out of solution, a significant amount of 
methamphetamine itself is bubbled out of the solution and into the air. 
The methamphetamine can then be found to plate out on surfaces quite 
distant from the cook, and levels of methamphetamine as high as 16,000 
mg/100 cm<SUP>2</SUP> can be found in houses that were used to produce 
methamphetamine. These levels can persist and we typically find as much 
as 300 mg/100 cm<SUP>2</SUP> in homes that were used for 
methamphetamine production, even as long as six months after the last 
use. Airborne levels of methamphetamine may be as high as 5000 mg/
m<SUP>3</SUP> during the cook and almost assures that anyone in the 
vicinity of the cook will test positive for methamphetamine, even 
infants. Due to this widespread deposition of methamphetamine 
throughout the house, virtually all items within the house as well as 
all people, pets, toys, etc., become contaminated with methamphetamine.
    In general, anyone present during the clandestine production of 
methamphetamine using the red phosphorous method is highly likely to 
become exposed to toxic levels of phosphine, hydrogen chloride, iodine, 
solvents, and to high levels of the drug itself. These levels will be 
exceptionally high for children and infants who, due to their 
developing physiology and their inquisitive oral habits, will be 
exposed to high levels of these chemicals at a very sensitive time of 
their development. The final cost to these children may not be 
identified for many years to come.
Anhydrous Ammonia ``Cooks''
    The anhydrous ammonia ``cooks'' differ from the red phosphorous 
``cooks'' in that they use anhydrous ammonia and a reactive metal 
(lithium or sodium) instead of red phosphorous and iodine. This method 
of production still produces significant amounts of solvents, hydrogen 
chloride and methamphetamine but phosphine and iodine are not produced. 
The levels of anhydrous ammonia that are produced during these 
``cooks'' are significantly above NIOSH IDLH levels and the likelihood 
of serious injury to the respiratory system is high. Ammonia levels 
easily reach 1000 ppm with average levels of 500 ppm common. The 
current NIOSH IDLH is 300 ppm, well below the levels that we observe 
during the ``cooks.'' Adults exposed to these levels may be expected to 
have injury to the respiratory system as well as eye damage. The 
reactions of children and infants can be expected to be much greater 
and to persist for longer periods.

Conclusions

    Our studies indicate that methamphetamine production and use will 
have far-reaching effects upon the individuals using this drug, their 
children, others in the vicinity, and even individuals moving into the 
``cook'' areas well after the cook has moved on to another area. It is 
unlike the use of many drugs in that there is not only an exposure to 
the drug itself, but also to the hazardous and toxic chemicals used for 
the drug's production. It is almost a given that the following will 
occur:

        <bullet>  The cook and anyone assisting the cook will be 
        exposed to a number of chemicals (phosphine, hydrogen chloride, 
        iodine, anhydrous ammonia, and solvents) at levels that are 
        above those allowed by law in occupational settings and, in 
        some cases, above those levels determined to be ``immediately 
        dangerous to life and health.''

        <bullet>  Third party bystanders, including children and 
        infants, are likely to be exposed to levels of those same 
        chemicals that may cause severe and long-lasting health 
        concerns. This is especially true of children and infants who 
        are rapidly growing and more susceptible to chemical exposures 
        in the home environment.

        <bullet>  Law enforcement, fire, and emergency services 
        personnel may be exposed to high levels of these chemicals as 
        they investigate clandestine methamphetamine laboratories. This 
        is especially true if they enter an area where a laboratory is 
        in operation but also may be true if the laboratory is not in 
        operation at the time. Residual chemicals deposited on surfaces 
        of the house as well as boxes of chemicals stored in the house 
        may result in significant exposures to investigating personnel.

        <bullet>  The area used to produce methamphetamine and 
        surrounding areas will be contaminated with a number of 
        chemicals including hydrogen chloride, iodine, solvents, and 
        the methamphetamine itself. Levels of these compounds may 
        remain in the area for an extended period of time (at least six 
        months) and may result in exposures to individuals that were 
        not associated with the ``cook'' and, in fact, never knew of 
        the existence of the methamphetamine production.

What Don't We Know?

What are the long-term health effects for exposed children?
    In spite of all we do know about the potential effects of 
methamphetamine production on the community, there is still much that 
we don't know. At this time we do not have much information on the 
long-lasting health effects caused by exposure to clandestine 
methamphetamine laboratories. This may seem like information that is 
easily obtainable, but several factors have limited our knowledge in 
this area. The explosion of these clandestine laboratories has occurred 
during the last 10 years and has been studied for even a shorter 
period. This combined with laws limiting the collection of health 
information from individuals has hampered our ability to track exposed 
individuals for long periods of time.
    Information regarding long-term effects in children is especially 
needed, since the knowledge of potential physiologic and psychological 
conditions resulting from these exposures in children may help in our 
treatment for these individuals. Some physicians and psychologists 
working with methamphetamine lab exposed children have reported 
significant concerns that seem to be unique to this exposure. Indeed, 
since almost all of the children from these laboratories test positive 
for the drug itself, which we have found on most surfaces of the house, 
exposure to the other chemicals is also likely. Many of these chemicals 
can be related to pulmonary problems such as asthma and pulmonary 
fibrosis as well as liver and nervous system damage. The drug itself is 
a neurological agent that can result in significant psychological 
conditions in adults using the drug. Are these same conditions possible 
in the exposed children? Is it possible that even more severe 
developmental, psychosocial, and physical effects may occur in children 
exposed over a long period of time? We know that the brain undergoes 
significant changes in early childhood. Does exposure to 
methamphetamine at this time result in significant effects upon brain 
development that will not be recognized until later in life?

What are the long-term chemical exposures associated with 
        methamphetamine laboratories?
    As part of the process in determining the effect of methamphetamine 
and its precursor chemicals on children, we need to determine the 
magnitude of the exposures to children present in a home not only 
during, but after the ``cook'' has taken place. To date, we have only 
conducted controlled cooks in structures that were slated to be 
demolished within the next few days. This was done to reduce liability 
for people entering the structure after the ``cook.'' We now need to 
conduct controlled ``cooks'' in structures located in a secure location 
so that we can follow the exposures over time. What chemical exposures 
exist in the house a day after the cook? What about a month after the 
cook? Are the exposures associated with the house at a year post-
``cook'' still dangerous? How do normal activities such as vacuuming, 
cleaning, cooking and other activities affect these exposures? How do 
the potential exposures to infants crawling around the house differ 
from the exposures to adults? All of these questions are important in 
determining the potential health effects to look for in children as 
well as other adults residing in the building.

What are the best methodologies to use to control the spread of 
        chemical contamination into the community?
    Currently law enforcement agencies that take evidence, suspects, 
and children out of a suspected methamphetamine laboratory are 
confronted with decontaminating the individuals and materials. Some 
agencies conduct the decontamination on-site and others transport the 
individuals to a hospital for decontamination. In some cases, 
individuals have been transported without decontamination and hospital 
personnel have become ill from the exposures. What is the best 
methodology to use for decontamination? Which decontamination methods 
result in the least amount of trauma for children associated with 
methamphetamine labs? We have been told that a child able to take his 
or her favorite toy or object from the house may suffer much less 
trauma. Are there ways that this can be done? Can we make 
decontamination child friendly? These are questions that, when 
answered, may make a drug raid much less traumatic for the children 
innocently involved.

What are the risks of moving into a house that has been used as a 
        methamphetamine lab?
    We currently know that individuals moving into a home that has been 
used as a methamphetamine laboratory often have respiratory problems. 
This is especially true of children or adults with asthma or other 
respiratory problems. At this time we do not know what chemicals cause 
these symptoms, although many involved in the process affect the 
respiratory system. We do know that these houses seem to have elevated 
levels of methamphetamine but we have not tested the homes for other 
compounds that may cause respiratory symptoms.

What is the best methodology to use in decontaminating a residence that 
        has been used as a clandestine methamphetamine laboratory?
    To date a number of states have developed standards and 
methodologies for the cleanup of methamphetamine labs. These standards 
vary from state to state although many states have similar standards. 
Are there specific remediation steps that should be taken in all 
decontamination efforts? What decontamination procedures result in the 
lowest residual level of chemicals in the house? At what chemical 
levels should most people be unaffected? Should we base the 
decontamination on methamphetamine levels as is currently the practice 
in most states or should we look for other chemicals? These questions 
need to be answered in order to determine when the decontamination 
program is complete and to prevent unnecessarily expensive 
decontamination.
    As these questions get answered, there will undoubtedly be more 
questions as we begin to understand the complexity of this drug and its 
manufacture on society.

How will this bill help?

Voluntary guidelines for remediation. The ``Methamphetamine Remediation 
Research Act of 2005'' sets into motion several programs. It requires 
the U.S. EPA to establish voluntary guidelines for the remediation of 
previous clandestine methamphetamine laboratories. These guidelines 
will be able to combine the best of all of the existing State 
guidelines and provide a national guideline that will be available to 
all states, especially those that are new to the problem. The result 
will be more uniform remediation guidelines for the states that allow 
homeowners to more easily understand what is necessary to decontaminate 
their property. Additionally, a standard could unify potential 
practices for insurance providers, cleanup, disposal and remediation 
companies.

Further research. The bill also requires that the EPA support research 
so that we can begin to answer some of the questions previously 
mentioned as well as others. At this time, very little funding is being 
directed at what has become a national problem. Concerns regarding 
methamphetamine laboratories can be found in the media on a daily basis 
and many public concerns can't be adequately answered at this time. The 
bill may also provide funds that will allow us to scientifically 
determine the serious health effects associated with methamphetamine 
manufacture that at this time we are only able to identify through 
anecdotal observations by medical and psychological professionals. 
Knowledge of the potential effects may help us help the children and 
infants innocently involved with this drug so that they are not medical 
or sociological burdens upon society later in their lives. The 
provision requiring EPA to coordinate research with the National 
Academy of Science will enable research to move forward in a directed 
fashion. The emphasis on the biological effect on children and first 
responders is especially noteworthy.

Better dissemination of better information. The bill requires that the 
information gathered by the EPA be disseminated to the states on a 
routine basis. This is extremely important since the dissemination of 
current information to all interested individuals is very important in 
establishing a uniform methodology of combating this national problem. 
This technology transfer must be accomplished on a regular and frequent 
basis to assure that the information is well used.

Better detection methods. The development of new testing methods may 
also be important to the determination of the risks involved in 
previous methamphetamine labs as well as identifying those laboratories 
in the field. In order to be effective, however, any new methods that 
are developed must be validated and standardized to assure that they 
provide accurate results in a timely fashion.

    In closing, I appreciate the opportunity to acquaint you with the 
results of our research and the belief that we have regarding the 
importance of reducing this community hazard. Since beginning this 
work, it has been my privilege to meet many dedicated individuals that 
have devoted their time and efforts to protecting society and 
especially children from the potentially devastating effects of these 
clandestine methamphetamine labs. Much of the work in this area has 
been conducted by individuals on their own time and at their own 
expense. This shows the dedication of the many law enforcement, social 
services, public health, emergency services, and research people 
working on this problem today. Thank you again for your time.

Individuals and agencies participating in this project:

National Jewish Medical and Research Center

         Dr. Lee Newman

         Dr. Roxana Witter

         Shawn Arbuckle

         Nicola Erb

         Michael Van Dyke

Tri-County Health Department

         Dr. Charles McCammon

National Institute for Occupational Safety and Health

         Eric Esswein

         Jane McCammon

North Metro Task Force

         Lt. Lori Moriarty

         Sgt. Jim Gerhardt

         Lynn Riemer

U.S. Department of Justice

         Laura Birkmeyer

         Ron Mullens

         David Love

North Metro Fire Department

         Rich Randall

Colorado Department of Public Safety

Trinidad Police Department

Denver Police Department

Colorado Springs Police Department

New Mexico State Highway Patrol

Albuquerque Police Department

Albuquerque Fire Department

South Adams Fire Department

Colorado Alliance for Drug Endangered Children

National Alliance for Drug Endangered Children

Thornton Police Department

Adams County Sheriff's Department

Broomfield Police Department

                     Biography for John W. Martyny

Education/Training

Ohio State University, Columbus, Ohio; B.S., 1968, Zoology

Humboldt State University, Arcata, California; M.S., 1974, Wildlife 
        Biology

Colorado State University, Fort Collins, Colorado; Ph.D., 1987, 
        Environmental Health

Positions and Honors

Professional Positions

1974-83  Environmentalist IV, Supervising Environmentalist, Tri-County 
        District Health Department, Aurora, Colorado
1983-84  Graduate Teaching Assistant, Colorado State University, Fort 
        Collins, Colorado
1984-86  Graduate Research Assistant, Colorado State University, Fort 
        Collins, Colorado
1986  Certified in the Comprehensive Practice of Industrial Hygiene, 
        American Board of Industrial Hygiene
1986-01  Senior Environmental Health Consultant, Tri-County Health 
        Department, Commerce City, Colorado
1993-  Assistant Clinical Professor, University of Colorado Health 
        Sciences Center, Denver, Colorado
2001-  Associate Professor, National Jewish Medical and Research 
        Center, Denver, Colorado

Honors

1975  Colorado Environmental Health Association Presidential Citations
1977  Colorado Environmental Health Association Presidential Citations
1978  Colorado Public Health Association P.W. Jacoe Award for 
        Excellence in Environmental Health
1979  U.S. Environmental Protection Agency Environmental Improvement 
        Award
1996-  Adjunct Faculty Member, College of Veterinary Medicine and 
        Biomedical Sciences, Colorado State University

Selected Peer-Reviewed Publications

Martyny JW. Listeriae and yersinea in Roosevelt Elk (Cervus canadensis 
        roosevelti). M.S. thesis, Humboldt State University, Arcata, 
        California 1974.
Martyny JW, Botzler RG. Listeria monocytogenes isolated from wapiti 
        (Cervus canadensis roosevelti). J Wildl Dis 1975; 11:330-334.
Martyny JW, Botzler RG. Yersinea isolated from wapiti (Cervus 
        canadensis roosevelti). J. Wildl Dis 1976; 12:386-389.
Martyny JW, Kennerson D, Wilson B, Lott CE. Landfill-associated methane 
        gas: A threat to public safety. J Environ Health 1979; 41:194-
        197.
Martyny JW. Outcomes of an educational component in an OSHA on-site 
        consultation program. Ph.D. Dissertation. Colorado State 
        University, Fort Collins, Colorado 1987.
Martyny JW, Buchan RM, Keefe TJ, Blehm KD. Impact of an OSHA on-site 
        consultation program with an educational component on small 
        businesses in Colorado. AIHA 1988; 3:F12-F15.
Valway SE, Martyny JW, Miller JR, Cook M, Mangione EJ. Lead absorption 
        in indoor firing range users. Am J Public Health 1989; 79:1029-
        1032.
Kreiss K, Mroz MM, Zhen B, Martyny JW, Newman LS. The epidemiology of 
        beryllium sensitization and disease in nuclear workers. Am Rev 
        Respir Dis 1993; 148:985-991.
Epling CA, Rose CS, Martyny JW, Zhen B, Alexander W, Waldron JA, Kreiss 
        K. Epidemic work-related febrile respiratory illness among 
        construction workers. Am J Ind Med 1995; 28:193-205.
Kreiss K, Mroz MM, Newman LS, Martyny J, Zhen B. Machining risk of 
        beryllium disease and sensitization with median exposures below 
        2 mg/m<SUP>3</SUP>. Am J Ind Med 1996; 30:16-25.
Rose CS, Martyny JW, Newman LS, Milton DK, King TE, Beebe JL, McCammon 
        JB, Hoffman RE, Kreiss K. ``Lifeguard Lung'': Endemic 
        Granulomatous Pneumonitis in an indoor swimming pool. Am J 
        Public Health 1998; 88:1795-1800.
Sanderson W, Henneberger P, Martyny J, Ellis K, Mroz M, Newman L. 
        Beryllium contamination inside vehicles of machine shop 
        workers. Am J Ind Med 1999; Suppl 1:72-74.
Martyny JW, Rose C. 1999. Nontuberculous Mycobacterial Bioaerosols from 
        Indoor Warm Water Sources Cause Granulomatous Lung Disease. 
        Proc. 8th International Conference on Indoor Air Quality and 
        Climate, Edinburgh, Scotland, August, 1999. pp: 483-488.
Martyny JW, Martinez K, Morey P. Source Sampling. In: Macher J., ed. 
        Bioaerosols: Assessment and Control. ACGIH, Cincinnati, OH 
        1999.
Martyny JW, Hoover M, Mroz M, Ellis K, Bartelson B, Maier L, Newman L. 
        1999. Aerosols Generated During Beryllium Machining. J Occup 
        Env Med 42(1):8-18.
Van Dyke M, LaMontagne D, Martyny JW, Ruttenber J. 2001. Development of 
        an Exposure Database and Surveillance System for Use by 
        Practicing OSH Professionals. Appl Occup Environ Hyg 16(2):135-
        143.
Ruttenber AJ, McCrea JS, Wade TD, Schonbeck MF, LaMontagne AD, Van Dyke 
        MV, Martyny JW. 2001. Integrating Workplace Exposure Databases 
        for Occupational Medicine Services and Epidemiologic Studies at 
        a Former Nuclear Weapons Facility. Applied Occup Environ Hyg 
        16(2):192-200.
LaMontagne AD, Van Dyke MV, Martyny JW, Ruttenber AJ. 2001. Cleanup 
        Worker Exposures Hazardous Chemicals at a Former Nuclear 
        Weapons Plant: Piloting of an Exposure Surveillance System. 
        Appl Occup Environ Hyg 16(2):284-290.
Kelleher PC, Martyny JW, Mroz MM, Maier LA, Ruttenber AJ, Young DA, 
        Newman LS. 2000. Beryllium Particulate Exposure and Disease 
        Relations in a Beryllium Machining Plant. Occup Environ Med 
        43(3):238-249.
Ruttenber AJ, Schonbeck BS, McCrea BS, McClure D, Martyny JW. 2001. 
        Improving Estimates of Exposures for Epidemiologic Studies of 
        Plutonium Workers. Occupational Medicine: State of the Art 
        Reviews 16(2):239-258.
Kinshella MR, VanDyke MV, Douglas KE, Martyny JW. 2001. Perceptions of 
        Indoor Air Quality Associated with Ventilation System Types in 
        Elementary Schools. Appl Occup Environ Hyg 16(10):952-960.
LaMontagne AD, Herrick RF, Van Dyke MV, Martyny JW, Ruttenger AJ. 2002. 
        Exposure Databases and Exposure Surveillance: Promise and 
        Practice. AIHA 63(2):205-212.
LaMontagne AD, Van Dyke MV, Martyny JW, Simpson MW, Holwager LA, 
        Clausen BM, Ruttenber AJ. 2002. Development and Piloting of an 
        Exposure Database and Surveillance System for DOE Cleanup 
        Operations. AIHA 63(2):213-224.
Martyny J, Glazer CS, Newman LS. 2002. Current Concepts: Respiratory 
        Protection. N Engl J Med 347(11):824-830.
Xu P, Peccia J, Fabian P, Martyny J, Fennelly K, Hernandez M, Miller S. 
        2003. Efficacy of ultraviolet germicidal irradiation of upper-
        room air in inactivating airborne bacterial spores and 
        mycobacteria in full-scale studies. Atmos Environ 37(3):405-
        419.
Pacheco KA, McCammon C, Liu AH, Thorne PS, O'Neill ME, Martyny J, 
        Newman LS, Hamman RF, Rose CS. 2003. Airborne endotoxin 
        predicts symptoms in non-mouse-sensitized technicians and 
        research scientists exposed to laboratory mice. American J. of 
        Respiratory and Critical Care Medicine 167:983-990.
Fennelly KP, Martyny JW, Fulton KE, Orme IM, Cave DM, Heifets LB. 2004. 
        Cough-Generated Aerosols of Micobacteriam tuberculosis: A New 
        Method to Study Infectiousness. American J. of Respiratory and 
        Critical Care Medicine, 169:604-609.

Research Support

ONGOING

1.  1 P01 ES011810-01 Newman (PI)    09/12/02-07/31/07
    NIEHS
    Beryllium: Exposure, Immune and Genetic Mechanisms
    Core C
    The major goals of this project are to determine the interaction of 
beryllium exposure variables and genetic factors leading to immune 
reactivity to beryllium and to CBD.
    Role: Co-PI

2.  Colorado Regional Community Policing Institute Martyny (PI)    07/
15/04-08/30/05
    Clantestine Laboratory Research
    The major goals of this project are to study the potential chemical 
exposures at methamphetamine laboratories with regard to 
decontamination of personnel, suspects, and evidence.
    Role: PI

3.  Cadmus Subcontract    07/07/04-08/30/05
    EPA Support for Policy Development, Analysis and Info
    The major goals of this project are to develop a web-based mold 
remediation course for the U.S. EPA.

COMPLETED

1.  CCU 812221A Newman (PI)    09/30/95-09/29/01
    CDC/NIOSH
    Chronic Beryllium Disease Among Beryllium Exposed Workers
    The major goals of this project are to study the dose/response 
relationship for development of chronic beryllium disease in a 
beryllium machining plant and to characterize the aerosols/particulate 
exposure in beryllium machining. To determine the natural history of 
beryllium sensitization and disease.
    Role: Consultant

2.  R01 CCR815751-02 Newman (PI)    07/01/99-06/30/02
    NIH
    Dose of Beryllium Causing Sensitization and Disease
    The major goal of this project is to determine the dose of 
beryllium in a metal machining plant that is sufficient to cause 
beryllium sensitization and disease.
    Role: Co-PI

3.  20-NP-01-36-1 Martyny (PI)    01/01/03-07/31/03
    DCJ
    Methamphetamine Exposures to Emergency Personnel
    The major goal of this project is to determine the chemical 
exposures to emergency services personnel investigating clandestine 
methamphetamine labs.
    Role: PI

4.  Health One Alliance Grant    06/30/03-05/31/04
    Health One
    Meth Exposed Children Program
    The major goal of this project is to determine the chemical 
exposures to children exposed to clandestine methamphetamine labs.
    Role: PI

    Chairman Boehlert. Thank you very much, Dr. Martyny.
    Mr. Hamilton.

  STATEMENT OF MR. HENRY L. HAMILTON, ASSISTANT COMMISSIONER, 
 PUBLIC PROTECTION, NEW YORK STATE DEPARTMENT OF ENVIRONMENTAL 
                          CONSERVATION

    Mr. Hamilton. Mr. Chairman, Members of the Committee, on 
behalf of Acting Commissioner Sheehan, we want to thank you for 
allowing the New York State Department of Environmental 
Conservation to present its views on the growing issue of 
methamphetamine use and manufacture in New York State and on 
how H.R. 798 may assist the state with its efforts to stem this 
problem.
    Under Governor Pataki, New York State law enforcement, and 
public safety agencies, including this Department, are 
prioritizing a variety of means to stop illegal drug 
trafficking in New York State. Because of the Governor's 
various criminal justice initiatives, he was able to note in 
his 2005 State of the State address that New York is now the 
safest large state in the Nation. But the growing threat of 
illegal drugs, like methamphetamine, makes it clear that we 
must continue to focus resources to quell this threat and 
continue our progress in protecting public safety. Governor 
Pataki has proposed legislation that would specifically target 
clandestine laboratories, also known as clan labs, which 
produce illegal drugs. The proposal imposes significant 
penalties upon the individuals who operate these labs as well 
as those who assist the operators by knowingly procuring, 
transporting, or storing the substances or equipment needed.
    In New York State, these labs are most frequently located 
in rural and semi-rural areas. The rate at which these labs are 
proliferating is similar to that which began occurring in the 
Midwest during the mid to late 1900s. The slower growth of clan 
labs in New York likely stems from the state's ban on the sale 
of dietary supplements containing ephedrine alkaloids beginning 
in 1996. Similar federal legislation took effect in April of 
2004. Without available sources of ephedrine alkaloids, clan 
labs have been forced to use products containing 
pseudoephedrines, such as over-the-counter decongestants, which 
are much more time-consuming to distill.
    Nevertheless, methamphetamine use has begun to grow in New 
York State, particularly in New York City. This Department's 
environmental conservation officers, made up of both uniformed 
police officers and plain-clothes investigators, work with 
federal, State, and local law enforcement agencies in 
investigating these clan labs. In conjunction with these 
efforts, the Department's environmental remediation staff 
attempt to locate where chemicals from the clan labs have been 
disposed and coordinate the removal of chemicals that are an 
immediate threat to public health and the environment.
    Environmental concerns at clan labs are extensive. A 
variety of toxic wastes result from the manufacture of 
methamphetamine. These chemicals may migrate into drinking 
wells, be drained into septic systems, or be dumped off site. 
It is estimated that for each pound of methamphetamine 
produced, four to six pounds of toxic waste are generated.
    One of the substances of greatest concern in the 
manufacture of methamphetamine, of course, is anhydrous 
ammonia, used by farmers to fertilize crops. Methamphetamine 
manufacturers have been known to steal anhydrous ammonia from 
storage tanks on farms and at agricultural outlets in rural 
areas. Frequently, they leave the storage tanks open, allowing 
the anhydrous ammonia to empty from the tank. Anhydrous 
ammonia, as has been said, can cause severe irritation to the 
eyes, nose, throat, and lungs, can cause dizziness, chemical 
burns, and can seriously affect the central nervous system, 
even causing death. And of course, there is a potential for 
serious and very adverse environmental impacts.
    Indoor environments may become contaminated when the 
chemicals and fumes, as we have just seen in the videotape, 
formed during methamphetamine production, penetrate or adhere 
to porous surfaces, such as upholstery, drapes, linens, 
carpeting, wallpaper, and sheetrock. Other surfaces, such as 
countertops and floors, can also be contaminated by spills and 
emissions.
    As a result of these concerns, in August of 2004, Governor 
Pataki signed legislation requiring this Department to conduct 
a study on whether or not it would be feasible to introduce an 
additive into anhydrous ammonia that would prevent it from 
being used to manufacture methamphetamine. The statute requires 
that the Department issue a report and recommendations by April 
1 of next year.
    And in that context, we very much look forward to working 
with this committee on strategies to address this growing 
threat to public health and environmental quality.
    Again, Mr. Chairman, thank you for allowing the Department 
of Environmental Conservation to provide our comments.
    [The prepared statement of Mr. Hamilton follows:]

                Prepared Statement of Henry L. Hamilton

    On behalf of Acting Commissioner Sheehan, I want to thank you for 
allowing the New York State Department of Environmental Conservation 
(Department) to present its views on the growing issue of 
methamphetamine use and manufacture in New York State, and on how H.R. 
798 may assist the State with its efforts to stem this problem. I am 
Henry Hamilton, the Department's Assistant Commissioner for Public 
Protection.
    Under Governor George E. Pataki, New York State law enforcement and 
public safety agencies, including the Department, are prioritizing a 
variety of means to stem illegal drug trafficking in New York State. 
Through the initiatives which New York's criminal justice agencies have 
put in place, the Governor was able to note in his 2005 State of the 
State address that New York is now the safest large state in the 
Nation. But the growing threat of illegal drugs like methamphetamine 
makes it clear that we must continue to focus resources to quell this 
threat and continue our progress in protecting public safety. Governor 
Pataki has proposed legislation that would specifically target 
clandestine laboratories (clan labs) which produce illegal drugs. The 
proposal also makes possession of specific ingredients used to 
illegally manufacture controlled substances with the intent to 
manufacture such controlled substances a crime. The Governor's proposal 
also imposes significant penalties upon the individuals who operate 
these laboratories as well as those who assist the operators by, among 
other things, knowingly procuring, transporting or storing the 
substances or equipment needed to operate the laboratories.
    While I will focus today on the Department's role, I want to 
emphasize the importance of all the involved agencies, working 
together, to combat this growing public health and safety threat. Our 
State agencies have worked collaboratively to address many issues 
surrounding the illegal manufacturing of methamphetamine. It has become 
apparent that the problems associated with methamphetamine production, 
distribution and use, are very broad and are relevant to several State 
agencies. As such, a number of these agencies have started to 
coordinate and work toward a statewide strategy to deal with these 
issues. Part of this effort will be to continue to look at deficiencies 
in State law and develop proposals to deal with these issues.
    Operated in secret, clan labs are used to produce chemical or 
biological agents, explosives, drugs or other hazardous substances. The 
most commonly occurring clan labs are used to produce the drug 
methamphetamine. In New York State, these labs are most frequently 
located in rural and semi-rural areas. According to the New York State 
Police, between 1989 and 1999, there were only four methamphetamine 
laboratories found in New York State. Since then, the number of labs 
has risen quickly and steadily, from eight in 2000 to 19 in 2001, 45 in 
2002, and 73 in 2003. The rate at which these labs are proliferating is 
similar to what began occurring in the Midwest during the mid to late 
1990s.
    There are about 150 different ways to manufacture methamphetamine. 
Recipes are readily available, including on the Internet, and so are 
the ingredients. In New York State, the two most common manufacturing 
methods are known as the ``Birch'' method and the ``Red Phosphorus'' or 
``Red P'' method. The former is found mostly in western New York State 
and some basic ingredients are pseudoephedrine/ephedrine, anhydrous 
ammonia, lithium, ether, water and hydrochloric acid. The latter 
method, found mostly in central and northeastern New York State, 
utilizes, in addition to pseudoephedrine/ephedrine and hydrochloric 
acid, hydriodic acid, iodine, red phosphorous from matchbook striker 
plate or road flares, and lye.
    To date, fewer clan labs have been identified in New York State 
than in many other areas of the country, and those that have been found 
occur mostly in areas near the Pennsylvania or Canadian borders. The 
slow growth of clan labs in the state likely stems from the state's ban 
of the sale of dietary supplements containing ephedrine alkaloids in 
1996. Similar federal legislation only took effect in April 2004. 
Without available sources of ephedrine alkaloids in New York State, 
clan labs have been forced to use products containing pseudoephedrines, 
such as over-the-counter decongestants, which are time-consuming to 
distill into illegal methamphetamine drugs. Nevertheless, 
methamphetamine use has begun to grow in New York State--particularly 
New York City.
    The New York State Office of Alcoholism and Substance Abuse reports 
an increasing trend in methamphetamine treatment admissions in New York 
State. There were approximately 500 admissions in 1996 with an increase 
to almost 1,150 in 2003. Significantly, much of this increase is 
attributable to clients whose primary substance abuse involves 
methamphetamine. The primary route of administration by users is oral, 
followed by smoking, inhalation and injection, respectively.
    The Department's Environmental Conservation Officers (ECOs), made 
up of both uniformed police officers and plainclothes investigators, 
work with other federal, State and local law enforcement agencies in 
investigating these clan labs. The criminal investigations on which the 
ECOs focus involve the threat to human health and the environment, 
particularly the illegal disposal of hazardous waste, and toxic 
substances which may have been released into the environment. 
Violations of the New York State Environmental Conservation Law by clan 
labs include misdemeanor and felony pollution charges.
    The Department's environmental remediation staff includes 
responders with expertise in the identification and clean up of 
contaminated sites, including those at which the volatile chemicals 
used in the manufacture of methamphetamine are found. In conjunction 
with the efforts of the ECOs, remediation staff attempt to locate where 
chemicals from the clan lab have been disposed, perform an initial 
identification of those chemicals found, and coordinate the removal of 
chemicals that are an immediate threat to public health, safety and the 
environment. Given the volatile nature of the chemicals used to 
manufacture methamphetamine, these activities are hazardous, and 
require specialized training to ensure staff safety.
    Environmental concerns at clan labs are extensive. A variety of 
ignitable, corrosive, toxic or reactive wastes can result from the 
manufacture of methamphetamine. Red phosphorous, lithium, and many 
other chemicals used during production of methamphetamine are also 
highly flammable or combustible. The improper handling or storage of 
these items by methamphetamine users and producers increases the 
potential for fires and explosions. Furthermore, these chemicals may 
migrate into drinking wells; be drained into septic systems; or be 
dumped off-site. It is estimated that for each pound of methamphetamine 
produced, four to six pounds of toxic waste are generated.
    ``Cookers,'' the people involved in making methamphetamine, may not 
know or care about the dangers of the substances which they are using. 
Labs, which can be located anywhere, from apartments and motel rooms to 
motor vehicles, can explode, endangering the lives of anyone in the 
lab, as well as those who may reside nearby. This can pose a 
particularly dangerous threat to children living in or near these labs. 
To ensure the safety of both law enforcement and remediation staff who 
must deal with these dangerous sites, and to facilitate evidence 
gathering, the Department believes guidance should be developed to 
ensure the effective use of resources and provide uniformity in 
responding to clan labs in New York State.
    One of the substances of greatest concern in the manufacture of 
methamphetamine is anhydrous ammonia. This liquid, which is used on 
farms to fertilize crops, is both toxic and corrosive, and expands to 
800 times its original volume when exposed to ambient air. 
Methamphetamine manufacturers have been known to steal quantities of 
anhydrous ammonia from storage tanks on farms in rural areas. 
Frequently, they leave the anhydrous ammonia storage tank open, 
allowing the anhydrous ammonia to empty out of the tank. As a gas, 
anhydrous ammonia reacts with moisture to form ammonium hydroxide, a 
corrosive substance that is irritating to the eyes, nose, throat, 
lungs, mucous membranes and skin. It can cause dizziness, chemical 
burns, and can seriously affect the central nervous system, even 
causing death. Exposure to ammonia vapors may result in pulmonary 
edema. Anyone who happens to come near such a tank as it is emptying is 
in danger. For the same reason, law enforcement personnel stopping a 
suspect after an anhydrous ammonia theft might be in danger. Of course, 
there is also a potential for adverse environmental impact from 
groundwater contamination. In addition, such thefts can place a 
significant financial hardship on the farmers from whom the anhydrous 
ammonia was stolen.
    Environmental contamination may include indoor environments as well 
as outdoor environments such as soil, water supplies, septic systems 
and air. Indoor environments may become contaminated when the chemicals 
and fumes formed during methamphetamine production penetrate or adhere 
to porous surfaces such as upholstery, drapes, linens, carpeting, and 
sheet rock. Other surfaces (e.g., furniture, counter tops, floors) can 
be contaminated by spills or emissions of chemicals during drug 
manufacture. The residues in these indoor environments can continually 
expose individuals until the contaminated surfaces are properly cleaned 
or the contaminated materials removed. Again, this type of environment 
can be a particularly dangerous setting for children living in or near 
these labs.
    As a result of these concerns related to anhydrous ammonia, in 
August 2004, Governor Pataki signed legislation (Chapter 357, Laws of 
2004) requiring the Department to conduct a study on whether or not it 
would be feasible to introduce an additive into anhydrous ammonia that 
would prevent it from being used to manufacture methamphetamine. The 
statute takes effect on April 1, 2005, providing the Department with 
time to work with the New York State Departments of Health, Agriculture 
and Markets, and the New York State Police to study and make 
recommendations on this important issue. The statute requires the 
Department to issue a report containing such recommendations by April 
1, 2006.
    As I previously mentioned, our State agencies have worked 
collaboratively to address many issues surrounding the illegal 
manufacturing of methamphetamine and we will continue this effort.
    On behalf of Acting Commissioner Sheehan, I want to thank you for 
allowing the Department to submit its comments on the activities which 
we currently undertake to investigate and remediate clan labs. We look 
forward to working with the Committee on strategies to address this 
growing threat to the State's public health and environmental quality.

                    Biography for Henry L. Hamilton

    Henry Hamilton is Assistant Commissioner for Public Protection with 
the New York State Department of Environmental Conservation. As 
Assistant Commissioner, he oversees the Department's Law Enforcement 
Division (consisting of 300 uniformed and plainclothes police 
officers), as well as the Forest Protection and Fire Management 
Division, Emergency Preparedness Office, and the Office of 
Environmental Monitors. Mr. Hamilton joined the Department in 1999. He 
had previously been with the New York State Attorney General's Office 
for 18 years, including nine years as Director of Investigations. Mr. 
Hamilton retired from the Army Reserve in 1999 after a 24-year career, 
active and reserve, with the U.S. Army Military Police. He obtained his 
Bachelor's degree in Criminology from Syracuse University, and his 
Master's degree in Criminal Justice from the University of Alabama. He 
is also a graduate of the U.S. Army Command & General Staff College.

    Chairman Boehlert. Thank you very much, Mr. Hamilton. Thank 
you very much for your work.
    Sheriff Howard, it is a pleasure to welcome you here.

 STATEMENT OF MR. GARY W. HOWARD, SHERIFF OF TIOGA COUNTY, NEW 
                              YORK

    Mr. Howard. Mr. Chairman and Members of the Committee, my 
name is Gary Howard. I am the Sheriff of Tioga County situated 
in the southern tier of New York. I want to thank you for the 
opportunity to come here today and discuss my experiences with 
the threats posed by methamphetamine production.
    The explosive growth of clandestine methamphetamine labs 
over the last few years has presented a serious problem for law 
enforcement and local governments. Methamphetamine production 
activities within New York State have increased significantly 
over the last five years. Between 1989 and 1999, there were 
only four labs reported in New York State. Last year--or in the 
year 2003, the Tioga County Sheriff's Department had 28.
    Exposure to the hazardous chemicals, the possibility of 
explosion, fire, and violent behavior are all common dangers 
associated with the production of methamphetamine. Meth users 
are oftentimes paranoid and agitated, always thinking everyone 
is out to get them. This behavior leads them to use 
surveillance cameras and motion detectors as well as arming 
themselves to defend their operations. In 2003, October, a 
Tioga County man was shot to death over an argument of 
anhydrous ammonia. During that incident, there were seven 
people involved. Every one of them was armed with a firearm at 
the time of this shooting.
    According to the New York State Department of Health, 
approximately 47 percent of all meth labs are found at 
residential properties. The operators of these labs are often 
neglectful in providing the basic needs of their family and 
normally live in substandard conditions. Many children live 
hand-in-hand with chemicals or toxic substance that are used in 
the production of meth. We have debriefed children from meth 
labs and have been told stories that they had to wear masks 
while mommy and daddy are in the kitchen ``making stuff.'' One 
incident found a wife and a daughter sleeping while her husband 
was making meth in the kitchen. He mishandled some chemicals 
and a flash fire erupted, burning the house down. He resulted 
in getting second-degree burns, and we took his lab down.
    Equipment, such as hypodermic needles, containers of 
anhydrous ammonia solvents, and ether are found in kitchens, 
bedrooms, and bathrooms of the homes. In rural areas, garbage 
from the process is often taken outside and disposed of. During 
a recent raid, deputies found a defendant dumping ether down a 
toilet trying to destroy evidence. At another raid, law 
enforcement personnel found four defendants in the middle of a 
cooking process. The fifth occupant of the residence was an 11-
year-old boy who was wheelchair bound with cerebral palsy. This 
child had numerous exposures to the meth process, and 
subsequently was turned over to the Department of Social 
Services.
    Meth cooking produces solid and liquid waste that can 
contaminate a building. It is not only possible but likely that 
residual contaminants are left on surfaces and absorbent 
materials, such as carpets, furniture, sinks, drains, and in 
the ventilation and drain systems. Solid waste product, 
referred to as ``sludge,'' which is the leftover remnants of 
the process, is routinely dumped down the sinks, drains, and 
toilets or discarded outside along roads or in somebody's yard.
    In preparation for taking down a suspected meth lab, local 
law enforcement will spend hundreds of hours in surveillance, 
background, and undercover work. Briefings of law enforcement, 
emergency medical service people, HAZMAT people, and fire 
departments take place to ensure the safety of all involved. 
The Occupational Safety & Health Administration (OSHA) and the 
Public Employee Safety & Health Bureau (PESH) regulated safety 
gear must be obtained and used, and in most cases, we used the 
New York State Police county HAZMAT team for the collection of 
evidence.
    To further complicate this problem in the growing trend of 
meth is what are known as ``box labs.'' These labs are--all of 
the equipment that is used to produce methamphetamine is put 
into a container, put into a trunk of a car, and in one night 
is used in one residence and then moved to another residence 
the following night where meth is made. We are running into 
these occasionally on the road.
    The creation of H.R. 798 will extend help to local 
governments in the fight against this problem. The 
environmental impact of the production of meth may not be known 
for years to come. And the residual effects of the leftover 
chemicals pose a hazard to homeowners and tenants where labs 
were once located. Having standards and guidelines as outlined 
will help establish a protocol that in the future will help 
clean up meth sites and protect the public.
    And I want to thank you for inviting me down here, Mr. 
Chairman.
    [The prepared statement of Mr. Howard follows:]

                  Prepared Statement of Gary W. Howard

    Mr. Chairman and Members of the Committee, my name is Gary W. 
Howard; I am the Sheriff of Tioga County, located in the southern tier 
of New York. I want to thank you for this opportunity to appear today 
to discuss my experiences with the threats posed by methamphetamine 
production.
    The Tioga County Sheriff's Office has the largest law enforcement 
presence within the county and operates a 102-bed correctional facility 
with 49 corrections officers and 32 law enforcement officers. There are 
five criminal investigators who investigate reported felony crimes to 
include all drug activity within Tioga County.
    The explosive growth of clandestine methamphetamine labs over the 
last couple of years presents a serious problem for law enforcement and 
local government, and if left unchecked, has the potential to present 
far reaching problems for the future.
    Methamphetamine production activities within New York State have 
increased significantly over the last five years. Between 1989 and 
1999, there were four incidents reported for the entire State of New 
York. Since then, the incidence of these labs in New York State has 
risen annually, and totals 193. Eight in 2000; 19 in 2001; 45 in 2002 
and 73 in 2003. Of these 193 labs, 28 were located in Tioga County and 
25 in bordering Chemung County. The close proximity to Pennsylvania 
provides indicators for the number of labs found in New York. In 2003, 
16 of the 58 labs found in Pennsylvania were in Bradford County, which 
boarders both Tioga and Chemung counties.
    Methamphetamine labs present serious dangers to law enforcement, 
EMS personnel and other service providers, as well as the public at 
large. Exposure to hazardous chemicals, the possibility of explosion, 
fire and violent behavior are all common dangers associated with the 
production of methamphetamine. Meth users are often times paranoid and 
agitated, always thinking that everyone is ``out to get them.'' This 
behavior leads them to utilize cameras and motion sensors, as well as 
arming themselves to defend their operation. A grave reminder of the 
fact that firearms and violence are common with these labs, occurred 
during two separate incidents, within one year of the other. In the 
fall of October 2003, a Tioga County man was shot to death over an 
argument about anhydrous ammonia. Seven people involved in this 
incident, admitted to being armed with a firearm at the time of the 
shooting. In March 2004, two Bradford County, Pennsylvania Deputies 
were shot to death while trying to serve an arrest warrant for an 
individual wanted for methamphetamine production.
    Along with the inherent dangers presented by the suspects 
themselves, law enforcement personnel, service providers, and the 
public who live near or have reason to visit these labs face unseen 
hazardous chemicals, toxic waste and residue created during the meth 
cooking process. According to the New York State Department of Health, 
approximately 47 percent of meth labs were found in residential 
properties. The operators of these labs are often neglectful in 
providing for the basic needs of their family, and normally live in 
substandard conditions.
    Many of the labs that are found are being conducted right in the 
kitchen or basement of the home. Chemicals such as Muriatic Acid, 
Acetone, solvents, and ether have been found in the kitchens, bedrooms 
and living rooms of the defendants.
    Children of meth users have told stories of wearing masks while 
Daddy and Mommy ``make stuff'' in the kitchen. Children have been found 
sleeping in bed or on couches while their parents make meth in another 
part of the house.
    One incident found that a wife and daughter were sleeping while her 
husband was making meth in the kitchen, during the process he 
mishandled one of the chemicals and a flash fire erupted, causing 
considerable damage to the residence and resulting in second degree 
burns to the husband.
    Equipment such as hypodermic needles, containers of anhydrous 
ammonia, solvents, and ether and are found kitchens, bedrooms and 
bathrooms of the homes. In rural areas garbage from the process is 
often taken outside into the yard and burn in piles to in an effort to 
destroy any of the evidence.
    During a recent raid, Deputies found a defendant dumping ether down 
the toilet trying to destroy evidence, while others ran from the 
residence trying to avoid police, leaving their children behind.
    Many children live hand-in-hand with chemicals or toxic substances 
that are used in the production of meth. These chemicals are known to 
cause serious physical injuries.
    Short-term, high concentration exposure to some of these chemicals 
can cause severe health problems including lung damage and burns.
    At another raid, law enforcement personnel found four defendants in 
the middle of the cooking process. Another occupant of the residence 
was an 11-year-old boy who was wheelchair bound with cerebral palsy. 
This child had numerous exposures to the production of meth. 
Subsequently, the boy was turned over to the Department of Social 
Services.
    Every meth ``recipe'' starts with over-the-counter medications that 
include pseudoephedrine or ephedrine in their contents. The pills are 
crushed and mixed with other chemicals in the process of cooking meth. 
Most of the chemicals associated with producing meth can be grouped 
into three categories: Solvents; Metals and Salts; and Strong acids or 
Bases. Chemicals such as Starter Fluid; Muriatic Acid; Drain Cleaners; 
Lithium batteries; Iodine, and Acetone to name a few, are commonly 
found in varying quantities.
    The cooking process causes chemicals and methamphetamine to be 
deposited on surfaces and household belongings. Production also 
releases toxic gasses, including, but not limited to, hydrochloric 
acid, hydrogen chloride, phosphine, and ammonia. These gasses are 
released during the cooking process and can be deadly.
    Meth cooking produces solid and liquid wastes that can contaminate 
a building. It is not only possible, but likely that residual 
contaminates are left on surfaces and in absorbent materials, such as 
carpets, furniture, sinks, drains and ventilation systems. The solid 
waste product, referred to as ``sludge'' and other remnants of the 
cooking process are routinely dumped down sinks, drains and toilets, or 
discarded outside along roads or in yards, left to leach into the soil 
and ground water, leaving behind a virtual toxic dump of chemicals.
    Exposure to these meth lab chemicals and waste products can result 
in minor or serious life threatening medical problems, depending on the 
circumstances of the exposure.
    The eradication of clandestine labs exacts a serious burden on 
local law enforcement and government budgets and resources. In 
preparation for taking down a suspected meth lab, local law enforcement 
must spend hundreds of man-hours in surveillance, background and 
undercover work. Briefings of law enforcement, EMS, and HAZMAT 
personnel must take place to insure the safety of all involved. OSHA 
and PESH required safety gear must be obtained and deployed, requiring 
expensive equipment and extensive training.
    Beginning in 1999 when the first lab of this type was found in 
Tioga County, investigators began to educate themselves on the problem 
that now exists. Researching law enforcement publications and speaking 
with agencies outside our area. This was only a step into the education 
that was to follow. Credited schools, forums and local training on meth 
labs followed to help in getting a grasp of what the problem was.
    Today the Sheriff's Office has one investigator that is devoted 
full-time to the investigations of meth labs with two others educating 
the public, holding classes for groups such as Department of Social 
Services, Mental and Public Health, and numerous other clubs and 
organizations. This of course puts a strain on manpower and limits the 
amount of time that can be devoted to other criminal activity.
    In some cases, Tioga County has enlisted the help of the DEA in 
clearing the lab site of chemicals and contaminates. Unfortunately, the 
DEA only has two fully trained clandestine lab teams to cover New York, 
making it extremely difficult to acquire their assistance. In most 
cases, Tioga County enlists the assistance of the New York State Police 
and county HAZMAT team to perform an initial assessment of the lab site 
and perform evidence collection and removal of lab related debris, such 
as chemicals and containers. Further cleanup operations and expenses 
usually fall on the plate of local government, at substantial expense.
    To further complicate the problem is the growing trend of mobile 
meth labs. Known as ``box labs,'' producers carry their cooking 
operations in luggage size containers, which allow them to cook their 
meth in cars, motel rooms, or in isolated, wooded areas in an effort to 
avoid detection. This methodology creates a greater opportunity for 
producers to dump the ``sludge'' and toxic waste in areas which would 
increase the changes of exposure, or environmental contamination.
    Clandestine methamphetamine labs present unique and very serious 
problems for both law enforcement and public health officials. Unlike 
other illicit drug activity, the impact of this drug can be far 
reaching, having negative effects on those who produce it or use it, to 
those who are unknowingly exposed to a contaminated residence, 
waterway, or debris. It has a negative impact on the financial 
resources of public safety and public health agencies, and will 
certainly have a negative impact on the environment.
    The creation of H.R. 798 will extend help to local governments in 
the fight against the manufacture and cleanup of meth. The environment 
impact of the production of meth may not be known for years to come. 
The residual effects of the leftover chemicals pose a hazard to home 
owners and tenants were labs were once located. Having standards and 
guidelines as outlined, will help establish a protocol that in the 
future will help in the cleanup of known meth sites and protect the 
public.

                      Biography for Gary W. Howard

PERSONAL

    Born and raised in Binghamton, NY; Age: 50; Married with two 
children and two grandchildren; 1972 Graduate of Binghamton High School

MILITARY

Served in the U.S. Army from 9/73 through 11/76

        <bullet>  Served as a Military Police Officer with the 287th MP 
        Company, Berlin, German (Check Point Charlie)

Received an Honorable Discharge in 1976

PROFESSIONAL EXPERIENCE

Elected Sheriff of Tioga County in 1/04

        <bullet>  126 employees

        <bullet>  Law Enforcement

        <bullet>  Correctional Facility

        <bullet>  E-911 Center

        <bullet>  $5 Million Budget

Promoted to Senior Investigator in 8/94

Promoted to Criminal Investigator--3/85 to 8/94

Promoted to Road Patrol Sergeant--1982 to 3/85

Promoted to Road Patrol Officer--1980 to 1982

Hired as a Corrections Officer from 9/77 to 1/80.

PROFESSIONAL TRAINING

National Law Enforcement Institute School for Advanced Investigations

U.S. Department of Justice Drug Enforcement Administration--Drug 
        Enforcement School

NYS Division of Criminal Justice Services--Course in Supervisory Level 
        Drug Enforcement

``Col. Henry F. Williams'' Homicide Course

U.S. Army Military Police School

NYS Municipal Police Training Council, Instructors School

FBI Anti-Sniper and Survival Training Course

FBI Advanced Latent Fingerprint Techniques Course

NYS Bureau of Municipal Police--Basic Police School

NYS Bureau of Municipal Police--Course in Police Supervision

NYS Bureau of Municipal Police--Criminal Investigations Course

University of Delaware course in Contemporary Homicide investigations

NYS Fire Academy--Cause and Origin Determination Course

NYS Commission of Corrections--Basic Corrections Officers School

National Underwater Instructors Association--SCUBA and Skin Diving 
        School

ADDITIONAL TRAINING & SEMINAR/CONFERENCES

Professional Conferences Attended:

National Sheriff's Institute--Executive Level Management

NYS Sheriff's Association Road Patrol and Investigative Leaders 
        Conference

NYS Public Agency Training Council Conference

Conference on Accountability-Commitment--A New Model for Police 
        Management

Leadership Tioga Program

NOTABLE ASSIGNMENTS & POSITIONS

NYS Homeland Security Office ``Point of Contact'' for Tioga County

Certified Police Instructor

Past-President of the Tioga County Law Enforcement Association

Past Member of the Tioga County HazMat Team

Past Member of the Tioga County Fire Investigation Team

    Chairman Boehlert. How is that for an expert witness? One 
second remaining in his time. Thank you very much.
    Dr. Bell.

 STATEMENT OF DR. ROBERT R. BELL, PH.D., PRESIDENT, TENNESSEE 
                    TECHNOLOGICAL UNIVERSITY

    Dr. Bell. Thank you, Mr. Chairman, and Ranking Member 
Gordon.
    Mr. Chairman, I have a prepared statement, which I would 
request be entered into the record.
    Chairman Boehlert. Without objection, so ordered.
    All full statements are entered into the record for the 
benefit of our colleagues, who are not here. Incidentally, this 
is quite good attendance, because of the interest in the 
subject.
    Dr. Bell. Thank you.
    Good morning, Members of the Committee, and especially 
Congressman Davis, who is an alumnus of Tennessee Tech 
University. It is an honor to be invited to testify before you 
today regarding H.R. 798. My name is Bob Bell, and I serve as 
President of Tennessee Technological University, the state's 
only technological university, which is known for a strong 
reputation in engineering and sciences.
    The area Tennessee Tech serves in our state is 
predominately rural and has been dramatically impacted by the 
meth problem. While the leadership of Tennessee has been deeply 
involved in trying to solve this problem, we need the focus 
this committee provides on a national level. It is reassuring 
that you understand how explosive this problem is and how much 
this is a threat to our way of life. We are particularly 
fortunate in Cookeville, in our area, to be represented by 
Congressman Gordon, who has made the fight against meth a top 
priority for his public service.
    Numbers do not fully illustrate the extent of the problem, 
particularly in rural Tennessee. They do not describe the human 
element. But here are just some of the facts associated with 
this challenge. The labs that are used to make meth are often 
portable and clandestine, as you have heard, so they can be 
easily created and hidden in rural areas. Labs are found 
virtually every day within many counties in the State of 
Tennessee. A full 75 percent of the meth labs seized in the 
southeast are in Tennessee. In 2004, there were 1,259 lab 
incidents in Tennessee, the third highest in the Nation. The 
Cumberland Plateau Tennessee Tech serves is now recognized as 
the richest source of meth in the state. Last year, more than 
700 children were taken into State custody because of meth 
arrests amounting to a cost of over $4 million to the state.
    Last year, the Tennessee Governor established a task force 
on meth abuse. 1/5 of the members were Tennessee Tech alumni. 
As a result of that group's finding, he has presented a 
comprehensive bill addressing this issue. Among the 
recommendations are limitations on the sale of cold and sinus 
products containing pseudoephedrine. That measure alone 
previously enacted in our home community of Cookeville, 
Tennessee, has already slowed the manufacture of meth, although 
it can not address the importation of the drug.
    Our region has also benefited from the efforts of 
Representatives Gordon and Davis who assist local meth 
investigations and who started a public education campaign with 
federal grants.
    H.R. 798 provides authorization for new research and 
studies to be funded by federal agencies, such as EPA and NIST. 
In our view, universities, such as Tennessee Tech, have an 
important role to play in supporting and carrying out that 
research. In the time since the meth problem became apparent in 
Tennessee, our faculty members have been eager to join the 
battle in a meaningful way. Research and service conducted so 
far include the following.
    Using street methods, Tennessee Tech chemistry faculty 
members have demonstrated that pseudoephedrine can be extracted 
from most combination products, such as cold medicines that 
combine the substance with other drugs, with a 50 to 70 percent 
extraction ratio. To aid law enforcement and free warrant 
environments, chemistry professors have also conducted 
preliminary research on quick detection kits that were 
mentioned earlier. A Tennessee Tech professor is also gathering 
psychological data on children who have been removed from homes 
where meth was abused or cooked to test whether exposure to 
meth can be linked to cognitive problems.
    In Tennessee Tech's College of Business Administration, a 
meth education tool kit has been developed with video 
interviews featuring dozens of front-line meth specialists. 
This CD will be distributed to law enforcement and emergency 
service personnel, schools, property owners, and others free of 
charge.
    Much more can be done, though, and we suggest the following 
as potential research areas.
    In manufacturing process research, continue the work to 
demonstrate extraction efficiencies. We propose that cooking 
individual components needs to be done to better understand the 
product and the byproducts associated with this process, and we 
need to examine the methods for chemical bonding that do not 
allow product decomposition.
    In the chemistry of detection, we propose new standards at 
the national level for detection by researching the external 
environment where vapors are vented and outside the home in a 
car or other facility being used as a mobile lab.
    A quick detection kit will help generate turnaround times 
less than one day on crime scene data simplifying the issuance 
of warrants. Long-term research should focus on mechanisms that 
quickly detect the presence of hazardous chemicals in a rental 
home, a motel room, a college residence hall much the same way 
that a smoke alarm detects the potential for fire.
    A technique called ``lab fingerprinting,'' the system of 
distinguishing among individual lots or batches of meth would 
allow law enforcement to tie a crime scene involving meth abuse 
to the original manufacturer of the drug. No two batches of 
meth are identical, thus, they can be viewed with the same 
integrity as a human fingerprint with the right research.
    In remediation, we need to address more efficient methods 
for identifying and containing lab products and byproducts with 
a rapid environmental kit. We simply don't know how clean is 
clean.
    Combining biology and psychology. We must better understand 
the physical and behavioral effects of a lab environment on 
victims of meth, particularly children, in order to devise more 
appropriate methods of faster, more complete rehabilitation.
    In education and science, we can expedite the spread of 
curricular initiatives and research findings in online 
clearinghouses addressing a glaring need for a more central 
source of information.
    Mr. Chairman, it is not a university's place to go out into 
the streets to arrest criminals or to remove children from 
their homes when the environment is unsafe or to treat the 
addiction. It is a university's place to train the 
professionals who take on difficult jobs on the front line of 
this battle. It is a university's place to conduct the research 
that can provide the tools that these professionals need.
    The legislation that is the subject of today's hearing 
takes the next logical steps in one of the most perplexing 
elements of the meth problem: detection and clean up of lab 
sites.
    I applaud the Committee's leadership in creating this bill 
and urge its prompt adoption, and I thank you for your time and 
for this opportunity to take part in this hearing. I will be 
pleased to answer questions.
    [The prepared statement of Dr. Bell follows:]
                  Prepared Statement of Robert R. Bell

INTRODUCTION

    Tennessee Tech is the state's only technological university, with a 
strong reputation in engineering and the sciences. A comprehensive 
university serving over 9,000 students, TTU retains a strong commitment 
to excellence in undergraduate education, with majors in engineering, 
business administration, education, the arts and sciences, nursing, 
agriculture, and human ecology. We also offer a wide range of graduate 
programs, including doctoral degrees in many fields of engineering, 
environmental sciences, and ``exceptional learning'' in education. TTU 
hosts three accomplished state Centers of Excellence in Energy Systems 
Research, Water Quality, and Manufacturing Research. Last year, 
Tennessee Tech was listed by U.S. News and World Report as one of only 
11 mid-sized universities in the ``Best in the South'' category and in 
the top tier of the ``Best Public and Private Colleges and 
Universities'' in the South. TTU is a member of the American 
Association of State Colleges and Universities.
    While TTU is a public university serving students from all over our 
state, many other states, and many foreign nations, we retain a special 
mission-based commitment to serve the Upper Cumberland Region of 
Tennessee. The Upper Cumberland Region, containing roughly 40 counties, 
ranges from just East of Nashville to just West of Knoxville, and from 
the Kentucky border to just north of Chattanooga. The region TTU serves 
is predominantly rural and has been dramatically impacted by the meth 
problem.

SIGNIFICANCE OF PROBLEM/RISE IN THE NUMBER OF USERS AND LABS

    Meth was first introduced as an illicit drug in Tennessee in 1978. 
A Tennessee native, who had been imprisoned in California, brought the 
knowledge and production methods back to his home after he was 
released. Unfortunately, he also set up a ``school'' to teach 
individuals how to ``cook'' meth for a fee.
    District Attorney General Bill Gibson, a TTU alumnus, reported that 
the Upper Cumberland Region began seeing the impact of meth in the 
early 1990s with several violent incidents that were difficult to 
explain. The consensus of the medical community and law enforcement is 
that meth is the most addictive and dangerous drug seen in the Upper 
Cumberland area.
    A homemade poisonous cousin of pharmaceutically based amphetamine 
or speed, meth has long been the dominant drug problem in California. 
It is an evil blend of common household and farming products including 
anhydrous ammonia, acetone, antifreeze, and the active ingredients in 
some cold medicines, ephedrine and pseudoephedrine. It has one of the 
highest addiction rates of all illegal drugs, including crack cocaine, 
and one of the lowest recovery rates, about five percent.
    Until the past decade, meth was a distant problem. It ravaged 
Pacific and Northwestern states for a long time and more recently 
infected the Midwest. After moving into Middle Tennessee, in the past 
10 years in particular, it has flourished in small labs in rural 
communities where detection is difficult. Today, according to the U.S. 
Drug Enforcement Agency, a full 75 percent of all methamphetamine labs 
seized in the Southeast are in Tennessee, growing from 135 labs in 1999 
to 499 labs in 2003. Last year, according to National Clandestine 
Laboratory Database numbers, there were 1,259 lab incidents in 
Tennessee, third highest in the Nation. The National Drug Intelligence 
Center considers the Cumberland Plateau the richest source of 
methamphetamine in the state.
    Meth presents a unique danger to regions like Middle Tennessee. The 
laboratories used to make the drug are often portable and/or 
clandestine, so they are easily created. According to the Tennessee 
Governor's Task Force on Methamphetamine Abuse, labs are found 
virtually every day within every county in Tennessee. That makes this 
deadly drug as available in the farthest reaches of rural America as it 
is in the big city streets.
    Geographically, Tennessee is unique because it is bordered by eight 
other states. The interstate and State highway systems crisscross 
Tennessee's four major cities and traverse each of its borders. These 
highways, according to the Koch Crime Institute, carry a very large 
volume of traffic and are a primary means of moving drugs to and 
through Tennessee. As a result, the drug situations in the neighboring 
states have an impact on the drug situation in Tennessee.
    The availability and demand for meth continues to increase 
throughout Tennessee. While much of the meth consumed in the state is 
transported from Mexico and the Southwest border area, clandestine meth 
labs can be found everywhere in Tennessee and are encountered daily by 
law enforcement. These facts are a stark contrast to the problem of a 
few years ago. The labs discovered in Tennessee are generally 
characterized as small and unsophisticated. These clandestine meth labs 
pose a significant threat because lab operators are frequently armed 
and substantially involved in the drug's distribution.
    Dozens of TTU alumni, as well as faculty members, are on the front 
lines in the battle against this deadly drug. They are professionals in 
law enforcement, the judicial system, social and medical services, 
state government and education. In the past two years, these men and 
women have rallied in a concerted effort to wipe out the worst drug 
threat to ever face our region.

PROBLEM SCOPE: HOW IT HAS AFFECTED TENNESSEE AND THE UPPER CUMBERLAND

    Currently, Tennessee is third in the Nation in meth lab-related 
incidents. Meth lab arrests have more than tripled since 1999. It is 
estimated that more than 700 children will be taken into State custody 
in 2005, at a cost of over $4 million to the state. The production 
process leaves behind five pounds of toxic waste product for every one 
pound of meth. Removal and handling of evidence and hazardous residue 
can cost between $5,000 and $20,000 per site, according to the 13th 
Judicial District Drug Task Force. Restoration of the site to safe, 
habitable conditions can cost additional tens of thousands of dollars. 
Businesses suffer from escalated costs of health coverage, lost time at 
work, workplace injuries, and theft. And the meth users and their 
families suffer dramatic, even life-threatening health problems 
associated with this substance abuse.
    Dr. Sullivan Smith, the county medical examiner and another TTU 
alumnus, described meth as the most dangerous drug he has dealt with in 
his career and claims it is responsible for the majority of violent 
crime in Cookeville in the past three or four years. Dr. Smith, who is 
DEA-certified to enter and seize a meth lab, expresses concern for the 
children meth affects. These labs, besides being toxic, are places 
where children are growing up in the midst of violence, weapons, and 
prostitution.
    Meth also has a profound effect on our school systems. Johnny 
Cordell, Upper Cumberland Representative to the Tennessee Organization 
of School Superintendents, noted that in his county (Sequatchie County, 
population approximately 13,000), law enforcement locates and destroys 
one meth lab each week. Mike Prock, Chairperson of the Upper Cumberland 
School Directors' Study Council, emphasized how unrealistic it is to 
expect children to come to school ready to learn when their family unit 
is being destroyed by meth addiction. Lana Sievers, Commissioner of the 
Tennessee Department of Education, noted that meth is not an isolated 
problem. Almost 10 percent of Tennessee students in the K-12 system 
report having tried meth. This drug is being used and produced in their 
homes, and it is making its way into the schools.
    In addition to the impact on school systems, meth abuse has 
terrible consequences for family members, especially young children. 
Children taken from active clandestine meth labs are stripped of all 
possessions. They are normally taken to an emergency room at a 
hospital, where they are tested, frequently by needle. They are 
separated from adult family members, sometimes from other siblings, and 
cannot even keep a favorite teddy bear for comfort. TTU alumnus and 
child protective services case manager Betsy Dunn considers meth the 
worst form of child endangerment she has ever seen. Children are 
neglected to the point where they are often the primary caretakers of 
their siblings and their parents as well.
    Meth also has profound effects on State and local governments and 
support resources. Often, smaller counties in Tennessee simply do not 
have the resources to address the meth problem and must call for 
outside assistance. In a typical raid on a clandestine meth lab in a 
rural county where an arrest is made, at least four officers are 
needed. Current guidelines stipulate that a ``partner'' system must be 
used, with a minimum of two officers in the residence/lab, one as a 
lead and one as a backup. Because of time constraints associated with 
potential exposures to the toxic environment, regulations also 
stipulate that a ``rotation'' team of two additional officers be 
outside the residence, ready to rescue those inside and ready to rotate 
after the first team reaches a specified time limit in the facility. 
Emergency personnel and/or fire personnel are also required on scene in 
case of an accident. A typical cleanup operation may take from eight to 
15 hours. During this time, local county resources are stretched to a 
breaking point, and County Sheriffs often must call for support from 
other agencies. County medical providers and facilities are also often 
overwhelmed by spillovers from clandestine laboratory raids.

AGENCIES THAT CURRENTLY RESPOND TO RESIDENTIAL METH LABS/HOW LABS ARE 
                    CURRENTLY ASSESSED, CLEANED AND REMEDIATED/STATE 
                    LAWS AND REGULATIONS THAT GUIDE THIS PROCESS

    Local law enforcement agencies are often the first notified about a 
suspected clandestine meth lab. Typically, when a lab is identified, a 
team of responders is assembled. First on the scene may be local law 
enforcement agencies (city police, County Sheriff's office). Only 
individuals who are ``Clandestine Lab Certified'' may enter the 
residence or clandestine lab. They may be supplemented by agents from 
the Drug Task Force, Drug Enforcement Agency, or the Tennessee Bureau 
of Investigation. Emergency medical services personnel are also called 
for stand-by support. Often, other support is provided by local fire 
department personnel, the Tennessee Department of Children's Services, 
and other service providers such as the Upper Cumberland Community 
Services Agency. Certified hazardous materials contractors are used to 
gather, transport, and dispose of materials in the meth lab. The Office 
of the District Attorney and, frequently, the Public Defender's Office 
are also closely involved. As the site is catalogued and remediation is 
initiated, officials from the regional public health offices and 
environmental protection offices are also often involved.
    Protocols that guide assessment and remediation of clandestine 
methamphetamine labs are found in Tennessee Code Annotated, Title 68, 
as amended by Public Acts 2004, Chapter 855, ``Inspection, Testing, and 
Quarantine of Property Where Methamphetamine was Manufactured,'' and by 
``Emergency Rules of the Department of Environment and Conservation-
Standards for Testing and Cleaning Clandestine Drug Manufacturing 
Sites'' (Chapter 1200, 1-19). Also appropriate is Tennessee Department 
of Environment and Conservation Interim Guidance, February 22, 2005, 
``Reasonable, Appropriate, Protective Cleanup Responses and 
Documentation Guidance for Properties Quarantined due to Clandestine 
Methamphetamine Laboratory (CML) Activities Pursuant to TCA 68-212 Part 
5.''

LIMITATIONS OF ASSESSMENT/REMEDIATION STRATEGIES

    While current assessment/remediation strategies are clearly more 
refined than those in place just a few years ago, much remains to be 
done. Entrance guidelines are still loose. Individuals entering a 
clandestine meth lab are in effect entering a working hazardous 
materials/chemistry laboratory, but one where few traditional safety 
measures have been in place. There are no fume hoods or air circulation 
mechanisms. There has been no routine cleanup protocol in place for 
spills. While the presence of meth is presumed, uncertainty remains 
about the levels and types of other hazardous gases, fluids, and solids 
in the lab environment. Science related to byproducts and the toxicity 
of the environment is still unclear.
    Unfortunately, a baseline definition of what ``clean'' is, in terms 
of remediating labs, is not available. Research at the university level 
is needed to develop that definition. Fundamental research describing 
what ``clean'' really is must happen now.
    A great deal of work remains to be done on the effects of exposure 
to the clandestine laboratory in children, both from a medical and a 
psycho-social context. Research and work must be done to develop more 
effective treatment/rehabilitation programs for meth users. Little 
evidence exists today on the success of programs specifically 
addressing the impacts of meth on the body and brain, and what evidence 
does exist gives little hope of remediation with current treatments. 
House Bill 798 will help take major steps in the right direction toward 
this effort. Universities can play a major role as strategic partners 
in developing new detection and remediation strategies, helping develop 
standard reference materials and validation protocols. Higher education 
can also play a role in identifying adverse biological risks on the 
intervention teams, as well as studying the biological/medical and 
psycho-social effects on children and others in the clandestine meth 
labs.

COLLABORATIONS WITH LOCAL LAW ENFORCEMENT AND THE MEDICAL COMMUNITY

    Tennessee Tech has collaborated with a number of state and regional 
agencies for some time. Working with the Office of the Governor and the 
13th Judicial District Drug Task Force, TTU faculty and staff 
participated in a wide range of activities addressing the meth problem; 
the university has been identified by the Drug Task Force as a 
``central resource'' for the region.
    TTU units involved in these efforts include the Department of 
Chemistry; Center for Structural Chemistry; the Center for Management, 
Utilization, and Protection of Water Resources; the doctoral program in 
environmental sciences; the Business Media Center; and the College of 
Education. Key individuals involved include Dr. Scott Northrup, Chair, 
Department of Chemistry; Dr. Jeff Boles, Director, Environmental 
Sciences Ph.D. program; Dr. Eugene Kline, Professor of Chemistry; Dr. 
Martha Wells, Water Center Professor; Dr. Barbara Jackson, Professor of 
Chemistry; Dr. Comfort Asanbe, Professor of Curriculum and Instruction; 
and Mr. Kevin Liska, Director, Business Media Center. The university is 
eager to offer more.
    TTU research/service agenda can be generally categorized into four 
areas: Manufacturing Process Research, Education and Information, 
Detection, and Remediation, described below.

Manufacturing Process Research: Faculty in the TTU Chemistry 
Department, the doctoral program in environmental sciences, and the 
Water Center have recently been involved in a project sponsored by the 
Governor's Office and the 13th Judicial District Drug Task Force. Using 
``street'' methods and solvents for extraction certified by the 
Tennessee Bureau of Investigation, these studies demonstrated that 50 
to 70 percent extraction efficiencies for pseudoephedrine can be 
achieved from most combination products (such as cold medicines that 
combine pseudoephedrine with other drugs) typically associated as 
viable sources for the compound that is turned into meth. TTU partnered 
with Dr. Sullivan Smith on these experiments. Charlotte Burks, our 
state senator and a member of the Drug Task Force and Governor's Task 
Force on Methamphetamine Abuse, credited our research in this area for 
helping speed the development of the Governor's new bill.

Education and Information: Several of TTU's social service areas, 
including the ``Make a Difference'' project in the College of 
Education, regularly see the collateral effects of meth abuse on 
children. TTU enjoys a very close partnership with school systems 
throughout the Upper Cumberland Region of Tennessee and hosts the 
regional P-16 Council. Faculty and staff from the Colleges of 
Education, Arts and Sciences, Engineering and Business Administration 
have all collaborated to help develop educational programs addressing 
meth abuse. Some of these projects have involved curricular 
initiatives, with the intent of ``embedding'' anti-meth messages in the 
elementary school curriculum. Early work was done in Cumberland County, 
Tennessee, and is now being expanded into Putnam and Jackson Counties.
    Business Media Center Director Kevin Liska, in collaboration with 
the Putnam County Health Department and the 13th Judicial Drug Task 
Force, created a Meth Education Tool Kit to be distributed to law 
enforcement, schools, emergency services personnel, property owners and 
others--all potential victims of meth manufacture and abuse. In the 
form of a CD-ROM, the kit includes interviews with front-line meth 
specialists from the Tennessee National Guard, the Tennessee 
Departments of Children's Services and Health, the U.S. EPA and Drug 
Enforcement Agency, and local social services and medical agencies. The 
CD is organized into 22 community target markets presenting video on 
meth facts, medical impact, testimonials, and financial impact--all 
directed toward four age categories.

Detection: TTU Chemistry Professor Jeff Boles consults with the 
Committee on bills related to meth and has been studying the meth 
problem from a number of angles over the long term. Through the TTU 
Center for Structural Chemistry, which he administers, he proposes a 
two-part attack, the first of which is detection in a pre-warrant 
situation. While early work has been done on a quick-detection kit, 
collaboration with the NIST is necessary to identify existing standards 
of detection and benchmark the actions by other states in order to 
develop new standards at the national level. The center proposes 
researching the external environment where vapors are vented outside a 
home or car being used as a mobile lab. Estimates are that effective 
lab detection technologies will someday help generate a turnaround time 
of one day on crime scene data that would simplify the issuance of 
warrants.

Remediation: The second prong in Professor Boles' research is 
environmental cleanup. Toxic byproducts leave meth sites highly 
contaminated, from water to air to soil to the structure that housed 
the clandestine operation. Research is needed to make some form of 
remediation economically feasible. Rapid environmental analysis kits, 
with very short on-site cycle times, must be developed to identify 
hazards associated with clandestine lab environments. More efficient 
methods for identifying and appropriately containing lab products and 
byproducts must be addressed. Research must yet be done on appropriate 
methods and materials for ``cleaning'' a lab and remediating a site. 
Standards must be developed to address the question of ``how clean is 
clean?'' The potential for meaningful doctoral research in TTU's 
environmental sciences Ph.D. program, as well as similar programs 
nationwide, exists for exactly these topics.

RESEARCH GUIDANCE NEEDED TO ADDRESS THE ENVIRONMENTAL HAZARDS OF 
                    RESIDENTIAL METH LABS

    The scope of H.R. 798 provides a mechanism for making major 
progress in the research and science associated with meth abuse. This 
is a long-term effort, and the problem will not be solved in the next 
year or even the year after. But colleges and universities in general, 
and TTU in particular, want to be involved in moving toward a solution. 
Listed below are some specific descriptions of how TTU is already 
involved and how it can help in the future, but other possibilities for 
significant research can be generated through H.R. 798.

Manufacturing Process Research: Significant additional work is needed 
to understand the process and science associated with the manufacture 
of meth. As mentioned previously, recent work at TTU (December 2004/
January 2005) has demonstrated that high efficiencies of meth 
production can be achieved with over-the-counter products, using 
inexact ``street'' methods of production. This work needs to be 
expanded and refined. Work needs to be done to ``cook'' the individual 
components to more fully understand all of the compounds produced 
(product and byproducts). This will lead to a better understanding of 
the hazards of each individual and combination byproduct. Work should 
continue on decomposition research, examining methods for chemical 
bonding that do not allow product decomposition.

The Chemistry of Detection: Much work remains in the chemistry of 
detection. Current processes are slow and inefficient. Cycle times for 
analysis are long, in a relative sense, and present problems for 
efficient law enforcement. More efficient detection and diagnostic 
tools must be developed so that sites can be more rapidly identified 
and reaction times shortened. Long-term research should focus on 
mechanisms that quickly detect the presence of hazardous chemicals in a 
rental home, a motel room, or a college residence hall, much the same 
as a smoke alarm detects the potential for fire. Studies should 
continue on environmental sampling, with a focus on developing a 
detection mechanism for sampling air surrounding a residence.

Lab Fingerprinting: Tennessee Tech has proposed research in developing 
methods for ``fingerprinting'' illegally manufactured meth drugs 
synthesized in a clandestine lab contain sufficient impurities allowing 
such identification since these labs are generally poorly operated. No 
two batches or lots of meth will be identical; thus, they can be viewed 
with the same integrity as a human fingerprint. Such fingerprinting 
would allow law enforcement agencies to reach back into the 
manufacturing process, more clearly identifying specific products used.

Remediation: Research must continue on the processes implemented after 
labs are discovered. Rapid environmental analysis kits, with very short 
on-site cycle times, must be developed to identify hazards associated 
with clandestine lab environments. More efficient methods for 
identifying and appropriately containing lab products and byproducts 
must be addressed. Research must yet be done on appropriate methods and 
materials for ``cleaning'' a lab and remediating a site. Standards must 
be developed to address the question of ``how clean is clean?''

Biology/Psychology: Significant additional work must be conducted on 
the biological and psychological sciences associated with meth 
production and abuse. Much new work on the effects of the lab 
environment on children must be undertaken, focusing on both the 
biological and psycho-social impacts of the environment. Many 
physicians believe that current treatment paradigms for meth abusers 
are highly ineffective, and much work remains to be done on appropriate 
methods for faster, more complete rehabilitation. In the TTU Department 
of Counseling and Psychology, Assistant Professor Comfort Asanbe, a 
licensed psychologist, gathers psychological data on children who have 
been removed from homes where meth was abused or cooked. Exposure to 
meth could be linked to cognitive problems, and the environment is 
hazardous.

Education and Science: Work also needs to continue on the interaction 
of science and education to appropriately demonstrate the science 
associated with meth to different age groups in order to clearly 
identify the medical and social toxicity of the drug. While this is not 
the focus of H.R. 798, it clearly is a related, vital component of 
addressing the problem and eventually eliminating many of the hazards 
associated with the clandestine production of the drug. There is also a 
need for more public education and community awareness and training 
modules for delivery on the Internet, providing more scientific 
content.

    The ripple effect of a drug like meth makes it dangerous; it is not 
simply a matter of one person's addiction, it is the peripheral effects 
that add up to a significant threat to society. The motivation for 
attacking the problem head-on is strong. The effects of meth in the 
local communities surround Tennessee Tech, a regional university 
located in a rural area. The labs affect and contaminate the 
environment. Production and use have a devastating effect on the 
children TTU hopes to eventually serve.
    As indicated earlier, alumni of institutions just like Tennessee 
Tech are leading this fight. The war can only be won if it is attacked 
on all sides by all constituents. Smaller universities play a critical 
role; they can address this lethal epidemic. They provide the expertise 
in qualified and interested faculty members who want to do this type of 
research. They have an inherent motive to address the quality of 
students served in local communities.

RECOMMENDATIONS/RESPONSE TO H.R. 798

    Much more can be done, however, to address the problem, not only at 
home, but across the country. Because of this bill, faculty at regional 
universities like Tennessee Tech can make use of their expertise, 
engaging in the level of research required to find real solutions to 
the problem. In summary, Tennessee Tech faculty members propose 
expanding research in the following areas:

        <bullet>  In manufacturing process research, continuing our 
        work in demonstrating extraction efficiencies, we propose 
        ``cooking'' the individual components to more fully understand 
        both product and byproduct, and we need to examine methods for 
        chemical bonding that do not allow product decomposition.

        <bullet>  In the chemistry of detection, we propose developing 
        new standards at the national level for detection by 
        researching the external environment where vapors are vented 
        outside a home or car being used as a mobile lab. A quick-
        detection kit will help generate a turnaround time of one day 
        on crime scene data, simplifying the issuance of warrants. 
        Long-term research should focus on mechanisms that quickly 
        detect the presence of hazardous chemicals in a rental home, a 
        motel room, or a college residence hall, much the same as a 
        smoke alarm detects the potential for fire.

        <bullet>  A technique called lab fingerprinting--a system of 
        distinguishing among individual lots or batches of meth--would 
        allow law enforcement to tie a crime involving meth abuse to 
        the original manufacturer of the drug. No two batches of meth 
        are identical; thus, they can be viewed with the same integrity 
        as a human fingerprint.

        <bullet>  In remediation, we can address more efficient methods 
        for identifying and containing lab products and byproducts with 
        a rapid environmental analysis kit, and we simply must address 
        the question of ``how clean is clean?'' in remediation efforts.

        <bullet>  Combining biology with psychology, we must better 
        understand the physical and behavioral effects of a lab 
        environment on victims of meth, particularly children, in order 
        to devise more appropriate methods for faster, more complete 
        rehabilitation.

        <bullet>  In education and science, we can expedite the spread 
        of curricular initiatives and research findings in an online 
        clearinghouse, thus addressing a glaring need for such a 
        central source of information.

    It is not a university's place to go out into the streets to arrest 
criminals, or to remove children from their homes when the environment 
is unsafe, or to treat an abuser's addiction. It is a university's 
place to train the professionals who take on the difficult jobs on the 
front line of the meth battle. It is a university's place to conduct 
research that can provide the tools these professionals need to make a 
difference.
    With the appropriate funding for equipment and other resources, 
colleges and universities like Tennessee Tech stand ready to do their 
part in implementing H.R. 798, and the results of our research can be 
applied wherever meth is a problem. The Methamphetamine Remediation 
Research Act of 2005 attacks the problem from arguably the most 
important angle. It takes the next logical step in one of the most 
perplexing and complicated elements of the meth problem--detection and 
cleanup of meth manufacturing sites. The Committee's leadership in 
creating this bill is to be applauded, and TTU offers its wholehearted 
support in every level of this research. TTU can be a full partner in 
the bill's proposed research program on detection, remediation, and 
residual health effects on children.

ATTACHMENT

         GOVERNOR PHIL BREDESEN'S ``METH FREE TENNESSEE'' BILL

    On February 24, 2005, Governor Phil Bredesen outlined the major 
components of comprehensive legislation to address methamphetamine 
manufacturing and abuse in Tennessee, and took another step toward 
raising public awareness by proclaiming March as ``Meth-Free Tennessee 
Month.''
    Major provisions of the bill (attached as an appendix to this 
testimony) include:

        <bullet>  Limitations on the sale of cold and sinus products 
        containing the decongestant pseudoephedrine, the vital 
        ingredient in the manufacture of methamphetamine. While many 
        pseudoephedrine products will go behind the counter in licensed 
        pharmacies, liquids and gel caps will be exempt from 
        restrictions because they currently are not deemed viable in 
        the meth manufacturing process.

        <bullet>  Closure of the so-called ``personal-use loophole'' in 
        criminal law, which allows meth cooks to secure lighter 
        penalties by claiming they manufactured the drug only for 
        personal use.

        <bullet>  Requirement for health professionals to report meth 
        lab-related burns and injuries to local law enforcement, 
        similar to the existing requirement to report gunshot and knife 
        wounds.

        <bullet>  Creation of an online registry within the Department 
        of Environment and Conservation listing properties quarantined 
        by law enforcement due to meth-lab contamination. A separate 
        registry will be created within the Tennessee Bureau of 
        Investigation listing the names and offenses of convicted meth 
        cooks.

    Separate from the legislation, the Governor's FY05-06 budget 
includes nearly $7 million to attack the meth problem in Tennessee. 
Among other items, the budget includes:

        <bullet>  $2.4 million for increased criminal penalties for 
        meth-related crimes, including closure of the personal-use 
        loophole.

        <bullet>  $1.7 million to launch a drug court pilot project 
        endorsed by the White House Office of National Drug Control 
        Policy to test the effectiveness of a combination of treatment 
        and light incarceration.

        <bullet>  $1.5 million to launch a statewide education and 
        public awareness campaign.

        <bullet>  $600,000 to provide meth-lab response training to law 
        enforcement and other first responders.

SUMMARY OF SB2318, HB2334

SECTION 1: Designates legislation as the ``Meth-Free Tennessee Act of 
2005.''

SECTION 2(a): Requires that any product containing an ``immediate 
methamphetamine precursor'' must be sold only by licensed pharmacies. 
(``Immediate methamphetamine precursor is defined by Section 9.)

SECTION 2(b): Exempts products that cannot be used to manufacture 
methamphetamine. Requires the Department of Health, in consultation 
with the TBI, to determine whether a product can be used to manufacture 
methamphetamine. Requires the Department of Health to maintain a list 
of exempt products. The initial list shall include liquid preparations 
and gel capsules.

SECTION 2(c): Prohibits the sale of more than three packages of a non-
exempt product or nine grams of pseudoephedrine to the same person over 
a 30-day period, unless that person has a physician's prescription.

SECTION 2(d): Mandates that only a pharmacist, or pharmacy technician 
or pharmacy intern working under the supervision of a pharmacist, can 
sell a non-exempt product. Requires purchaser to present ID. Requires 
pharmacies to maintain an electronic record of the sale in the form of 
a pharmacist prescription order or a written log.

SECTION 2(e): Requires that non-exempt products must be placed behind 
the pharmacy counter.

SECTION 2(f): Makes it a Class A misdemeanor, punishable by fine only, 
for a pharmacy owner or operator to violate this section. Requires 
violations to be reported to the Board of Pharmacy for review and 
appropriate action.

SECTION 3: Requires the Department of Health, in coordination with the 
Department of Education, to educate and raise public awareness of the 
dangers of methamphetamine manufacturing and abuse and to direct 
addicts to treatment resources.

SECTION 4: Requires health professionals to report methamphetamine 
laboratory-related burns and injuries to local law enforcement, similar 
to the existing requirement to report gun and knife wounds.

SECTION 5. Requires the Department of Environment and Conservation to 
maintain lists of individuals and businesses qualified to test and 
clean properties contaminated by methamphetamine manufacturing.

SECTION 6. Clarifies that the purpose of the existing provision to 
quarantine properties in which methamphetamine manufacturing has 
occurred is to prevent persons from being exposed to the hazards 
associated with manufacturing.

SECTION 7. Makes it a Class B misdemeanor to offer for rent or to live 
in property that has been quarantined, or to remove signs or notices of 
quarantine.

SECTION 8(a)-(b). Requires law enforcement to inform the Department of 
Environment and Conservation of a quarantine within seven days of 
issuing the quarantine order. Requires the Department to maintain an 
online registry listing properties that have been quarantined for at 
least 60 days, and to remove properties after the quarantine is lifted.

SECTION 9. Defines ``immediate methamphetamine precursor'' as 
ephedrine, pseudoephedrine or phenylpropanolamine or any products 
containing detectable quantities of those substances.

SECTION 10(a)-(f). Makes it a Class B felony for any person to initiate 
a process intended to result in the manufacture of methamphetamine.

SECTION 11(a)-(f). Makes it a Class D felony for any person to promote 
the manufacture of methamphetamine. Defines promoting as: Purchasing or 
possessing more than nine grams of an immediate methamphetamine 
precursor with intent to manufacture; delivering more than nine grams 
to another person who intends to manufacture; or selling or acquiring 
any substance or apparatus intended for use in the manufacturing 
process.

SECTION 12. Deletes TCA 39-17-434, which addresses possession of 
substances with intent to manufacture or with intent to convey to 
another person (now dealt with in Sections 10 and 11).

SECTION 13(a)-(f). Establishes within the TBI a registry of persons 
convicted of manufacturing methamphetamine. Requires court clerks, 
beginning September 1, to forward copies of judgments against persons 
convicted of manufacturing methamphetamine. Requires the Department of 
Correction to forward a list of those currently incarcerated for 
manufacturing methamphetamine.

SECTION 14. Makes it a Class A misdemeanor to attempt to use fraudulent 
means to pass a drug test.

SECTION 15. Removes the ``personal use loophole'' from current law. 
(Under existing law, methamphetamine cooks can secure a lighter 
criminal penalty by claiming they were manufacturing only for personal 
use.)

SECTION 16. Clarifies that if any provision of the act is held invalid 
by a court, then the other provisions will remain in force.

SECTION 17. States that the act shall take effect immediately, the 
public welfare requiring it.

                     Filed for intro on 02/17/2005

                            HOUSE BILL 2334

                              By McMillan

                            SENATE BILL 2318

                                By Kyle

               AN ACT to amend Tennessee Code Annotated,

                     Titles 39 and 68, relative to

                            methamphetamine.

WHEREAS, the Tennessee General Assembly recognizes that the clandestine 
manufacture of the illegal drug methamphetamine is a clear and present 
danger to the health and well being of the State of Tennessee; and

WHEREAS, the United States Drug Enforcement Administration (``DEA'') 
has found the availability and demand for methamphetamine continues to 
increase throughout Tennessee; and

WHEREAS, methamphetamine is commonly manufactured in clandestine 
laboratories that can be found across in Tennessee and are encountered 
daily by federal, State and local law enforcement; and

WHEREAS, the DEA estimates Tennessee now accounts for 75 percent of the 
methamphetamine lab seizures in the Southeast; and

WHEREAS, these clandestine methamphetamine labs pose a significant 
threat because lab operators are frequently armed and are often 
directly involved in the drug's distribution; and

WHEREAS, the problem of methamphetamine manufacturing and abuse is 
particularly destructive to the children in our state and more than 700 
children are entering state custody each year as a result of 
methamphetamine lab seizures and related incidents; and

WHEREAS, clandestine methamphetamine labs also pose a potentially 
lethal environmental hazard due to the unregulated and illegal use of 
harmful chemicals involved in the production of methamphetamine; and

WHEREAS, the hazardous materials generated during the clandestine 
manufacture of methamphetamine impose a significant burden on property 
owners; and

WHEREAS, there is anticipation of an increase in methamphetamine use in 
Tennessee as the drug gains popularity over other abused drugs; and

WHEREAS, this Body desires to work with law enforcement, the health 
care industry, community agencies and other interested stakeholders to 
develop a comprehensive strategy including treatment and public 
awareness for addressing methamphetamine abuse; now, therefore,

BE IT ENACTED BY THE GENERAL ASSEMBLY OF THE STATE OF TENNESSEE:

SECTION 1. This Act shall be known and may be cited as the Meth-Free 
Tennessee Act of 2005.

SECTION 2. Tennessee Code Annotated, Section 39-17-431, is amended by 
deleting the existing language in its entirety and substituting instead 
the following:

 39-17-431. (a) Except as provided in this section, any product that 
contains any immediate methamphetamine precursor may be dispensed only 
by a licensed pharmacy.

(b)(1) A product that contains any immediate methamphetamine precursor 
shall be exempt from the requirements of this section if the 
ingredients of the product are not in a form that can be used in the 
manufacture of methamphetamine.

(2) The department of health, in consultation with the bureau of 
investigation, shall determine whether a product that contains any 
immediate methamphetamine precursor is not in a form that can be used 
in the manufacture of methamphetamine. In making such a determination, 
the department and the bureau shall develop procedures that consider, 
among other factors,

(A) ease with which the product can be converted to methamphetamine, 
including the presence or absence of a ``molecular lock'' completely 
preventing the product's use in methamphetamine manufacture;

(B) ease with which pseudoephedrine can be extracted from the substance 
and whether it forms a salt, emulsion, or other form:

(C) any other pertinent data that can be used to determine the risk of 
the product being viable in the illegal manufacture of methamphetamine.

(3) The department of health shall maintain a public list of such 
exempted products. Any person may request that a product be included on 
the exemption list. Such a list shall include, but not be limited to, 
products in the form of gel capsules and liquid preparations that 
contain any immediate methamphetamine precursor. The term ``gel 
capsule'' means any soft gelatin liquid-filled capsule that contains a 
liquid suspension, which, in the case of pseudoephedrine, is suspended 
in a matrix of glycerin, polyethelyne glycol, and propylene glycol, 
along with other liquid substances. Regardless of the product 
manufacturer's labeling, a gelatin-covered solid does not constitute a 
``gel capsule'' under this provision.

(c) A pharmacy shall not sell to the same person more than three 
individual packages of any non-exempt product containing any immediate 
methamphetamine precursor, nor shall a pharmacy sell to the same person 
any combination of such products containing more than nine grams of 
ephedrine, pseudoephedrine, or their salts, isomers, or salts of 
isomers, during the same 30-day period. The nine-gram limit shall apply 
to the total amount of base ephedrine and pseudoephedrine contained in 
the products, and not the overall weight of the products. The 
prohibition contained in this subsection shall not apply to a person 
who obtains the product or products pursuant to a valid prescription 
issued by a licensed physician, certified physician assistant, or nurse 
authorized pursuant to Tennessee Code Annotated, Section 63-6-204, who 
is rendering service under the supervision, control and responsibility 
of a licensed physician and who meets the requirements pursuant to 
Tennessee Code Annotated, Section 63-7-207(13).

(d) The pharmacist, or any pharmacy technician or pharmacy intern under 
the supervision of the pharmacist, shall require any person purchasing 
a non-exempt product that contains any immediate methamphetamine 
precursor to present valid government-issued identification at the 
point of sale. The pharmacist, pharmacy technician or pharmacy intern 
shall maintain an electronic record of the sale under this subsection 
in the form of a pharmacist prescription order as provided by Tennessee 
Code Annotated, Section 63-10-206(c). The electronic record shall 
include the name of purchaser, name and quantity of product purchased, 
date purchased, purchaser identification type and number (such as 
driver license state and number), and the identity (such as name, 
initials, or identification code) of the dispensing pharmacist, 
pharmacy technician or pharmacy intern. If a system is not able to 
record the identification type and number, the pharmacist, pharmacy 
technician or pharmacy intern shall write the identification type and 
number on the prescription order. The electronic record also shall be 
maintained in such a manner that allows for the determination of the 
equivalent number of packages purchased and total quantity of base 
ephedrine or pseudoephedrine purchased. In lieu of maintaining an 
electronic record, a pharmacy may maintain a written register 
containing the name of purchaser, name of product purchased, date 
purchased, number of packages purchased, total quantity of base 
ephedrine or pseudoephedrine purchased, purchaser identification type 
and number (such as driver license state and number), purchaser's 
signature and name or initials of the pharmacist, pharmacy technician 
or pharmacy intern completing the transaction. The obligation of 
meeting the requirements of this section rests with the pharmacist.

(e) Non-exempt products containing an immediate methamphetamine 
precursor shall be maintained behind the counter of the pharmacy.

(f) A violation of any provision of this section is a Class A 
misdemeanor, punishable by fine only. If the person in violation is a 
licensed pharmacy or pharmacist, such violation shall be reported to 
the Board of Pharmacy for review and appropriate action. If a product 
is dispensed in violation of subsection (a), the owner or operator of 
the wholesale or retail establishment dispensing such product shall be 
in violation of subsection (a).

SECTION 3. Tennessee Code Annotated, Section 68-24-103(b), is amended 
by adding the following as a new subsection (2) and redesignating the 
existing subsections accordingly: (2) As a component of the program 
described in subsection (1), the department, in coordination with the 
Department of Education, shall increase efforts to educate and raise 
public awareness of the dangers of methamphetamine manufacture and 
abuse, including but not limited to distribution of public information 
materials designed to oppose methamphetamine abuse, and shall direct 
persons suffering from the effects of methamphetamine abuse to proper 
treatment resources.

SECTION 4. Tennessee Code Annotated, Section 38-1-101(a), is amended by 
adding the following language after the word ``violence,'' in the first 
sentence: ``or resulting from exposure to a methamphetamine laboratory 
or a methamphetamine laboratory related fire, explosion, or chemical 
release,''

SECTION 5. Tennessee Code Annotated, Section 68-212-502, is amended by 
deleting it and substituting instead the following: The commissioner 
shall compile and maintain a list of certified industrial hygienists 
and such other persons or entities the commissioner certifies as 
qualified to perform the services of industrial hygienists. Such 
persons will test properties in which a process intended to result in 
the manufacture of methamphetamine has occurred, as defined by Section 
10 of this act, to determine if a property is safe for human use. Such 
property may include, but is not limited to, leased or rented property 
such as a hotel or motel room, rented home or apartment, or any 
residential property. The commissioner shall also compile and maintain 
a list of persons authorized to perform cleanup of property where such 
a process has occurred. Such lists may be posted on the website 
maintained by the commissioner.

SECTION 6. Tennessee Code Annotated, Section 68-212-503, is amended by 
deleting subsection (a) in its entirety and substituting in its place 
the following language: The purpose of the quarantine provided for in 
this section is to prevent exposure of any person to the hazards 
associated with methamphetamine and the chemicals associated with the 
manufacture of methamphetamine.

SECTION 7. Tennessee Code Annotated, Section 68-212-503, is amended by 
adding the following new subsection, appropriately designated: ( ) It 
is prohibited for any person to inhabit quarantined property, to offer 
such property to the public for temporary or indefinite habitation, or 
to remove any signs or notices of the quarantine. Any person who 
willfully violates this subsection commits a Class B misdemeanor.

SECTION 8. Tennessee Code Annotated, Title 68, Chapter 212, Part 5 is 
amended by adding the following new section, appropriately designated:

(a) Within seven (7) days of issuing an order of quarantine, the law 
enforcement agency that issued the order shall transmit to the 
Commissioner at least the following information regarding the site: the 
date of the quarantine order, county, the address, the name of the 
owner of the site, and a brief description of the site (single family 
home, apartment, motel, wooded area, etc.).

(b) The department of environment and conservation shall maintain a 
registry of all properties reported by a law enforcement agency that 
have been under order of quarantine for at least sixty (60) days. The 
registry shall be available for public inspection at the department and 
shall be posted on its web site. Listed properties shall be removed 
from the registry when a law enforcement agency reports that the 
quarantine has been lifted in accordance with this part.

SECTION 9. Tennessee Code Annotated, Section 39-17-402, is amended by 
adding the following as a subsection (13) and renumbering the other 
subsections appropriately: (13) ``Immediate methamphetamine precursor'' 
means ephedrine, pseudoephedrine or phenylpropanolamine, or their 
salts, isomers or salts of isomers, or any drug or other product that 
contains a detectable quantity of ephedrine, pseudoephedrine or 
phenylpropanolamine, or their salts, isomers or salts of isomers.

SECTION 10. Tennessee Code Annotated, Title 39, Chapter 17, Part 4, is 
amended by adding the following as a new, appropriately designated 
section:

(a) It is an offense for a person to knowingly initiate a process 
intended to result in the manufacture of any amount of methamphetamine.

(b) It shall not be a defense to a violation of this subsection that 
the chemical reaction is not complete, that no methamphetamine was 
actually created, or that the process would not actually create 
methamphetamine if completed.

(c) For purposes of this section, ``initiates'' means to begin the 
extraction of an immediate methamphetamine precursor from a commercial 
product, to begin the active modification of a commercial product for 
use in methamphetamine creation, or to heat or combine any substance or 
substances which can be used in methamphetamine creation.

(d) Expert testimony of a qualified law enforcement officer shall be 
admissible for the proposition that a particular process can be used to 
manufacture methamphetamine. For purposes of such testimony, a 
rebuttable presumption is created that any commercially sold product 
contains or contained the product that it is represented to contain on 
its packaging or labels.

(e) A person may not be prosecuted for a violation of this section and 
of manufacturing a controlled substance in violation of 39-17-417 based 
upon the same set of facts.

(f) A violation of this section is a Class B felony.

SECTION 11. Tennessee Code Annotated, Section 39-17-433, is amended by 
deleting the existing language in its entirety and substituting instead 
the following:

(a) It is an offense for a person to promote methamphetamine 
manufacture. A person promotes methamphetamine manufacture who:

(1) Sells, purchases, acquires, or delivers any chemical, drug, 
ingredient, or apparatus that can be used to produce methamphetamine to 
another person, knowing that the person intends to use the chemical, 
drug, ingredient, or apparatus to manufacture methamphetamine, or with 
reckless disregard of the person's intent;

(2) Purchases or possesses more than nine grams of an immediate 
methamphetamine precursor with the intent to manufacture 
methamphetamine or deliver the precursor to another person who they 
know intends to manufacture methamphetamine, or with reckless disregard 
of the person's intent; or

(3) Permits a person to use any structure or real property that the 
defendant owns or has control of, knowing that the person intends to 
use the structure to manufacture methamphetamine, or with reckless 
disregard of the person's intent.

(b) Expert testimony of a qualified law enforcement officer shall be 
admissible to establish that a particular chemical, drug, ingredient, 
or apparatus can be used to produce methamphetamine. For purposes of 
such testimony, a rebuttable presumption is created that any 
commercially sold product contains or contained the product that it is 
represented to contain on its packaging or labels.

(c) Possession of more than 20 grams of an immediate methamphetamine 
precursor shall be prima facie evidence of intent to violate this 
section. This subsection (c) shall not apply to the following persons 
who lawfully possess drug products in the course of legitimate business 
activities: (1) A retail distributor of drug products or wholesaler; 
(2) a wholesale drug distributor, or its agents, licensed by the Board 
of Pharmacy; (3) a manufacturer of drug products, or its agents, 
licensed by the Board of Pharmacy; (4) a pharmacist licensed by the 
Board of Pharmacy; and (5) a licensed health care professional 
possessing the drug products in the course of carrying out his 
profession.

(d) For purposes of this section, ``structure'' means any house, 
apartment building, shop, barn, warehouse, building, vessel, railroad 
car, cargo container, motor vehicle, housecar, trailer, trailer coach, 
camper, mine, floating home, watercraft, or any other structure capable 
of holding a clandestine laboratory.

(e) A violation of this section is a Class D felony.

SECTION 12. Tennessee Code Annotated, Section 39-17-434, is amended by 
deleting the section in its entirety.

SECTION 13. Tennessee Code Annotated, Title 39, Chapter 17, Part 4, is 
amended by adding the following as a new, appropriately designated 
section:

(a) There is hereby created within the bureau of investigation a 
registry of persons convicted after the effective date of this Act of a 
violation of 39-17-417 involving any substance defined in section 39-
17-408(d)(2) or of section 10 of this Act.

(b) This registry shall be maintained by the bureau of investigation 
and made available for public inquiry on the Internet.

(c) The registry shall consist of the person's name, date of birth, 
offense(s) making him or her eligible for inclusion on the registry, 
the conviction date and county of said offenses, and such other 
identifying data as the bureau of investigation determines is necessary 
to properly identify the person, but shall not include the person's 
social security number.

(d) Starting September 1, 2005, the court clerks shall forward a copy 
of the judgment of all persons who are convicted of a violation of the 
offenses described in subsection (a) to the bureau of investigation.

(e) The department of correction shall forward as complete as 
practicable a list of all persons currently incarcerated or under their 
supervision who have been convicted of the offenses described in 
subsection (a) to the bureau of investigation.

(f) The Sheriff of each county may identify such other persons for 
inclusion on the registry as the Sheriff may deem appropriate, as long 
as such information is accompanied by a copy of a judgment indicating a 
conviction for a drug offense and a notarized letter from the Sheriff 
certifying that the offense was methamphetamine-related.

SECTION 14. Tennessee Code Annotated, Title 39, Chapter 17, Part 4, is 
amended by adding the following as a new, appropriately designated 
section:

(a) It is an offense for a person to intentionally use, or possess with 
the intent to use, any substance or device designed to falsify the 
results of a drug test of that person.

(b) As used in this section, ``drug test'' means a lawfully 
administered test designed to detect the presence of a controlled 
substance.

(c) A violation of this section is a Class A misdemeanor.

SECTION 15. Tennessee Code Annotated, Section 39-17-417, is amended by 
adding the following as a new, appropriately designated subsection:

( ) The offense described in subsection (a)(1) with respect to any 
substance defined in section 39-17-408(d)(2) shall include the 
preparation or compounding of a controlled substance by an individual 
for the individual's own use.

SECTION 16. If any provisions of this act or the application thereof to 
any person or circumstance is held invalid, such invalidity shall not 
affect other provisions or applications of the act which can be given 
effect without the invalid provision or application, and to that end 
the provisions of this act are declared to be severable.

SECTION 17. This act shall take effect immediately upon becoming a law, 
the public welfare requiring it.

                      Biography for Robert R. Bell

    Dr. Robert R. Bell became President of Tennessee Technological 
University on July 1, 2000. Dr. Bell received his Ph.D. in 
organizational behavior and management from the University of Florida 
in 1972. Prior to assuming the presidency, he served as Dean of the 
College of Business Administration at Tech.
    He has served four terms on the Board of Examiners for the Malcolm 
Baldrige National Quality Award. Presently, Dr. Bell is a member of the 
Board of Directors for the Tennessee Quality Award (1993 to present) 
and has also served on the Panel of Judges for the Tennessee Quality 
Award from 1994 to present. He also served as Economic Development 
Consultant to the World Bank and Lead Judge for the Panel of Judges for 
the National Quality Award of the Nation of Mauritius in the Indian 
Ocean in 1996 and 1997. In Mauritius, Dr. Bell served as lead examiner 
and chairman of ten site-visit teams. In 2005, he was the first 
recipient of the Ned R. McWherter Leadership Award presented by the 
Tennessee Center for Performance Excellence.
    President Bell also served a four-year term on the national 
candidacy committee for AACSB International, the professional 
accrediting body for colleges of business. While serving on the 
candidacy committee, he served as pre-candidacy adviser for five 
schools, and served as accreditation consultant to three additional 
schools. He has been a member of twelve peer evaluation/site visit 
teams.
    Dr. Bell has numerous publications in the scholarly arena in the 
fields of management, organizational design, computer science, and 
quality/productivity management. These include two books and over 70 
articles, cases, and scholarly papers.
    Dr. Bell currently serves on the Board of Directors and is Chairman 
of the Finance Committee of the Ohio Valley Athletic Conference.
    Locally, Dr. Bell chaired the Board of Directors for the Putnam 
County Chamber of Commerce, chaired the Regional Quality Council, and 
chaired the Putnam Tomorrow Task Force for the Putnam County 
Commission. He is past president of the Putnam County Family YMCA, and 
has served as a member of the Quality Council for Cookeville Regional 
Medical Center. Dr. Bell chairs the Cookeville Industrial Board, serves 
on the Cookeville-Putnam County Chamber of Commerce Executive 
Committee, is a member of the Board of Directors of the Cookeville Noon 
Day Rotary and the Bryan Symphony Orchestra, and is a member of the 
Executive Board of the Middle Tennessee Council for Boy Scouts of 
America.
    Dr. Bell and his wife, Gloria, have three children and three 
grandchildren. They are members of the First United Methodist Church in 
Cookeville.

                               Discussion

    Chairman Boehlert. Thank you very much, Dr. Bell. And I was 
glad to see you agree with Ms. Green, who said there is too 
little research, and that is what the focus of this bill is all 
about. We could argue persuasively, and Mr. Gordon and I would 
agree on this, it is no difference whether he is Democrat or 
Republican, on the need to provide adequate support to our law 
enforcement across the country, but that is another committee's 
jurisdiction.
    You are right in emphasizing there is too little research, 
and Dr. Martyny, you pointed out, there is a lot we don't know. 
And I would add to that, and there is a lot that we don't know 
about what we don't know. And so given that, I would ask you to 
respond to the question: where do you think we should 
concentrate the research on the resources being provided under 
the provisions of this bill?
    And Ms. Green, I will ask you to come first.
    Ms. Green. At this particular time, I would say, from the 
perspective of drafting laws and regulations that are helpful, 
State and locals, really on health effects, short- and long-
term, in terms of children and adults and their exposure to the 
chemicals in order to have that research for a health-based 
standard. This is an area in particular where the research, in 
terms of drafting, really needs to drive the content of the 
particular laws and regulations. And everything really centers 
around the research, which will allow the determination of 
appropriate clean up and remediation standards.
    Chairman Boehlert. Dr. Martyny.
    Dr. Martyny. I believe that, you know, we have got a fair 
amount of work looking at exposure to law enforcement officers 
coming into a lot of these situations. We have a pretty good 
idea on that. We have no idea what happens after the lab--the 
cook is actually done, what the exposures look like, how long 
do they last. This is exceptionally important because of 
children and things brought into these facilities. We know that 
every child that is taken out of these labs tests positive for 
methamphetamine. That essentially means that there are 
exposures that go on long past the lab itself. We have even had 
people moving into the labs six months later that had nothing 
to do with the cooking or anything like that where we have had 
pulmonary fibrosis, asthma, and things like this in these 
individuals, and so we need to know what is happening, why this 
is happening. Is it because of the methamphetamine? Is it 
because of other chemicals that are following along with the 
meth? Meth is easy to test for. Some of these other chemicals 
aren't. So we need better testing methods. We need to follow it 
over a long-term period of time. And I agree with Ms. Green 
that we need to have the toxicologists involved to see where 
these levels meet. We need to look at exposures and then find 
out, well, do those exposures mean that these will be the 
symptoms that we would expect to see in these kids. And how do 
we follow these kids and help them do better after they are 
removed from the exposure? We know very little about that. So 
that is the areas I----
    Chairman Boehlert. Thank you very much.
    Dr. Bell, did you wish to comment on that?
    Dr. Bell. I agree with Ms. Green and Dr. Martyny. It seems 
to me that we need significantly more work on health effects, 
especially on children and others who are affected by the lab. 
And we also need a lot of work on byproducts. The 
pseudoephedrine and the product itself, the methamphetamine, we 
can identify, but we simply don't know what is there, both in 
the immediate lab environment, but also outside in the soil, in 
the site itself, in the trash dumps that are behind the home or 
behind the trailer in which this is being made.
    Chairman Boehlert. Dr. Bell and Ms. Green and Dr. Martyny, 
is it fair to assume--you know the danger of assuming, but is 
it fair to assume that all of you applaud the initiative from 
the Science Committee in terms of putting more emphasis on 
research, because that adds--there are many dimensions to this 
problem. It is so much more than just law enforcement. And as 
the Sheriff pointed out to me when I visited with him and had 
an extensive introduction from him on the overall problem, he 
showed me photograph after photograph where they made drug 
busts where there are kids' toys and slides and things like 
that just outside or inside pointed out to me that oftentimes 
they will cook the substance in the children's room, because 
they don't think the law enforcement will look in the 
children's room.
    And so I am so pleased, I hope all of you are, to see the 
large attendance on the part of the media, because part of the 
problem is heightening public awareness of the issue. And 
another dimension to the problem I think that is very important 
is to protect those that we call upon to protect us every 
single day. So Sheriff, you have had a number of successful 
busts, I know that, and a lot of coverage. And the Sheriff 
related the story to me how he got a call from a reporter from 
the West Coast who was surfing the Internet and came across the 
outstanding record of Tioga County and contacted him about the 
record.
    But let me ask you, when you first started all of this, 
when you started sending your teams in, what measure of 
protection did you provide for your team going in to lessen the 
exposure?
    Mr. Howard. Well, I have to say, in the beginning, we were 
a little bit uneducated. We learned very quickly, though, once 
you enter into a meth lab, you have got some serious problems 
to contend with. At this point, we have a 12-man entry team, as 
they are called. They are HAZMAT trained. They wear protective 
gear when we take a lab down. Their job is to go in, secure the 
residence or the building, and take any suspects that they have 
out of the building. Normally, the suspects are usually left in 
place. In meth lab situations when we do a raid, we go in, we 
secure the building, we take everybody out of the building, and 
then we send in a full HAZMAT team to decontaminate the 
building and take a look to see what they have, collect 
evidence, see what chemicals are out. Once they do that, they 
try to do the best ventilation that they can by opening all of 
the doors, windows, and getting some fresh air into the 
residence before any other law enforcement personnel enter. And 
we don't normally enter until we get an okay from the HAZMAT 
team.
    Chairman Boehlert. Thank you very much. And my time has 
expired unfortunately, because I have got a jillion other 
questions.
    Mr. Gordon.
    Mr. Gordon. Dr. Bell, following up on the Chairman's 
questions, does Tennessee Tech have any preliminary direct or 
indirect findings about the physical and behavioral effects of 
methamphetamine on children and first responders?
    Mr. Bell. Congressman Gordon, we do have some findings, and 
I would be happy to provide those for the record. The results 
are very preliminary and very small samples at this point. One 
of the issues is how do we broaden this to more than one county 
school system and to--within that just a very small sample. So 
the--I would not claim to have a scientific analysis at this 
point, but simply preliminary findings.
    Mr. Gordon. And Dr. Martyny, we have talked about the 
environmental contamination of methamphetamine, but what about 
outside the residence? And you know, do we know anything about, 
you know, how broad that contamination can be? For example, do 
we have a good understanding of the possible contamination of 
septic tanks or water systems, things of this nature?
    Dr. Martyny. You know, I am not aware of any studies that 
have actually been done, however, we have had some real tough 
incidents, especially in Colorado, that I am aware of, of not 
necessarily the cook itself coming out the windows, you know, 
but what we have had is--one of the things they do during these 
cooks is they take and use what we call a ``death bag.'' It is 
a bag that has kitty litter in it that you essentially pipe the 
effluence into it and then, you know, that hopefully gets a lot 
of the toxic materials in there. We had a CDOT employee, 
Colorado Department of Transportation employee, that actually--
that went into a roadside arrest and was opening--dumping the 
materials there, and here were the--there was a ``death bag'' 
and the chemicals in there, he ended up having to go to the 
hospital from exposure essentially from the--you know, the 
people didn't want to keep it there, so they just took and 
dumped it, not in their own trash, but out at these rest stops 
and things like that. And we are seeing this happen more and 
more. We are seeing a lot of the effluence dumped on bike 
trails, on hiking trails all throughout Colorado, because that 
way if you had been traced back, our enforcement has a harder 
time tracing it back to people. So it is very far-reaching. It 
is more than you think. It is not just the septic tank, not 
just the sewers, but people just strewing a lot of the 
chemicals throughout the area, trying to make it so it can't be 
traced back to them. So it does reach very far out.
    Mr. Gordon. And when you are saying ``tracing back,'' I--it 
was interesting in some of the earlier testimony that it is 
unique and it is almost like a fingerprint, and so that if you 
were to find this bag somewhere else or if you--if there was a 
7-Eleven that was held up and you could swipe some type of 
residue, then would that match up with the original cooking 
area? Is that----
    Dr. Martyny. Yeah, not to anything--we have not been able 
to do that. Even individual cooks might choose different 
methods. There are--lots of times, these cooks are being done 
by a co-op now.
    Mr. Gordon. But I mean, because they do that, does that put 
a fingerprint on it?
    Dr. Martyny. No, not as far as we are concerned.
    Mr. Gordon. Does anybody else have any information on that? 
Dr. Bell.
    Dr. Bell. I--we would agree with Dr. Martyny. We believe 
there is--that is our chemists in the--our environmental 
sciences doctoral faculty believe there is potential research 
there that can track it by--because again, each cook brings 
different combinations of these drugs into the environment. And 
we believe there is a potential for that tracking, but there is 
no data at this point that would----
    Mr. Gordon. Well, that would be--I think that would really 
be significant if we could get down to the point where it 
actually was a fingerprint and we could--whether it were 
federal crimes or anything else that we could trace it back.
    Thank--did you have anything, Ms. Green, that you wanted to 
add to that contamination?
    Thank you very much.
    Chairman Boehlert. Just to add on to that, Sheriff, when 
you go in with a bust and you are not sure--if they are not 
actually in the cooking process and you obtain some evidence, 
you are not sure really what it is. I mean, you just can't look 
at it and say, ``Well, this is meth,'' or ``This is cocaine,'' 
or whatever it is, and you send it off to a laboratory, is that 
correct?
    Mr. Howard. That is correct. We send everything out to a 
lab.
    Chairman Boehlert. So would it be helpful to you, and I 
think I know the answer, and I am not just trying to throw you 
a softball, but if we did the necessary research so we develop 
some sort of detection device where you could get almost 
instant analysis rather than sending it off to some lab in some 
distant city----
    Mr. Howard. That would be a great help. We send evidence 
off now, because there is so much of it going on. We get 
backlogged. The labs get backlogged on it. And sometimes it is 
three to six months before we can get results on some testing. 
I mean, to have an instantaneous test done would be unheard of.
    Chairman Boehlert. Is that the type of research, Ms. Green 
and Dr. Martyny, you think that we should engage in or at least 
be feasible--and is it--do you think it is feasible, or is it 
just a pipe dream?
    Dr. Martyny. No, it is definitely feasible. I think that 
there are a lot of different methodologies that could be used 
for very--much more rapid testing than we have today. The 
capabilities are there. We just haven't proven that out yet.
    Chairman Boehlert. Ms. Green.
    Ms. Green. Yes, I would agree that field-testing, to the 
extent that it is feasible, and I would defer to my 
distinguished colleagues who know all of the science 
background. It would be preferable, because one of the main 
complaints we receive when we are working with states is that 
they don't know what they are getting into when they go into it 
for first responders. And I would add that most people 
reference law enforcement with first responders, but we have 
also had Child Protective Services workers who have told us 
that they have realized later on that they have been walking in 
and out of a house, not understanding that some of what they 
are seeing are paraphernalia of a manufacturing lab. So there 
are a number of different individuals, in terms of first 
responders, or people who would need that kind of test or 
ability to detect what they are actually seeing when they go 
into a house.
    Chairman Boehlert. Thank you.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. And again, thank you 
for this hearing.
    Unfortunately for us in California, we have quite a bit of 
experience with this. And we have had some progress, and some 
of the law enforcement people that I have discussed this with 
also need research. And one of the things that was pointed out 
to me, and I don't know if any research is being done elsewhere 
in the country, is on thermal signature where equipment can be 
put on a police car or a helicopter or other equipment where 
you can identify a thermal signature that may be coming out of 
a trailer or from a motel room or from another suspicious 
location. Is there anything--any research that you are aware of 
that is being done, say, at Tennessee Tech or other places on 
that?
    Dr. Bell. There are speculations about how that could be 
done, but we don't have any definitive research. A member of 
the Drug Task Force is now a representative for the State of 
Tennessee and has introduced some legislation to look at that. 
Judd Matheny is his name, and he served early as a helicopter 
pilot in marijuana, thermal analysis. And he is hopeful that 
there is some, but we have no evidence of that at this point. 
It is worth investigation.
    Mr. Calvert. The reason I point that out, I am kind of 
double--I am on the Defense Committee, also, and we have been 
using thermal signatures for other purposes. And I don't know 
if we could explore--I know there is an issue of posse 
commatadus and how we share information and the rest, but has 
there been any outreach to the Department of Defense to maybe 
share in some of that technology, some of that research that is 
already being done, which we use, quite frankly, quite often. 
As far as you know, there hasn't been any sharing of 
information?
    Dr. Bell. As far as I know, sir, there has not been.
    Dr. Martyny. I believe there has been some work by Sandia 
Labs, trying to share information on remote sensing--developing 
protocols to actually be able to do remote sensing using 
forward-looking IFR and looking at some of these effluents 
coming off of the materials.
    Mr. Calvert. I was aware of software development working 
with utility companies to find spikes in utility operations. At 
that--has that been, in any way, perfected, or does that still 
need some work? I know that individual motel chains have been 
using that because of the problems they have had in motel rooms 
and cooking and those kinds of things. But are you seeing 
evidence of that in, say, upstate New York?
    Mr. Howard. We haven't had any utilization of any software 
in that means. The power companies in our area are more than 
helpful when asked if they have had any spikes in the area, but 
we haven't had any software development or usage of software.
    Mr. Calvert. Well, and one last comment. I know, because of 
some success we have had in California, unfortunately these 
labs are being pushed out to the rest of the country, most of 
the methamphetamine that is coming now into California, 90 
percent probably--and I don't know what it is nationwide, is 
coming out of these super labs, primarily out of Mexico and 
being smuggled across. So that is a--that is probably a problem 
Mr. Burns has to deal with, and I know that is probably not the 
jurisdiction of this committee, but I just want to point that 
out. And if you have any comment about that, that is the 
difficulty we are unfortunately living under right now.
    Mr. Burns. Well, you are absolutely right, Congressman 
Calvert. We have to be as fluid as the traffickers. For a time, 
the vast majority of pseudoephedrine was, as you know, coming 
in from Canada. We responded to that threat. We have seen a 
significant reduction of the super labs in your state, as much 
as a 50 to 60 percent reduction. And you are correct. We 
believe the threat has now moved to Mexico. I guess if there is 
any good news, they are polluting the rivers and the streams 
and the forests and the beautiful land in Mexico, as opposed to 
your state, but the bad news is the poison continues to flow 
into the United States. So we are responding.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman. And Mr. Burns, it is 
good to see an Iron County person here in Washington. Bring 
some common sense to this town. I appreciate you being here.
    Mr. Burns. Thanks for saying that.
    Mr. Matheson. I wanted to ask you a quick question about--
within ONDCP. How does it break out in terms of resources that 
look at meth compared to other drugs, say marijuana or whatnot? 
Do you have a sense of how your resources are devoted to 
different types of drugs?
    Mr. Burns. Yeah, that is a great question, because we know 
through household survey and we know through the monitoring the 
future survey that the 19.5 million illegal drug users in this 
country, about 75 percent are singularly or co-using higher-
potency marijuana. We know that about six million are using 
illegal prescription drugs, about 150 percent increase in the 
last five years, as many of you know, Oxycontin and Vicodin and 
Lortab. About three million are using cocaine, 1.5 million 
using heroin, and 1.5 million using methamphetamines. So if you 
look at it macro and you look at the numbers, you would ask, 
``Why methamphetamine? Why is everybody talking about this drug 
when of the 19.5, only 1.5 million are using it?'' And the 
reason why it has been addressed, yaba, ice, crystal, crank, 
meth, whatever you want to call it, is the most destructive 
drug. It gives the user an immediate feeling of euphoria and 
energy, but it doesn't really give it, it just lends it. And 
what the user has to pay back is at a very, very high cost.
    We have, in the National Drug Office, responded. We have 
responded through the Drug Endangered Children Program, or DEC, 
wherein we are trying to have each state come up with a program 
to deal with children that are found in these labs. We have 
responded through the National Methamphetamine Chemical 
Initiative, which, frankly, brings together key methamphetamine 
law enforcement people from all of the jurisdictions across the 
country two or three times a year to talk about trends shifting 
from California to Mexico and how we respond. And I would say, 
frankly, the HIDTA program, 28 HIDTA offices across the 
country, out of all of the individual drugs, and these areas 
pick what is their primary threat, there are more initiatives 
directed towards methamphetamine than any other drug. So 
hopefully, we have our priorities right.
    Mr. Matheson. And do you sense, in terms of--you mentioned 
the numbers from the last--but in terms of growth of use, I 
assume meth is one of the higher growth rates in terms of 
where--compared to the other drugs you have mentioned. Is that 
a fair statement?
    Mr. Burns. Except for the last one or two in the future 
survey shows a 25 percent reduction among kids, which is 
encouraging. And you mentioned it is good the media is here. It 
is good the media is here, because I think we are spreading the 
word about the destructive nature of this drug.
    Mr. Matheson. A question for Dr. Bell. You mentioned how 
the research you have done has been helpful in developing 
legislation in your state. And I had to step out for just a 
minute, so I--you may have addressed this, but I wanted to know 
if you share the research with other states. And is there a 
mechanism to provide access where people are sharing their 
information in that regard?
    Dr. Bell. Yes, there is a mechanism. The research that we 
have done at Tech was done over the Christmas holidays because 
of safety issues for the students. And it was embargoed until 
the new bill was introduced about two weeks ago, so it is just 
now flowing out. The drug task forces and the governor's office 
both have mechanisms for sharing with other places.
    Mr. Matheson. And in terms of development of--you said this 
is going to help develop some proposed legislation that your 
governor is supporting, I understand?
    Dr. Bell. That is correct.
    Mr. Matheson. And do you have a sense of--this is probably 
not a fair question for you to ask, but are other states trying 
to look at the Tennessee model now with this proposed 
legislation?
    Dr. Bell. My sense is other states are interested, much 
like we are interested, in what is happening in other states, 
so I think this model can be used in other states. There are 
some challenging issues in the legislation, and certainly the 
restriction of sale of the over-the-counter drug is one of 
those. So I know other states will be following it with a great 
deal of interest.
    Mr. Matheson. Thank you, Mr. Chairman.
    Mr. Calvert. [Presiding.] Okay. Mr. Reichert.
    Mr. Reichert. That is okay, Mr. Chairman. I am the new guy 
here, but I do have a keen interest in this topic for a number 
of reasons. Sheriff, just eight weeks ago, I was a Sheriff, so 
I know exactly what you are dealing with. I was the Sheriff of 
King County in Seattle, Washington. And about 10 years ago, you 
may recall, DEA made an announcement, meth will be the next 
dangerous drug that we are going to have to deal with across 
this nation. About five years ago in King County, we pulled 
together a team of people, statewide, Sheriffs, Police Chiefs, 
and every discipline, and what I am pleased to see today is 
that you have come together here as a team, because this 
doesn't just touch law enforcement or firefighters or 
environmentalists. This really touches at the heart of this 
country. This touches our children.
    And that is the second thing I want to talk about. One of 
my grandchildren happens to be a baby who was born to a mother 
who was addicted to methamphetamines. And he right now is 
almost three years old and is dealing with some learning 
disabilities and also has some breathing issues as, I think, 
one of the witnesses testified to today as a possible health 
side effect.
    Third, this drug is so dangerous, it takes--if you are 
hooked on this drug for one year, it can take five years to 
kick it. At first, it was thought that you couldn't kick it. So 
two years--one year--two years, you can lose 10 years of your 
life. And that is the reality of this drug, and that is why it 
is so important for us to fight this battle.
    As a citizen, I was asleep one night at home, and I heard 
some noise outside my driveway. So, still as the Sheriff, I 
thought I would investigate that and discovered that a mobile 
meth lab had pulled into my driveway in a rural area southeast 
of Seattle, packed with chemicals, packed also with two people 
carrying guns, looking to do a drive-by who felt they were 
being ripped off, another danger to our community. We have 
established, in Washington State, throughout the state, meth 
action teams. And in King County, we have a 35-member team, and 
I will just list some of the disciplines very quickly as to 
those people who are a part of those teams: law enforcement, 
social and health services, education, environmental, real 
estate, federal, prosecuting attorneys, the Congressional 
delegation. All of those people have come--prevention, 
intervention, and treatment. Those people all have come 
together to address this issue. In fact, Dr. Keppoy--I am 
sorry, James Kopple, I saw walk in, was one of the people who 
helped us in the State of Washington put our meth action teams 
together, so I think he would be a great resource for you 
coming from the National Crime Prevention Council.
    My question is, as you move together as a team, do you see 
this legislation helping you develop partnerships in some of 
these areas that I mentioned so we can have a holistic approach 
to this problem? Anybody?
    Ms. Green. Congressman, I certainly do. I think this is 
probably one of the best mechanisms that I have seen in recent 
years to ensure--and from my perspective, one of the things I 
am very much interested in is ensuring that accurate 
information gets to policy-makers who are making decisions on--
about what will happen in their state. And I think it is one of 
the best mechanisms I have seen to ensure that, on an issue 
where legislation and policy must keep pace with innovations in 
research and technology, to ensure that state-of-the-art 
information gets to all of the different constituencies and 
disciplines that have to, basically, address the issues arising 
from methamphetamine laboratories, whether it is trying to 
decide what particular protocols to use with children who have 
been removed or attempting to deal with what kind of liability 
issues and cleanup issues you may have, either in a rural area, 
or as people are now talking to us about, in apartments and 
hotel rooms. I think it is a very critical mechanism to ensure 
that kind of collaboration and the widespread dissemination of 
accurate information about how to address these methamphetamine 
laboratories.
    Mr. Reichert. Let me just comment, too, that when we 
started our effort to fight meth in the State of Washington, we 
were number two in the state as to the number of meth labs in 
the country. Today, we are number six. The county just south of 
King County, where I was the Sheriff, last year, however, had 
500 labs. King County had about 250. We have made some 
progress. And I think with NCPC's help, hopefully you could 
connect up with the National Crime Prevention Council, and 
there is also another organization called the Pierce County 
Alliance, which has made great progress in studying the effects 
on children and also some of the effects on the community as a 
whole.
    So thank you very much, and thank you all for your hard 
work. And Sheriff, it is nice to have another Sheriff in town.
    Chairman Boehlert. Thank you very much, Congressman.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman and Mr. Ranking Member. 
I salute both of you and compliment you for having these 
hearings, and quite candidly, for being--allowing me to be a 
part of these hearings as a neophyte.
    I want to commend the panel. This has been an outstanding 
panel, and what you have said has been more than edifying. It 
has truly been an education for me today to hear much of what 
you said.
    I have any number of concerns, because the omnipresent 
nature of the problem seems to create quite an enigma for you. 
I have noticed that we seem to be in our infancy as we are 
quarreling our empirical data, which means that we haven't 
quite gathered the sense of direction that we are looking for. 
And some of my questions will relate to the sense of direction.
    But first, Ms. Green, you mentioned liability issues just a 
moment ago. Do we have any sense of what type of standardized 
notice should be accorded a property owner who has had the 
unfortunate circumstance to develop in his property with a lab?
    Ms. Green. Yes, Congressman. There are several statutes, in 
particular Washington State and Oregon, that have dealt quite 
significantly with notice issues. And there are really three 
types of notice issues that are dealt with with respect to an 
owner. The first is when someone, like law enforcement, first 
notices a lab, what kind of notice do they have to make to 
state officials and then what is the responsibility of those 
particular agency officials to contact the owner to see if the 
owner knows. There is also a particular notice that has to be 
placed in certain county auditor records. In some respects, 
people are attempting to put notice in certain title records 
and other kinds of public notice property records that would 
allow an owner, even an absentee owner, to identify, upon 
regular perusal of those types of records. There is also a 
different type of notice, which is a build-upon to what you 
just suggested in terms of the owner knowing, which is a future 
owner, a potential purchaser. There are particular states that 
would require a seller to give notice to a potential purchaser 
that there has been a particular meth lab on that particular 
property. And the potential purchaser has a number of days to 
decide whether or not to cancel that particular contract.
    So many states, particularly in the west, are addressing 
that particular notice type of issue.
    Mr. Green. Thank you.
    And Dr. Bell, you talked about what I will call an--well, I 
suppose an intrastate integrated system that is being 
developed. How can we efficaciously move to an interstate 
integrated system?
    Dr. Bell. As you said earlier, we are in the infancy of 
many approaches to addressing this problem. The data collection 
is one, but certainly the collaboration is still in a learning 
stage, too. In most states, there is a task force that links to 
other states. The governor's office in our state, and I presume 
in most, has a coordinator. And there are individual mechanisms 
that are loosely linked at this point that, over time, I think 
we will see much more maturity. But certainly, at the federal 
level, it would help to continue the efforts that are already 
there to coordinate through the number of agencies that are 
currently involved. DEA, National Institutes of Health (NIH), 
all of these, right now, are involved in one way or another. I 
think the issue is going to be how we find a focused group that 
truly is interstate in nature. There are several now. The 
question is how to focus on one interstate activity in the 
long-term.
    Mr. Green. And my final question is for Mr. Howard, Sheriff 
Howard.
    Protecting protectors is, sometimes, expensive proposition. 
Have you now a grasp on how this is impacting your budget, the 
whole notion of acquiring the necessary funds so that when 
people do rush into these unfortunate situations, they are 
properly protected? How does that impact your budget, please?
    Mr. Howard. It has impacted our budget, obviously. We are a 
relatively small department. I have 126 employees. We have 
applied for and received several grants for equipment and 
training, which we have utilized in the last two to three 
years. Also, there is a lot of forfeiture laws and seizure laws 
that we have taken advantage of, and we take that monies that 
we have received and turn it back into training and education 
for the men and women in my department.
    So we are keeping our head above water, as far as that 
goes, but it is an impact on the budget. The problem we run 
into is the manpower issue on labs. I have a 12-man team for 
the labs, but half of that team are uniformed officers. The 
other half are plain-clothes investigators. Those investigators 
are the ones that really do the legwork on these labs. It takes 
hundreds of hours, and that is where the budget comes into 
play, the manpower that we have to pay out for those men.
    Mr. Green. Thank you.
    Chairman Boehlert. Sheriff, would you also respond to the 
first part of Mr. Green's question, the first phase of it, 
because I think it is very important? What notification 
requirement is there? You go in. You bust. You apprehend. You 
secure the crime scene. The judicial system works its will, and 
hopefully, the perpetrator ends up behind bars where he or she 
belongs. But what do you do or what is the New York, Mr. 
Hamilton, obligation to notify the property owner? I mean, if 
it is a rented apartment or a motel, they didn't do anything 
wrong, and they are not aware of anything. They are not 
facilitators, but they have to know that this took place within 
their property, because, as you have convinced me, and you have 
shown me the evidence, you know, the property is contaminated. 
So an innocent landowner, renting out an apartment, an innocent 
motel owner renting out a room, this illegal activity takes 
place, law enforcement works its will, what about the 
aftermath? What about the carpets? You come in and vacuum it or 
paint the wall, but there are still contaminants in the drywall 
and the carpet, and the next occupier has little kids playing 
around on the floor, as all little kids do. So what is the 
notification requirement in New York? Who wants to----
    Mr. Hamilton. Well, in New York, a standard practice is to 
notify everyone that we can, everyone under the sun. And that 
is not far off the mark, because there are so many aspects to 
this problem, as you well know. We contact the Social Services 
people, certainly the public health officials, local code 
enforcement people, and that is all in addition to notifying 
the property owner. The----
    Chairman Boehlert. How do you do that, because the Sheriff, 
after his success, reports in, and that material comes--that 
information comes to you, among others?
    Mr. Hamilton. Typically, a law enforcement agency, such as 
the Sheriff's department who goes in to seize a lab or to 
execute a search warrant, when they--if they don't already know 
going in that they are dealing with a meth lab, soon realize 
that they are dealing with toxic waste, the potential dumping 
of toxic substances, and will routinely call the Department of 
Environmental Conservation or local environmental officials. We 
come in, assess the situation, and, as part of that assessment, 
bring in and/or notify local public health officials, local 
code enforcement people, et cetera, and the property owner. I 
almost sound like I am saying that as an afterthought, but it 
is not. What is important here, and in fact, maybe this is an 
important point to raise, there is an anomaly for the 
environmental community and the environmental agencies with 
regard to dealing with methamphetamine clan labs, and that is 
this: most environmental laws are meant to deal with toxic 
dumping and illegal handling of toxic substances, usually by 
large industrial or commercial generators. And as a result, 
those are entities, which usually can be--which can be brought 
to bring their financial assets to bear to finance the clean up 
of the problem. For obvious reasons, with methamphetamine clan 
labs, first of all, the property owner, many times, is not the 
person who generated the waste. Second of all, the property 
owner may be a--may not have the financial means that a large 
industrial or commercial entity would to finance a clean up. 
Certainly, the operators, the cookers, who set up and work the 
lab, are usually not people who have the financial means that 
we can latch onto to do this clean up. So there is a financial 
aspect that comes in here that wasn't anticipated when some of 
the environmental protection laws were passed and, you know, we 
are just beginning to encounter and deal with that issue now.
    Chairman Boehlert. Thank you for that.
    But you, in your response, you said typically the Sheriff 
would report. Is it typically or what about the atypical 
situations? The point is, Sheriff, are you required to report 
on high when you engage in a bust like this?
    Mr. Howard. No. No, we are not. We try to--as Mr. Hamilton 
says, we typically notify everybody that we can and let them 
know what is going on, but atypically, no, we don't. There are 
times that we don't notify everyone.
    Chairman Boehlert. And that is one of the causes of concern 
here, because the next tenant of that motel room or that rented 
apartment or the next purchaser of the motel or the apartment, 
they--as I said, they don't know past history unless there is 
some sort of record. I mean, good gosh, we require a termite 
report. If you sell a property in Virginia, you have got to 
certify that it is termite free. Maybe we ought to do something 
along this line, not for every residence, obviously, but 
perhaps for those, Ms. Green, that where we know illegal 
activity has taken place. One, there should be some sort of 
notification requirement, it seems to me, to make sure that the 
proper people do know, but a requirement, not just, ``Oh, tell 
if you get a chance.'' Well, that is enough said.
    Mr. Schwarz.
    Mr. Schwarz. Am I correct--and this is for Mr. Burns. Am I 
correct in thinking that methamphetamine, because of some very 
obscure medical uses, is still schedule two?
    Mr. Burns. Are you talking about on a----
    Mr. Schwarz. I am talking about the substance itself, when 
they--you can still legally make it, some companies do, that 
has some--they use it for narcolepsy.
    Mr. Burns. The drug methamphetamine has no legitimate 
medical use.
    Mr. Schwarz. The----
    Mr. Burns. None.
    Mr. Schwarz. Then why is it not schedule one?
    Mr. Burns. In many----
    Mr. Schwarz. States it is.
    Mr. Burns. Yes.
    Mr. Schwarz. We have made it schedule one in Michigan, but 
federally----
    Mr. Burns. Yes.
    Mr. Schwarz.--I believe it is still schedule two, is it 
not?
    Mr. Burns. Yes, the--that is one of the issues that we are 
addressing in the synthetic action plan.
    Mr. Schwarz. Yeah. And Mr. Chairman, that is one thing that 
we should do federally is put it in statute, I believe, that 
methamphetamine is a schedule one substance and has no 
legitimate medical use, because, in fact, there are a number--I 
am a physician. That is--let me preface my remarks with that. 
There are other Central Nervous System (CNS) stimulants 
around----
    Mr. Burns. Correct.
    Mr. Schwarz.--that can be used, and methamphetamine itself 
has no legitimate use. And I agree completely with that.
    Chairman Boehlert. Good point. Is that something, Mr. 
Burns, that we can get you to seriously entertain as you tackle 
this problem?
    Mr. Burns. Certainly, Mr. Chairman. Let me just say Ms. 
Green and I run into each other probably two or three times a 
month crisscrossing this country trying to deal with individual 
states who are struggling with this. I was with Congressman 
Walden a couple of weeks ago in Oregon. In Oregon, Congressman 
Hooley would know that the penalties are more severe for 
marijuana than methamphetamine. And so it has been a constant 
effort on our part at the White House to go from state to state 
to try and assist them individually.
    Chairman Boehlert. But we all, the White House included, 
and this committee included, have to be very vocal about 
helping to educate the public.
    Mr. Burns. Yes.
    Chairman Boehlert. And you know, I find--and I am not going 
to take this out of your time, but I find, for example----
    Mr. Schwarz. Thank you.
    Chairman Boehlert.--in town meetings from back home, to 
emphasize the seriousness of this, we will start out with a 
youth group, particularly, or a PTA group. You know. Experts 
tell us, try something like meth today and the odds are heavily 
against you living beyond the next couple of years. You will be 
dead in five years. Boy, that grabs their attention. And then 
you begin to talk about the problem.
    Back to you, Dr. Schwarz.
    Mr. Schwarz. Yeah, and I believe that methamphetamine 
should be federally recognized as a schedule one substance with 
absolutely no legitimate medical usage in the year 2005, and 
there is no question in my mind.
    Dr. Bell, are you a pharmacologist or----
    Dr. Bell. No, sir. I have a Ph.D. in business 
administration.
    Mr. Schwarz. You are not a pharmacologist then.
    Dr. Bell. I am just a college president, which means I know 
a little about everything.
    Mr. Schwarz. Well, there is someone on the panel, what is 
the source--the ephedra that comes into this country--
legitimately, the raw ephedra, where does it come from? Is it 
the Far East some place? I believe. And so----
    Mr. Burns. You are correct. There are about seven major 
sources internationally for both ephedrine and pseudoephedrine 
that comes into the country.
    Mr. Schwarz. But the raw ephedra----
    Mr. Burns. Correct.
    Mr. Schwarz.--itself, because we refine it and make the 
pseudoephedrine. Would it not be appropriate to somehow put 
federal restrictions on the substance ephedra itself as it 
comes into the country? States have done it. As you know, in 
numbers of states, you can only buy so many ephedrine-
containing pills at your local 7-Eleven or something of that 
nature. Would it not be appropriate to somehow federally limit 
the amount of ephedra that can come into the country? I ask the 
question just for my own information.
    Mr. Burns. Yes. In fact, that is one of the key topics, 
again, of the synthetic action plan that will be out in April 
is to address that very issue that you raised, that we treat it 
as we do other imported drugs and control it and schedule it. 
We look at the importation. We look at the bulk sales. We look 
at the spot market and control it much better.
    Mr. Schwarz. So would it not enhance that cause to 
memorialize that concept in statute as well?
    Mr. Burns. That is where we are headed. We will recommend 
that to you at some point, I hope.
    Mr. Schwarz. Thank you very much. And I would--Mr. Chairman 
and to the people who are here testifying, I very, very 
strongly support this bill, because the effluvia from meth labs 
is as toxic as toxic can be, and my Congressional District in 
Michigan is an area where we have bust after bust after bust of 
ephedrine labs. So thank you very kindly for being here, and 
thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much, Dr. Schwarz.
    Let us see. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I want to compliment 
Ranking Member Bart Gordon and other Members of this committee, 
you as well, Mr. Chairman, for realizing the necessity for the 
bill that we have before us today.
    I represent a rural area in Tennessee. When you look at the 
different analyses, the 4th Congressional District has the 
fourth most rural residency of the 435 Congressional Districts 
in this country. Probably 95 percent of the Cumberland Plateau, 
with a population of roughly 450,000 people live in the 
District that I represent. Dr. Bell, your work with local law 
enforcement, your work with the governor's task force and 
others certainly needs to be recognized for starting a process 
that can at least help law enforcement and others in our state, 
and perhaps even the Nation, in being able to identify and find 
some way to give some relief or at least some pre-warning to 
law enforcement officers, the first responders who may be going 
to a meth site.
    We have talked some today about the capital of real estate 
that an owner might lose. But the human capital that we are 
losing in the area that I represent, there is, perhaps, not a 
family in my District that either does not know someone or have 
a close or distant relative that has--their life been taken as 
the result of methamphetamine. It is a horrible affliction. It 
is a cancer that continues to eat. And it is cheap, and it is 
deadly. I hope this legislation--and we are talking about the 
bill today. I hope this legislation will at least put in motion 
the experimentation, the research, the finding of some answers 
as well as warning systems for our law enforcement and for 
people in the District that I represent and throughout the 
space nearby the danger of methamphetamines.
    Having said that, Dr. Burns, in the District I represent, 
there are eight counties that have had at least 20 meth lab 
busts in the last year. Pretty harsh. If you look at the 
resources that you have available, $200 and some odd million I 
think is what I see, how much of those--or what percentage of 
those would be utilized in addressing this problem of 
methamphetamine? When we are talking about a problem that has 
been nationwide recognized, and certainly the areas that I 
represent probably the last five to eight years, marijuana, 
heroine, cocaine, other different addictive substances--
obviously we have had a constant war on drugs in the last 30 or 
40 years. This new drug seems to be hitting everyone, 
regardless of their economic scales or--how much--of the total 
resources that you have, how much are you directing towards 
solving this problem, the methamphetamine?
    Mr. Burns. You know, I would have to do a breakdown and get 
back to you with some specific numbers. I can tell you that 
over the last two years, in 2004 and this year, in excess of 
$50 million for clean up to assist the states. As I said 
earlier, the HIDTA program supports State and local law 
enforcement. And I think we all have to remember that the 
primary responsibility is local Sheriffs and Chiefs and law 
enforcement. But we have tried to, in a strategic fashion, 
support their efforts. And you are correct; your state has 
probably been disproportionately hit harder than any other 
state in the country in the last 12 to 18 months.
    Mr. Davis. Congressman Gordon's initiatives and with my 
working with him has been able to find about $500,000 in grants 
for a judicial district in our District. And one of the 
successes I think that we are seeing, perhaps, in the area 
where there may be more concentration population-wise, which is 
the northern part of the plateau, by working with local law 
enforcement, developing an information booklet that has been 
sent, basically, to each home. But we have had this trouble in 
finding those dollars to be able to at least provide an 
information flow, a warning system. Bill Gibson, the district 
attorney, has worked--instead of using the money for putting 
more law enforcement officers, really felt that education is 
something that ought to be a part of that. Are there dollars 
available from your agency that could help provide funding for 
educational----
    Mr. Burns. There are, and I would also add that the 
National Youth Anti-drug Media campaign, we have seen, I 
believe, great success with marijuana, and it is our intent to, 
in the near future, start doing methamphetamine ads to better 
educate folks across the country.
    Mr. Davis. Dr. Bell, again, thanks for the work that you 
are doing.
    I have got to ask you this question. If you had additional 
funding available to you, and you seem to be the one college in 
Tennessee that is probably doing the research of finding 
solutions that we must have to address this problem, but if you 
had additional funding, how much more successful could you be 
in giving hope and avenues available to help fight this problem 
in the up and coming----
    Dr. Bell. That is a question that is very appropriate. 
Obviously, it would allow us to do more basic research. It 
would allow us to do more outreach. And in that sense, the 
funding would simply magnify what we are currently doing and 
let us leverage what we are doing.
    You mentioned the booklet the drug task force has done. The 
most recent product, Congressman Davis, is an interactive CD-
ROM that has age-appropriate material on it. It can be filtered 
by the age of the child or the class that they are in. There is 
also material on here that can be focused on sanitation 
workers, on emergency medical services workers, on firemen, or 
on police, or many others. So we are moving to a point that we 
can help deliver to school systems and to others not just 
printed material, but also interactive material that a teacher 
can use. They can pull off of this outlines of curricula, 
interactive tests that they can work with with the students. 
And things like that take resources. We currently, through that 
grant that you were talking about, have the capability to 
produce a number of these. I brought ten copies for the 
Committee as a pre-release, but this should be going public 
next week, and I will be sure that each Member of the Committee 
is given one. Again, further resources would let us distribute 
that in a much wider fashion.
    Mr. Davis. I thank the panel for being here. Mr. Chairman, 
thanks for giving me an opportunity.
    I yield back the rest of my time.
    Chairman Boehlert. Thank you very much.
    Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Do I understand that ephedrine is one of the substances 
used in making this drug? I am searching a very old memory 
bank, but what is the relationship between ephedrine and 
adrenaline?
    Mr. Burns. I would defer to Dr. Schwarz.
    Chairman Boehlert. Dr. Schwarz.
    Mr. Schwarz. They are vaguely related in that they are both 
stimulants. Adrenaline is a vascular stimulant that has 
vasoactive properties, as does ephedrine. They are both, in 
fact, very strong bronchi-dilators, that is why when you have 
somebody in status asthmatics, they are--their bronchi are just 
clamped right down. You give them adrenaline and people who are 
asthmatics, frequently asthmatics, will be taking an ephedrine-
containing compound as well as a dilator. So they have numbers 
of very similar pharmacologic effects.
    Mr. Burns. That is exactly what I was going to say.
    Mr. Bartlett. It was my memory that ephedrine has 
essentially physiologically the effects of adrenaline. Does 
that mean that one of the effects of this drug is that it is 
sympathomimetic? That is one of the effects of the drug? Okay.
    Yeah, what we are doing here today reminds me a little of 
the story of the Thursday night prayer meetings in a rural 
church where every week Brother Jones in his prayer would ask 
the Lord to remove the cobwebs of sin from his life. And after 
several weeks of this, one of the ladies, when it came her time 
to pray, prayed that the Lord would please kill the spider of 
sin in Brother Jones' life. What we are dealing with here, of 
course, are the cobwebs. The spider here is obviously the 
demand for this drug. And as long as there is a demand for this 
drug, there will be laboratories making this drug. Do you feel 
that we are directing enough resources to understanding the 
culture that could support this kind of drug use, because 
ultimately, that is the only way we are going to solve this 
problem? If we don't understand the culture and stop the 
demand, you are going to forever be mopping up these--the 
consequences of these labs. Yeah. We need to do that. You know, 
as it said in the New Testament, ``This ought you to have done 
and not to have left the other undone.'' And we have got to mop 
up these labs, but at the same time, we have got to be moving 
aggressively to understanding the culture that supports this 
level of use. Do you think that we are nationally committing 
enough resources to understanding this? This is a dumb thing 
for young people to do, and it is clearly a matter of 
education.
    Ms. Green. Congressman, based on what we are seeing when we 
work with states, I--my answer would be no. We are not doing 
enough. I think because many states were hit with the 
ballooning of the meth labs, their attention primarily focused 
on taking the labs down and the consequences to the children 
removed. I think there is insufficient attention and 
insufficient resources, both nationally and in every state, 
that is being directed towards the education end of it, also 
the treatment end of it and understanding what treatment is 
available and providing adequate levels and modalities of 
treatment to address the problem, so we don't have, as the 
Director of Oklahoma Bureau of Narcotics told me, in their 
instance, the reason their meth labs were out of control is 
they had active addicts repeatedly returning to the culture and 
making the methamphetamine. So my answer would be, based on 
what I am seeing at the state level, no.
    Mr. Burns. Let me just add to that. Those of us from the 
West Coast have been dealing with this for over 20 years. We 
have been shouting and screaming, ``It is coming. It is 
coming,'' and talking to my colleagues, district attorneys from 
the East Coast years ago, they had no idea what methamphetamine 
was and possibly shame on us because we didn't do a better job. 
But the good news is, Congressman, we are not only dealing with 
the cobwebs, but we are also dealing with the spider on the 
West Coast. Labs are down. There has been a tremendous decrease 
in not only super labs but small, toxic labs. We are getting 
much smarter. We are working together, as Congressman 
Reichert--Sheriff Reichert said with teams and bringing people 
together. But in some states, labs are going through the roof. 
And we need to take what we have learned in California and 
Nevada and Utah and Oregon and Washington and get with our 
brothers and sisters on the East Coast to help. And we are 
doing that.
    Mr. Bartlett. The wind blows from west to east, and many of 
our national problems seem to come from west to east, don't 
they?
    Thank you very much.
    Mr. Burns. Thank you.
    Chairman Boehlert. Thank you.
    Mr. Carnahan, talk about middle America.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
Gordon.
    Yeah, I am from the State of Missouri, and we have the 
unfortunate distinction of being at the top of the problem. 
That is not what we want to be known for. But thank you for 
being here and for your time and your expertise today.
    I wanted to start by asking that law enforcement, and 
Sheriff, maybe I will direct this to you, but with the 
statistics that you mentioned that 50 percent of law 
enforcement are often affected by health issues when they have 
been exposed to these labs and that we don't know enough about 
the health impacts and we really don't have a set standard, 
what guideline or standard do you see in use in law enforcement 
now to protect law enforcement when they are subject to 
exposure?
    Mr. Howard. Well, we take all steps when we take a lab 
down. We don't take any chances. In the beginning, as I said 
earlier, we took some chances and got educated very fast. And I 
have to refer this to Dr. Martyny. He was the one about the 50 
percent of law enforcement officers being overcome by fumes or 
being hurt. But we have, to this point, have not had any 
officers suffer any type of injuries because of the chemicals 
or anything because of the precautions we have taken. We do not 
take any chances. And if there is any member of the team who 
thinks they are going to take a chance are immediately removed. 
We do not put up with any of that. There are serious 
consequences of going in without protection on. As we have seen 
on the video clip, it is very dangerous. So we take every 
precaution we can take or we won't go in. It is as simple as 
that.
    Mr. Carnahan. Thank you.
    I also wanted to follow up on the issue of cost in terms of 
what communities and law enforcement are having to bear. Do you 
see around the country much use of additional financial 
penalties or property forfeitures from property that is 
involved? And is that being put back into the law enforcement 
to help out--to help with the cost of the problem?
    Ms. Green. Congressman, based on what we are seeing, yes. 
What is happening now is they are attempting to seize and 
forward some of the properties, use the proceeds, and that 
would go back into law enforcement. They are creating specified 
penalties, and then that would go into particular earmark funds 
at times with that money being able to go back to law 
enforcement. Even so, what I would say is, based on what we are 
seeing, given the pace at which the labs are multiplying, most 
of the state resources are still being drained in the direction 
of dealing with meth labs. So they are attempting to use those 
mechanisms to the extent they can, but it is still insufficient 
at this point.
    Mr. Hamilton. Congressman, just to add to that, in usual 
law enforcement situations where you seize property that was 
either used in the commission of a crime or was the--or was 
otherwise connected with the crime, you are seizing an asset, 
which does have some financial value to it. One of the problems 
that we are finding is that to seize a--what was the site of a 
meth lab, whether it was a residence or a garage or a motor 
vehicle, because of the contamination and the deadly 
contamination associated with that building or that vehicle, it 
no longer has financial worth associated with it. And in fact, 
in some instances, it is estimated that the cost of 
decontamination or cleaning up the residence may exceed what 
would have been the normal market value of the property. So it 
is another one of the anomalies that comes into play when you 
are dealing with these clan labs.
    Mr. Carnahan. And finally, Dr. Bell, you had mentioned that 
you had done--had some preliminary findings with your research, 
and I wonder if you could briefly describe what those were?
    Dr. Bell. Which research, sir?
    Mr. Carnahan. With regard to--I thought you were describing 
with regard to health impact to people that were exposed.
    Dr. Bell. The studies that we have been involved in have 
been more the psychological and learning disabilities impact. 
And again, they are very preliminary. But some of the areas 
that we are interested in and our district attorney and 
emergency services personnel have worked with us on these, when 
you get a very young child who is in the lab at the point that 
the team moves in, their first confrontation is with a group of 
armed individuals who are dressed in either SWAT or HAZMAT 
suits. They appear to feel like they have been attacked. They 
are immediately stripped of all of their clothing, and they are 
put, Congressman Gordon mentioned the bunny suit, in counties 
where there is planning and resources, that is true, but in 
other counties, they are simply wrapped up in a space blanket 
or some kind of an aluminum foil and taken to an emergency room 
where they know no one, et cetera. The effect in the short term 
is traumatic. What we are unclear of, at this point, is what 
the long-term effect is. Clearly, there are biochemical effects 
that have the potential for dramatic learning disabilities. So 
there is some psychological short-term effect. Some of our data 
indicates that may go away within a few months, especially 
among younger children. But the learning disabilities and the 
other adverse effects, like asthma and breathing problems, 
obviously are going to affect that child for many, many years. 
Our data is very preliminary, so we are dealing with a one-
county school system and a very small sample. And as 
Congressman Davis said, more resources will help us address 
larger populations.
    Mr. Carnahan. Thank you. And thank you all for being here.
    Chairman Boehlert. Thank you very much.
    Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank both you and the Ranking Member for this hearing.
    And let me also thank the Ranking Member for the initiative 
of this legislation, which I was delighted to be a co-sponsor.
    Texas is a large state, but--we are large, but we are not 
without impact of meth labs. And I just site, for the record, 
that as of February 24, 2005, the State of Texas recorded 422 
incidents related to meth labs, and that may mean explosions or 
other incidents that the cooks cook up, if you will. And we 
know that nationwide, there are 16,326 incidents. So we might 
say that we are long overdue in sort of getting our hands 
around this in a national manner.
    And I would pose two questions, and I thank you for your 
indulgence. We are in several hearings that are occurring at 
once, but I thought that this was such an important first 
start, and this legislation, I hope, will move very quickly, 
because I am very interested in the local and federal 
collaboration that I think is important in any fight against 
the proliferation of drugs of any kind.
    Just a few years ago, I passed the date rape drug, that is 
GHB, that people were making in bathtubs. And I am sure that 
law enforcement and others came across this industry of young 
people--even the formulas were on the Internet, a new, 
sophisticated use of the Internet.
    Let me ask just two specific questions. And Ms. Green, if 
you would tell me--I chair, also, the Congressional Children's 
Caucus and am interested in the negative impact on children. 
One, these are homes, mostly. Sometimes the homes are sold. 
Is--the legislation that we are looking at today, can it 
actually save lives?
    Ms. Green. I believe so, Congresswoman, because what is 
unknown now about the research is exactly what effects is the 
exposure having on children. Without that knowledge, it means 
that we don't know what protocols we should be using to address 
the potential problems, the immediate problems of the child, 
but also potential problems in the future. And I think with 
this type of bill, the research first, but also the ability of 
this mechanism to disseminate the information to decision-
makers throughout the country will ensure that the proper 
protocols are developed so that the children can be adequately 
taken care of in the immediate, but also throughout their lives 
to address whatever potential long-term consequences they might 
be suffering as a result of the exposure.
    Ms. Jackson Lee. I think if there is a bottom-line crux or 
anchor or mantle for this hearing it is that this legislation 
can save lives. We are now looking at the aftereffects of the 
firefighters, first responders, and others who went into the 
building, fought the fires of 9/11. We will probably look at 
that, beyond the tragedy of those who lost their lives, those 
who now live with that ailment, if you will, of having gone in 
with those kinds of fumes or chemicals meshed together. So I 
think the question of saving lives is crucial, and in--
particularly in science, good sciences, it is important, but 
the good science that leads to saving lives.
    I would also like to ask Dr. Martyny, who mentioned the 
lack of guidelines for--and forgive me if I was out at another 
hearing when this was discussed, on first responder equipment. 
What do we know about this? Both law enforcement, meaning 
police on the police side, but our firefighters, what do we 
know about the lack of guidelines or how quickly we need to 
move toward providing some answers for that to ensure safety on 
that aspect as well?
    Dr. Martyny. You know, I think we have made huge strides in 
the last, maybe, one or two years. I think, as the Sheriff 
mentioned, we have--most law enforcement agencies nowadays are 
sending people in with self-contained breathing apparatus and 
good clothing, good protective to make sure, number one, that 
they aren't injured. Number two, another factor that we are 
concerned about is them getting contaminated and them bringing 
the contamination home to their families. So we are interested 
in both of those. DEA has been really good at training a lot of 
these officers, and I think we are going to get better and 
better. We still have--are still trying to get the word out. 
And the more training and education we can do, the better off 
we are, but we have moved a long ways in a short period of 
time, and I think we will continue to move.
    Ms. Jackson Lee. Well, I will just conclude my questioning. 
I thank all of the panelists, and your testimony will be well 
reviewed, and I--my lack of questioning is not out of a lack of 
appreciation for your statements, but I just want to emphasize 
that one element of this bill does require a study by the 
National Academy of Science on the long-term health impacts of 
children taken from meth labs, again usually homes, and also on 
first responders. And I would like for this committee to 
monitor the progress being made on the guidelines and usage of 
better equipment for first responders of all kinds, because I 
think your point is very well taken.
    I thank the Chairman, and I yield back my time.
    Chairman Boehlert. And I thank the gentlelady for her 
intervention. And as you can gather from what Ms. Jackson Lee 
said and what has been said by many of our panel members 
previously, this is a subject of great concern. It is growing, 
and we want to contain it, but more importantly, we want to 
learn how to respond to it in an appropriate manner to protect 
all of those innocents out there who are just so vulnerable.
    I want to thank all of you for being facilitators for this 
committee as we go about our business. Thank you very much.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Section-by-Section Analysis of H.R. 798,
            Methamphetamine Remediation Research Act of 2005

Section 1. Short title.

    The Methamphetamine Remediation Research Act of 2005

Section 2. Findings.

Section 3. Voluntary Guidelines. Requires the Assistant Administrator 
                    for Research and Development at the EPA (EPA), in 
                    consultation with the National Institute of 
                    Standards and Technology (NIST), to establish 
                    within one year voluntary guidelines for the 
                    remediation of former methamphetamine labs, 
                    including preliminary site assessments and the 
                    remediation of residual contaminants.

    Requires the Assistant Administrator to consider relevant 
standards, guidelines and requirements in federal, State and local laws 
and regulations, the varying types and locations of former 
methamphetamine labs, and the expected cost of carrying out any 
proposed guidelines in developing the guidelines.
    States that the voluntary guidelines are to be used to assist State 
and local governments in the development and implementation of 
legislation and other policies to apply state-of-the-art knowledge to 
the remediation of former labs. Requires the Assistant Administrator to 
work with State and local governments and other relevant nonfederal 
agencies and organizations, including through the conference in section 
5, to promote and encourage the appropriate adoption of the voluntary 
guidelines.
    Requires the Assistant Administrator to periodically update the 
voluntary guidelines, in consultation with states and other interested 
parties, as necessary and appropriate to incorporate research findings 
and other new knowledge.

Section 4. Research Program.

    Requires the Assistant Administrator to establish a program of 
research to support the development and revision of the voluntary 
guidelines in section 3. Requires research to identify methamphetamine 
laboratory-related chemicals of concern, assess the types and levels of 
exposure to chemicals of concern that may present a significant risk of 
adverse biological effects, better address biological effects and 
minimize adverse human exposures, evaluate the performance of various 
methamphetamine laboratory cleanup and remediation techniques, and 
support other priorities, identified by the Assistant Administrator in 
consultation with states and others.

Section 5. Technology Transfer Conference.

    Requires the Assistant Administrator to convene within 90 days and 
every third year thereafter a conference of State agencies and other 
individuals and organizations involved with the impacts of former 
methamphetamine laboratories. States that the conference should be a 
forum for the Assistant Administrator to provide information on the 
voluntary guidelines and the latest findings of the research program as 
well as an opportunity for the non-federal participants to provide 
information on their problems, needs and experiences with the voluntary 
guidelines.
    Requires the Assistant Administrator within three months to submit 
a report to Congress that summarizes the proceedings of the conference, 
including any recommendations or concern raised and a description of 
how the Assistant Administrator intends to respond to them. Requires 
the report to be made widely available to the general public.

Section 6. Residual Effects Study.

    Requires the Assistant Administrator to enter into an arrangement 
with the National Academy of Science within six months to study the 
status and quality of research on the residual effects of 
methamphetamine laboratories. Requires the study to identify research 
gaps and recommend an agenda for the research program in section 4. 
Requires the study to focus on the need for research on the impact of 
methamphetamine laboratories on residents of buildings where labs are 
or where located, with particular emphasis on the biological effects on 
children and on first responders.

Section 7. Methamphetamine Detection Research and Development Program.

    Requires the Director of NIST, in consultation with the Assistant 
Administrator, to support a research program to develop new 
methamphetamine detection technologies, with emphasis on field test 
kits and site detection and appropriate standard reference materials 
and validation procedures for methamphetamine detection testing.

Section 8. Savings Clause.

    Provides that nothing in this Act shall be construed to change the 
regulatory authority of the EPA.

Section 9. Authorization of Appropriations.

    Authorizes $3 million for each of fiscal years 2006 through 2009 
for the EPA. Authorizes $1.5 million for each of fiscal years 2006 
through 2009 for NIST.

   Prepared Statement of the National Multi Housing Council/National 
            Apartment Association Joint Legislative Program

    Chairman Boehlert, Ranking Member Gordon, and distinguished Members 
of the Science Committee, the National Multi Housing Council (NMHC) and 
the National Apartment Association (NAA) appreciate the opportunity to 
share the views of rental housing providers as the Committee considers 
the Methamphetamine Remediation Research Act of 2005. The National 
Multi Housing Council and the National Apartment Association represent 
the Nation's leading firms participating in the apartment industry and 
are committed to providing safe, affordable, and accessible home 
choices for the 21 percent of all households who live in apartment 
homes.
    NMHC's membership includes the principal officers of the largest 
and most prominent apartment owners, developers, managers and lenders. 
NAA is the largest national federation of state and local apartment 
associations with 164 affiliates and 31,000 professionals who own and 
manage more than five million apartments. NMHC and NAA jointly operate 
a federal legislative program and provide a unified voice for the 
private apartment industry.
    The manufacture of illicit methamphetamine (meth) in makeshift, 
clandestine laboratories is a growing concern throughout the United 
States. In the production process, manufacturers utilize various 
volatile and highly toxic chemicals, resulting in an acute risk of 
poisoning, fire and explosion. Moreover, these labs may pose a health 
and safety threat after drug production ceases, due to the presence of 
hazardous manufacturing byproducts and residual production chemicals, 
if cleanup has not been done properly.
    Given the mobility and small size of illegal drug laboratories, 
they can be located on any type of property and pose considerable 
challenges for any property owner. However, they are particularly 
problematic when located in residential, rental properties. In addition 
to the risk of fire and explosion, the chemical residue left behind by 
these labs may present a hazard to residents. More research is 
necessary to evaluate the efficacy of remediation techniques for the 
indoor environment following its contamination with methamphetamine or 
the byproducts of its production.
    There is a widespread understanding in the commercial real estate 
industry that an identified, illegal drug laboratory must be reported 
to the appropriate law enforcement authorities. Typically, law 
enforcement officials will confiscate or dispose of all drug-
manufacturing equipment and chemicals found at the site, but after this 
bulk cleanup is completed, the property owners face the daunting task 
of dealing with any residual contamination. This is complicated by the 
fact that there are many unsettled questions regarding appropriate 
clean up and restoration of affected properties.

Property remediation standards are necessary.

    Since there is a lack of consensus about how to proceed once the 
crime scene tape has come down, many property owners are questioning 
what, if any, additional cleanup needs to be done to safeguard the 
health and safety of their maintenance workers and residents. Recently, 
several states have enacted mandatory cleanup statutes; however, there 
are no federal guidelines or standards addressing remediation of meth-
contaminated properties, and, with few exceptions, even the states with 
mandatory cleanup laws have failed to define levels of contamination 
and appropriate abatement methods. Those cleanup guidelines that do 
exist acknowledge that the residual health effects and safe 
contamination levels of meth-related chemicals are largely unknown, 
which means these standards are conservative and not directly related 
to scientific or medical findings.
    The lack of scientific evidence or national property remediation 
standards has resulted in widely divergent state-required cleanup 
practices and requirements. Currently, ``safe'' meth contamination 
levels range from 0.5 mg/ft<SUP>2</SUP> to 0.05 mg/100 cm<SUP>2</SUP>. 
Additionally, some states' standards only address the residual 
methamphetamine level itself, while others establish acceptable levels 
for meth-related chemicals, such as mercury, lead, volatile organic 
chemicals and corrosives. Finally, some states require cleanup to be 
completed by a state licensed or otherwise certified remediation 
professional, while others do not.
    This has created tremendous uncertainty and confusion for property 
owners trying to determine the best practices for successful 
decontamination as well as their responsibilities under these new and 
emerging laws. It has also subjected apartment owners and operators to 
malicious or negligent mistreatment by remediation contractors, who may 
recommend a variety of unproven, unnecessary or costly decontamination 
strategies.
    We strongly support the provision of H.R. 798 that directs the U.S. 
Environmental Protection Agency to develop remediation guidelines in 
cooperation with the National Institute of Standards and Technology. 
Since safe and technically sound guidelines are fundamental, we 
question, however, the notion that those guidelines should be 
voluntary, rather than mandatory. Mandatory guidelines could be revised 
in light of applicable technological developments.

Research on potential health effect of residual chemical exposure is 
                    necessary.

    Given the disparities in cleanup protocols, property owners are 
also concerned about the potential liability associated with any 
residual contaminants. Accordingly, we strongly support the provision 
of H.R. 798 that directs the National Academy of Sciences to undertake 
a study to determine what is known regarding the potential health 
effects of contaminants resulting from methamphetamine laboratories.

Improved methods of detection are essential.

    Property owners may not be aware that an illegal drug laboratory 
has operated on their property. Clandestine meth laboratories are 
highly mobile, and manufacturers are learning to hide the tell tale 
signs of meth production through various means, such as using new and 
reportedly, odorless processes. Since meth contamination may be 
imperceptible to the naked eye, there is an essential need for reliable 
rapid detection protocols. Although private vendors are currently 
marketing such tests, validation of these devices and improved accuracy 
of testing methods in general is currently an unmet need.
    Health and safety concerns have motivated several states to enact 
notice and disclosure laws requiring full disclosure of a properties' 
use as a clandestine methamphetamine lab to all prospective buyers or 
residents. Typically, disclosure is only required while a property is 
in fact ``contaminated.'' However, due to the uncertainties inherent in 
current decontamination practices, some states have enacted stricter 
laws requiring disclosure even after the property has been 
decontaminated. Requiring disclosure of contamination that has been 
appropriately remediated unfairly stigmatizes and devalues the property 
and will ultimately serve to exacerbate the existing shortage of 
affordable housing.
    Therefore, it is necessary to develop cleanup guidelines and 
standardized decontamination practices for meth labs, and establish 
guidelines for the training and certification of decontamination 
professionals. This will protect property owners, residents, and 
remediation professionals by providing a clear foundation for the 
remediation of affected properties. This will also provide the public 
with much needed information about meth-related environmental 
exposures.
    This legislation takes a crucial first step towards achieving this 
goal. Research is fundamental to the establishment of effective, 
health-based cleanup standards. It will provide insight regarding safe 
exposure levels to meth-related chemicals, appropriate testing methods, 
and decontamination safety and best practices. This information will 
aid property owners in their continued efforts to protect the health 
and safety of all residents, employees, and visitors.
    In summary, NMHC/NAA support H.R. 798 because it (1) directs 
research to determine effective means of decommissioning meth labs on 
residential property, (2) requires federal authorities to establish 
threshold levels of contamination that protect the public health, and 
(3) funds the development of rapid detection methods so we can monitor 
our indoor environments. In addition, we support the certification of 
trained individuals to remediate meth labs. After following the 
guidance of these trained professionals in remediating the property, 
the property should be by definition ``safe;'' therefore, disclosure of 
the former presence of the illegal lab should not be required.
    Thank you for your consideration of these points.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

</pre></body></html>
